<html>
<title> - NASA'S SCIENCE PROGRAMS: FISCAL YEAR 2009 BUDGET REQUEST AND ISSUES</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]


 
                        NASA'S SCIENCE PROGRAMS:
                        FISCAL YEAR 2009 BUDGET
                           REQUEST AND ISSUES

=======================================================================

                                HEARING

                               BEFORE THE

                       SUBCOMMITTEE ON SPACE AND
                              AERONAUTICS

                  COMMITTEE ON SCIENCE AND TECHNOLOGY
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                               __________

                             MARCH 13, 2008

                               __________

                           Serial No. 110-86

                               __________

     Printed for the use of the Committee on Science and Technology


     Available via the World Wide Web: http://www.science.house.gov

                                 ______


                     U.S. GOVERNMENT PRINTING OFFICE
41-067 PDF                 WASHINGTON DC:  2008
---------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001

                  COMMITTEE ON SCIENCE AND TECHNOLOGY

                 HON. BART GORDON, Tennessee, Chairman
JERRY F. COSTELLO, Illinois          RALPH M. HALL, Texas
EDDIE BERNICE JOHNSON, Texas         F. JAMES SENSENBRENNER JR., 
LYNN C. WOOLSEY, California              Wisconsin
MARK UDALL, Colorado                 LAMAR S. SMITH, Texas
DAVID WU, Oregon                     DANA ROHRABACHER, California
BRIAN BAIRD, Washington              ROSCOE G. BARTLETT, Maryland
BRAD MILLER, North Carolina          VERNON J. EHLERS, Michigan
DANIEL LIPINSKI, Illinois            FRANK D. LUCAS, Oklahoma
NICK LAMPSON, Texas                  JUDY BIGGERT, Illinois
GABRIELLE GIFFORDS, Arizona          W. TODD AKIN, Missouri
JERRY MCNERNEY, California           JO BONNER, Alabama
LAURA RICHARDSON, California         TOM FEENEY, Florida
PAUL KANJORSKI, Pennsylvania         RANDY NEUGEBAUER, Texas
DARLENE HOOLEY, Oregon               BOB INGLIS, South Carolina
STEVEN R. ROTHMAN, New Jersey        DAVID G. REICHERT, Washington
JIM MATHESON, Utah                   MICHAEL T. MCCAUL, Texas
MIKE ROSS, Arkansas                  MARIO DIAZ-BALART, Florida
BEN CHANDLER, Kentucky               PHIL GINGREY, Georgia
RUSS CARNAHAN, Missouri              BRIAN P. BILBRAY, California
CHARLIE MELANCON, Louisiana          ADRIAN SMITH, Nebraska
BARON P. HILL, Indiana               PAUL C. BROUN, Georgia
HARRY E. MITCHELL, Arizona
CHARLES A. WILSON, Ohio
                                 ------                                

                 Subcommittee on Space and Aeronautics

                  HON. MARK UDALL, Colorado, Chairman
DAVID WU, Oregon                     TOM FEENEY, Florida
NICK LAMPSON, Texas                  DANA ROHRABACHER, California
STEVEN R. ROTHMAN, New Jersey        FRANK D. LUCAS, Oklahoma
MIKE ROSS, Arizona                   JO BONNER, Alabama
BEN CHANDLER, Kentucky               MICHAEL T. MCCAUL, Texas
CHARLIE MELANCON, Louisiana              
BART GORDON, Tennessee               RALPH M. HALL, Texas
              RICHARD OBERMANN Subcommittee Staff Director
            PAM WHITNEY Democratic Professional Staff Member
             ALLEN LI Democratic Professional Staff Member
            KEN MONROE Republican Professional Staff Member
            ED FEDDEMAN Republican Professional Staff Member
                    DEVIN BRYANT Research Assistant


                            C O N T E N T S

                             March 13, 2008

                                                                   Page
Witness List.....................................................     2

Hearing Charter..................................................     3

                           Opening Statements

Statement by Representative Mark Udall, Chairman, Subcommittee on 
  Space and Aeronautics, Committee on Science and Technology, 
  U.S. House of Representatives..................................    14
    Written Statement............................................    15

Statement by Representative Tom Feeney, Ranking Minority Member, 
  Subcommittee on Space and Aeronautics, Committee on Science and 
  Technology, U.S. House of Representatives......................    16
    Written Statement............................................    17

Prepared Statement by Representative Nick Lampson, Chairman, 
  Subcommittee on Energy and Environment, Committee on Science 
  and Technology, U.S. House of Representatives..................    18

                               Witnesses:

Dr. S. Alan Stern, Associate Administrator, Science Mission 
  Directorate, National Aeronautics and Space Administration 
  (NASA)
    Oral Statement...............................................    23
    Written Statement............................................    25
    Biography....................................................    34

Dr. Lennard A. Fisk, Thomas M. Donahue Distinguished Professor of 
  Space Science, University of Michigan; Chair, National Research 
  Council Space Studies Board
    Oral Statement...............................................    35
    Written Statement............................................    36
    Biography....................................................    40

Dr. Berrien Moore III, Executive Director, Climate Central, Inc.; 
  Chair, Committee on Earth Studies, Space Studies Board, 
  National Research Council, The National Academies
    Oral Statement...............................................    41
    Written Statement............................................    43
    Biography....................................................    48

Dr. Steven W. Squyres, Goldwin Smith Professor of Astronomy, 
  Cornell University; Principal Investigator, Mars Exploration 
  Rover Project
    Oral Statement...............................................    49
    Written Statement............................................    51
    Biography....................................................    54

Dr. Jack O. Burns, Professor of Astrophysics and Space Astronomy; 
  Vice President Emeritus for Academic Affairs and Research, 
  University of Colorado at Boulder
    Oral Statement...............................................    54
    Written Statement............................................    56

Discussion
  Congressional Thresholds.......................................    62
  International Traffic in Arms Regulation.......................    64
  The Need for Balance...........................................    65
  Arecibo and Near-Earth Objects.................................    66
  The Budget Request and Mars Sample Return Mission..............    68
  The NPOESS Program.............................................    71
  Workforce Issues...............................................    71
  Education, Asteroids and Exoplanets............................    73
  Aviation Emissions and Earth Science...........................    76
  Images From Mars...............................................    77

              Appendix: Answers to Post-Hearing Questions

Dr. S. Alan Stern, Associate Administrator, Science Mission 
  Directorate, National Aeronautics and Space Administration 
  (NASA).........................................................    80

Dr. Lennard A. Fisk, Thomas M. Donahue Distinguished Professor of 
  Space Science, University of Michigan; Chair, National Research 
  Council Space Studies Board....................................    93

Dr. Berrien Moore III, Executive Director, Climate Central, Inc.; 
  Chair, Committee on Earth Studies, Space Studies Board, 
  National Research Council, The National Academies..............    95

Dr. Steven W. Squyres, Goldwin Smith Professor of Astronomy, 
  Cornell University; Principal Investigator, Mars Exploration 
  Rover Project..................................................    97

Dr. Jack O. Burns, Professor of Astrophysics and Space Astronomy; 
  Vice President Emeritus for Academic Affairs and Research, 
  University of Colorado at Boulder..............................   100


  NASA'S SCIENCE PROGRAMS: FISCAL YEAR 2009 BUDGET REQUEST AND ISSUES

                              ----------                              


                        THURSDAY, MARCH 13, 2008

                  House of Representatives,
             Subcommittee on Space and Aeronautics,
                       Committee on Science and Technology,
                                                    Washington, DC.

    The Subcommittee met, pursuant to call, at 2:10 p.m., in 
Room 2318 of the Rayburn House Office Building, Hon. Mark Udall 
[Chairman of the Subcommittee] presiding.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                            hearing charter

                 SUBCOMMITTEE ON SPACE AND AERONAUTICS

                  COMMITTEE ON SCIENCE AND TECHNOLOGY

                     U.S. HOUSE OF REPRESENTATIVES

                        NASA's Science Programs:

                        Fiscal Year 2009 Budget

                           Request and Issues

                        thursday, march 13, 2008
                          2:00 p.m.-4:00 p.m.
                   2318 rayburn house office building

Purpose

    On Thursday, March 13, 2008 at 2:00 p.m., the House Committee on 
Science and Technology, Subcommittee on Space and Aeronautics will hold 
a hearing to examine the National Aeronautics and Space 
Administration's (NASA) Fiscal Year 2009 budget request and plans for 
science programs including Earth science, heliophysics, planetary 
science (including astrobiology), and astrophysics, as well as issues 
related to the programs.

Witnesses:

    Witnesses scheduled to testify at the hearing include the 
following:

Dr. S. Alan Stern, Associate Administrator, Science Mission 
Directorate, National Aeronautics and Space Administration (NASA)

Dr. Lennard A. Fisk, Thomas M. Donahue Distinguished Professor of Space 
Science, University of Michigan; Chair, National Research Council Space 
Studies Board

Dr. Berrien Moore, III, Executive Director, Climate Central, Inc.; 
Chair, Committee on Earth Studies, National Studies Board, National 
Research Council, The National Academies

Dr. Steven W. Squyres, Professor of Astronomy, Cornell University; 
Principal Investigator, Mars Exploration Rover Project

Dr. Jack O. Burns, Professor, Center for Astrophysics and Space 
Astronomy; Vice President Emeritus for Academic Affairs and Research, 
University of Colorado at Boulder

BACKGROUND

Overview
    Over the last year, NASA's Science Mission Directorate launched the 
Dawn mission that will explore two large asteroids; the Phoenix Mars 
lander mission; the Solar Terrestrial Relations Observatory (STEREO) 
mission to study coronal mass ejections from the Sun; the Time History 
of Events and Macroscale Interactions During Substorms (THEMIS) 
mission, and the Aeronomy of Ice in the Mesosphere (AIM) mission.
    In 2008, the Science Mission Directorate plans to launch the 
Interstellar Boundary Explorer (IBEX), the Solar Dynamics Observatory 
(SDO), the Gamma Ray Large Area Space Telescope (GLAST), the Ocean 
Surface Topography Mission (OSTM), the Orbiting Carbon Observatory 
(OCO), conduct a fourth Hubble servicing mission, and complete 
contributions to international and interagency partner missions that 
are planned for launch in 2008.
    This hearing will examine NASA's science programs within NASA's 
Science Mission Directorate (SMD) and their status within the context 
of the Fiscal Year 2009 budget request. The science programs include 
the following theme areas:

        <bullet>  Earth science, which seeks to understand how and what 
        is causing changes in the global Earth system, the effect of 
        natural and human influences on the Earth system and the 
        implications for society, and how the Earth system will change 
        over time;

        <bullet>  Planetary science, which seeks to understand the 
        origin and evolution of the solar system and the prospects for 
        life beyond Earth;

        <bullet>  Astrophysics, which seeks to understand the origin, 
        structure, evolution and future of the Universe and to search 
        for Earth-like planets; and

        <bullet>  Heliophysics, which seeks to understand the Sun and 
        its effects on Earth and the rest of the solar system.

    Stakeholders in NASA's science programs include academic 
institutions; industry; NASA field centers, predominantly the Goddard 
Space Flight Center (GSFC) and the Jet Propulsion Laboratory (JPL); and 
other government laboratories. There are a number of advisory panels 
that provide guidance on NASA's science programs and activities, 
including the National Academies, the Astronomy and Astrophysics 
Advisory Committee (AAAC), and the NASA Advisory Council (NAC) and its 
Science Subcommittees.

Fiscal Year 2009 Budget Request

    The President's FY09 budget requests $4.4 billion in direct program 
dollars to fund NASA's science programs--Earth science, heliophysics, 
planetary science, and astrophysics. The budget represents a $264.7 
million decrease below the FY08 appropriation. Most of this decrease is 
attributed to a transfer of the budget and management for the Deep 
Space Network and Near Earth Networks from the Science Mission 
Directorate to the Space Operations Mission Directorate. (Appendix A 
presents the President's FY09 budget request for NASA's science 
programs.) NASA's science programs represent 25 percent of the 
President's total FY09 budget request for NASA.
    It should be noted that the FY09 budget has been restructured 
pursuant to the Consolidated Appropriation Act, 2008, and is now 
presented in seven accounts. Science, which was previously part of the 
Science, Aeronautics and Exploration account, is broken out as a 
separate line. In addition, the budget estimates presented in the FY09 
request are in direct program dollars rather than in the full cost 
dollars used in previous Presidential budget requests.

Assumed Budget Growth for NASA Science FY 2009-FY 2020
    The President's budget request for NASA and for the Science Mission 
Directorate is assumed to grow at one percent through FY11 and then at 
2.4 percent thereafter, according to a Science Mission Directorate 
website [http://science.hq.nasa.gov/research].

Key Changes in FY 2009 Budget Request for Science Mission Directorate

        <bullet>  Increases for research and analysis (R&A) grants. 
        Research and analysis grants fund theory, modeling, the 
        analysis of mission data, technology development and research 
        on concepts for future science missions. These grants are a 
        principal source of funding and training for graduate students 
        who will serve as the next generation of space scientists.

        <bullet>  Increases intended to revitalize small science 
        projects flown on sub-orbital rockets, aircraft, and balloons. 
        These small science activities provide frequent opportunities 
        for science return and help train students and young 
        researchers in space flights, systems integration, and project 
        management.

        <bullet>  Near-term increases for small scientist-led Explorer 
        missions. The FY09 budget includes plans to select several new 
        Small Explorer missions. This step helps fill what was expected 
        to be a gap in science mission launches over the next few 
        years. In addition, these opportunities help maintain the 
        vitality of the science community and offer valuable training 
        for scientists and engineers.

        <bullet>  Initiates two of the 15 Earth Science missions 
        recommended for NASA in the National Academies decadal survey.

        <bullet>  Proposes new science missions and projects, including 
        an ``Outer Planets'' flagship mission to either Jupiter's moon 
        Europa, the Jupiter system, or Saturn's moon Titan; a Joint 
        Dark Energy Mission (JDEM), which would examine fundamental 
        questions about the Big Bang, black holes, and dark energy in 
        the universe; a Solar Probe mission that would provide close-up 
        measurements of the Sun and the solar wind; a potential small 
        lunar orbiter that would study the lunar atmosphere and dust 
        and two mini-landers that would be the initial nodes in an 
        international geophysical network on the Moon; and a Mars 
        Sample Return mission.

        <bullet>  Makes extensive cuts to Mars Exploration and focuses 
        future plans on a Mars Sample Return endeavor.

        <bullet>  Reduces funding for technology development programs 
        and delays and reduces various programs across the Science 
        Mission Directorate.

        <bullet>  No new funding is provided to the Science account 
        relative to the five-year runout that accompanied the FY08 
        budget request; thus, new funding initiatives in specific 
        program areas are funded by transitioning money from other 
        program areas.

Potential Issues

    The following are some of the potential issues that might be raised 
at the hearing:

        <bullet>  What are the goals of the Science Mission Directorate 
        over the next five years? What are the challenges in meeting 
        those goals?

        <bullet>  What threat do the eight science missions exceeding 
        Congressionally-set cost and schedule thresholds pose for 
        NASA's FY09 science budget and plans?

        <bullet>  Can the ambitious program proposed in the FY09 be 
        executed on a budget assumed to grow at the rate of inflation? 
        What is the contingency strategy?

        <bullet>  Will NASA's approach to technology development 
        provide adequate risk reduction for current projects and 
        currently planned major new initiatives?

        <bullet>  Are NASA's science programs balanced?

        <bullet>  What is the status of NASA's planning to support 
        launches of medium-class science missions? To what degree is 
        the availability of launch vehicles affecting strategic plans 
        for the Science Mission Directorate?

Earth Science

        <bullet>  How sustainable is a budget wedge for Earth Science 
        missions that is built on cuts to other NASA science programs?

        <bullet>  What is the status of climate sensors removed from 
        the NPOESS platform and how do those plans affect NASA's NPOESS 
        Preparatory Project (NPP)?

        <bullet>  What lessons have been learned from the challenges 
        related to the NPP and NPOESS programs and the re-manifesting 
        of climate sensors that were removed from the NPOESS platform? 
        How does NASA plan to apply those lessons to the new Earth 
        Science missions being planned?

        <bullet>  What is NASA's role in the Global Earth Observation 
        System of Systems (GEOSS) and what are the benefits of GEOSS to 
        the U.S.? What should it be? What has been accomplished since 
        the strategic plan for GEOSS was issued three years ago?

Planetary Science

        <bullet>  Is the planetary science program proposed in the FY09 
        budget executable?

        <bullet>  What are the implications of the extensive budgetary 
        cuts and proposed changes in the Mars Exploration Program?

        <bullet>  Does NASA's FY09 budget request and plan for the 
        planetary science program provide the capability to support a 
        Mars Sample Return mission?

Astrophysics

        <bullet>  What are the implications of the lack of a budget 
        wedge to support future ``Decadal'' priorities for astronomy 
        and astrophysics?

        <bullet>  What are the implications of reductions in the 
        Physics of the Cosmos line?

        <bullet>  What is NASA's rationale for proposing a Joint Dark 
        Energy Mission budget that is considerably lower than the cost 
        estimate in a National Academies report, which used an 
        independent cost estimating process?

        <bullet>  Are NASA's plans for an exoplanet mission to explore 
        planets near stars like the Sun consistent with the findings of 
        the Astronomy and Astrophysics Advisory Committee's (a 
        Congressionally-chartered committee) Exoplanet Task Force?

Heliophysics

        <bullet>  Is NASA's plan and proposed budget for initiating a 
        Solar Probe mission realistic?

        <bullet>  How effective is the process of transferring NASA-
        funded research into operational space weather services?

        <bullet>  What is needed to ensure the optimal use of NASA-
        funded research to improve space weather prediction?

Cross-Cutting Issues for Science Programs

What threat do the eight science missions exceeding Congressionally-set 
cost and schedule thresholds pose for NASA's FY09 science budget and 
plans? At the posture hearing on NASA's FY09 budget request held by the 
Full Committee, Administrator Griffin testified that ``NASA's current 
development cost estimate of $325 million for the Glory Earth science 
mission has exceeded the 30 percent threshold and cost growth. Thus, it 
will require explicit authorization in the next 18 months to 
continue.'' NASA's FY09 budget documents report that a total of eight 
projects have exceeded Congressional schedule or cost thresholds--
Herschel, Kepler, NPOESS Preparatory Project, Glory, Orbiting Carbon 
Observatory (OCO), Aquarius, GLAST, and the Stratospheric Observatory 
for Infrared Astronomy (SOFIA). (See Appendix B) Five of the missions 
on the list were added this year; three are carryovers from last year. 
What explicit steps is NASA taking to resolve the issues with these 
missions and to prevent a similar situation arising with future 
missions, especially the new science missions to be initiated with the 
proposed FY09 budget?

Will NASA's approach to technology development provide adequate risk 
reduction for current projects and currently planned major new 
initiatives? The FY09 budget reduces programmatic content for Earth 
science technology by $14.5 million through FY12; reduces programmatic 
content for planetary science technology by $65.7 million through FY12; 
and virtually eliminates the New Millennium flight technology 
validation program with reductions of $210 million through FY12. NASA 
officials informed Committee staff that NASA plans to fund the 
technology required for individual missions through the mission project 
budgets. This approach differs from statements and advice provided 
through reports of the National Academies, which recommended that NASA 
support both cross-cutting technology as well as mission-specific 
technology development. Is NASA taking the right approach to ensuring 
that technologies for new missions are mature and that their risks are 
understood? How does NASA plan to constrain technical risk on future 
missions while also reducing funding for technology development?

Earth Science

    The President's FY09 budget request provides $1.3675 billion for 
NASA's Earth Science program. The FY09 budget represents a 6.8 percent 
increase over the FY08 appropriation and provides a budget wedge of 
$910 million dollars over the five-year runout to initiate the first 
two Earth science missions recommended in the National Academies Earth 
Science decadal survey.
    The Earth Science program funds:

        <bullet>  Science activities, including research on the 
        processes related to the Earth's atmosphere, hydrosphere, 
        biosphere, cryosphere, and land surface and their affects on 
        the climate, weather, and natural hazards; airborne science; 
        and supercomputing capabilities; among other focused research 
        activities;

        <bullet>  The Earth System Science Pathfinder (ESSP) Program, 
        which solicits proposals for scientists to propose small to 
        medium-sized missions. (Three missions are operating and two 
        missions are planned for launch within the next one to two 
        years. The FY09 request does not include plans for future ESSP 
        missions.)

        <bullet>  Technology, including the development of new 
        instruments and measurement techniques, information 
        technologies, and technologies for the Earth science program;

        <bullet>  Grants to support the applied use of NASA Earth 
        science research to societal benefit areas including 
        agricultural efficiency, air quality, aviation, carbon 
        management, coastal management, disaster management, ecological 
        forecasting, energy management, homeland security, invasive 
        species, public health, and water management; and

        <bullet>  The Near-Earth Objects Observation program, which 
        detects, tracks, and characterizes NEOs, as directed by 
        Congress. (This program and the associated funding was moved 
        from the Exploration Systems Mission Directorate to the Science 
        Mission Directorate in 2007.)

Key Issues for Earth Science
How sustainable is a budget wedge for Earth Science missions that is 
built on cuts to other NASA science programs? The FY09 budget request 
includes $910 million in funds in FY09-FY13 for NASA to implement the 
President's FY09 budget requests new starts for the Soil Moisture 
Active Passive (SMAP) mission to measure soil moisture and the ICESat-
II mission to measure changes in the height of ice sheets. NASA also 
plans to start three additional decadal missions within the five-year 
plan presented in the President's FY09 budget request.
    Approximately $570 million of the wedge created for the decadal 
survey missions is funded through the transfer of funding from other 
science divisions, resulting in reductions in the Mars Exploration 
Program, a delay to the Solar Probe mission, and other programmatic 
cuts, according to NASA officials. Funds within the Earth Science 
division that were intended for a competitive selection of an Earth 
Science Pathfinder mission have been redirected to implement the 
decadal survey missions. The National Academies decadal survey report 
called for an increase of $500 million per year for NASA's Earth 
Science program (bringing the program back to the level at which it was 
funded in the year 2000) to enable the implementation of the decadal 
recommendations. While the FY09 budget request enables a positive start 
on the initial two missions identified, what are the implications of 
the gap between the FY09 plan and the resource requirements laid out by 
the Earth Science decadal survey? Is there sufficient funding in the 
five-year budget plan to permit any work on other decadal missions 
beyond the first two?

What is the status of climate sensors that were removed from the NPOESS 
platform and how do current plans for climate sensors affect NASA's 
NPOESS Preparatory Project (NPP)? In attempt to mitigate potential gaps 
in critical climate measurements that were to be part of the NPOESS 
program, the Office of Science and Technology Policy (OSTP), along with 
NOAA and NASA, agreed to sustain high priority climate measurements:

        <bullet>  Total solar irradiance (to be provided by the Total 
        Solar Irradiance Sensor (TSIS) )

        <bullet>  Earth radiation budget data (to be provided by the 
        Clouds and Earth Radiant Energy System (CERES) sensor), and

        <bullet>  Ozone vertical profile data (provided by the OMPS-
        Limb sensor).

    The President's budget requests $74 million per year through FY13 
in the NOAA budget for this purpose. CERES was added to NASA's NPP 
mission. OMPS-Limb was restored to the NPP platform, and TSIS has not 
yet been assigned to a satellite. NASA's NPP mission, which is intended 
to provide risk reduction for sensors to fly on the NPOESS system, has 
been delayed 26 months due to poor contractor performance on the 
Visible/Infrared Imaging Radiometer Suite (VIIRS) sensor.

What is NASA's strategy for transferring Earth Science research and 
instruments into operational services? How are lessons learned from the 
interagency decision-making process to fly high priority climate 
sensors being used to improve the movement of NASA-funded capabilities 
into ongoing operational services? Section 306 of the NASA 
Authorization Act of 2005 directs NASA and NOAA to establish a Joint 
Working Group to ``ensure maximum coordination in the design, 
operation, and transition of missions where appropriate.'' NASA and 
NOAA are coordinating NPOESS climate re-manifestation, NASA's Quick 
Scatterometer mission, NOAA's GOES-R weather satellite program, and the 
series of NASA, NOAA, and French space agency missions to measure 
global sea level, among other activities. Does NASA have a plan and 
identified process for moving NASA research into operational services? 
What are the advantages and disadvantages of reviving the Operational 
Satellite Improvement Program (OSIP), which was the approach to NASA 
and NOAA coordination that existed during the 1970s? What are the 
challenges in planning and executing the transition of NASA research 
into operational services? What, if any, resources are required?
    Over the last year, NASA has been working closely with NOAA and the 
Office of Science and Technology Policy on restoring high priority 
climate measurements that were originally planned for NPOESS. What can 
be learned from this process for improving the effectiveness of 
transitioning research into operations? The Earth Science decadal 
survey recommended that ``Socioeconomic factors should be considered in 
the planning and implementation of Earth observation missions and in 
developing an Earth knowledge and information system.'' Do NASA's plans 
for new Earth science missions include the applied uses of the data for 
societal benefit?

Does NASA have an implementation plan to address potential gaps in the 
Landsat data record? The Landsat Data Continuity Mission (LDCM) will 
continue the observation of the longest civil Earth observation data 
record, which began with the Landsat program in 1972. LDCM is expected 
to launch in 2011. The lifetime of the currently operating Landsat 7 is 
uncertain. LDCM will not include a thermal imaging capability (which 
has been part of the ongoing Landsat data record). This capability is 
of value, in particular, for the management of water resources. NASA 
has said that the cost of a thermal imaging capability exceeds the 
budget that is available for LDCM. The explanatory language in the FY08 
appropriation directed NASA to ``provide a plan on all continuity of 
data for the Landsat Data Continuity Mission (LDCM) to the 
Appropriations Committees no later than 120 days after enactment of 
this Act.'' A study team to consider options for addressing a potential 
data gap between Landsat 7 and LDCM was created well before the FY08 
appropriations direction. Is there an implementation plan in place? 
Will the plan include measures to acquire thermal infrared data to 
ensure continuity of this data?

What is NASA's role in the Global Earth Observation System of Systems 
(GEOSS) and what are the benefits of GEOSS to the U.S.? What has been 
accomplished since the strategic plan for GEOSS was issued three years 
ago? In 2005, 55 nations ``endorsed a 10-year plan to develop and 
implement the Global Earth Observation System of Systems (GEOSS) for 
the purpose of achieving comprehensive, coordinated, and sustained 
observations of the Earth system.'' What benefits has GEOSS yielded for 
NASA's own applications projects, for U.S. researchers, and for users 
of Earth observation data? Are there any concrete examples of 
successes? What should NASA's role in GEOSS be?

Planetary Science

    The President's FY09 budget request provides $1.3342 billion to 
fund NASA's Planetary Science theme. The FY09 budget represents an 
increase of $86.7 million, about seven percent relative to the FY08 
appropriation for planetary science. Within the planetary budget, the 
programmatic content of the Mars Exploration Program is cut by $918 
million through FY12; the programmatic content of the Discovery program 
of competitive, scientist-led missions is cut by $57.9 million through 
FY12; and the programmatic content of the planetary science technology 
program is reduced by $65.7 million through FY12.
    Planetary Science funds:

        <bullet>  Planetary Science research, which includes research 
        and analysis, the lunar science research;

        <bullet>  The Discovery program of competitively-selected 
        scientist-led missions (medium-class);

        <bullet>  The New Frontiers mission of competitively-selected 
        scientist-led missions to designated planets, moons, or bodies;

        <bullet>  Mars Exploration Program consisting of competitively-
        selected, scientist-led Mars Scout missions, and landers, 
        rovers, and orbiters developed by NASA;

        <bullet>  A newly-created Outer Planets program to focus on 
        developing the next planetary flagship mission to the solar 
        system's outer planets; and

        <bullet>  A technology program to continue work on in-space 
        propulsion and radioisotope power systems.

Key Issues for Planetary Sciences

Is the Planetary Science Program Proposed in the FY09 Budget 
Executable? The planetary sciences program, as detailed in the FY09 
budget, would include several new initiatives:

Outer planets mission: NASA-estimated level of $2 billion for U.S. 
        portion, and

New Frontiers mission: NASA-estimated level of $840 million

    In addition, the program intends to fund additional Mars missions 
and maintain the Discovery and New Frontiers lines of competitive, 
scientist-led missions. The major planetary mission currently in 
development, a large rover that will identify possible Martian habitats 
for life (Mars Science Laboratory), has incurred a $165 million 
overrun, according to Science magazine, and has encountered technical 
challenges that could threaten the mission's 2009 launch opportunity.

        <bullet>  Are NASA's budgetary assumptions to support the 
        proposed Mars Exploration Program realistic?

        <bullet>  Is the frequency of small and medium-class scientist-
        led missions appropriately balanced with the larger projects 
        included in the plans?

        <bullet>  What additional steps is NASA taking to ensure robust 
        budget estimates for the proposed program and what trade-offs 
        will be considered?

Do NASA's FY09 budget request and Planetary Science program provide the 
capability to support the proposed Mars architecture, including a 
future Mars Sample Return Mission? The Mars Exploration Program 
Analysis Group (MEPAG), a NASA-chartered group to support planning for 
the scientific exploration of Mars, endorsed NASA's Mars architecture, 
albeit with significant caveats. The group concluded that ``The 
proposed budget does not support the SMD [Science Mission Directorate] 
architecture'' and that ``NASA funding through FY20 is two to three 
billion dollars less than required for this architecture.'' A Mars 
Architecture Tiger Team, which was assembled to assess the 
architecture, also endorsed the plan, but found that ``the SMD planning 
budget, which includes the President's five-year decreasing budget, 
does not support this architecture, even with the planned rapid 
increase in funding beginning in FY17.'' The proposed Mars Exploration 
Budget for FY10-FY12 is roughly half of the levels funded over the last 
five years. The Tiger Team identified alternative options include a 
program focusing only on sample return; a program that excludes sample 
return, a program that delays sample return, or the current program 
(which would require additional resources).

        <bullet>  What should the future Mars program be? What are the 
        advantages and disadvantages of the various options? How will 
        this decision be made?

        <bullet>  What technical challenges must be overcome to support 
        a Mars Sample Return mission and does the Planetary Science 
        program, as proposed in the FY09 budget, provide the vehicles 
        to address those challenges?

What is the status of Astrobiology?
    NASA's astrobiology program is an interdisciplinary program to 
study the origin and evolution of life on Earth and beyond Earth. The 
program funds competitively selected astrobiology research teams 
through the NASA Astrobiology Institute. Recent NASA budget requests 
significantly cut astrobiology (by as much as half). In January 2008, 
NASA issued a solicitation to support additional teams: according to 
the January cooperative agreement notice, ``NASA anticipates making 
$10-12M per year available for this selection, leading to at least 
seven and possibly several more awards (approximately one-third or 
which will be focused on preparing strategic mission objectives) each 
of five years duration.'' What, if any, future role could astrobiology 
play in a future Outer Planets mission, an exoplanet mission, and the 
future Mars Program, including a potential sample return mission? Is 
astrobiology research and the development of astrobiology 
instrumentation on track to contribute to these planned activities?

Lunar Science
    The FY08 budget request included funding for lunar science research 
within the planetary science research line to help support scientific 
research in view of future exploration of the Moon. The FY09 budget 
continues the lunar science research program and requests $669 million 
for FY09-FY13, which includes an increase of $250 million from the FY08 
budget request through FY12, to develop a small lunar orbiter for 
launch by 2011 and two mini lander missions by 2014.

Astrophysics

    The President's NASA FY09 budget request includes $1.1625 billion 
to fund NASA's Astrophysics program. The FY09 request represents a $175 
million or 13 percent decrease relative to the FY08 appropriation for 
astrophysics.
    Astrophysics funds:

        <bullet>  Astrophysics research, including research and 
        analysis grants and scientific activities on balloons and sub-
        orbital rockets;

        <bullet>  Cosmic Origins Program, including the James Webb 
        Space Telescope, the Stratospheric Observatory for Infrared 
        Astronomy (SOFIA), and the Hubble Space Telescope and Hubble 
        Space Telescope Servicing Mission-4;

        <bullet>  Physics of the Cosmos program to explore the nature 
        of dark energy, black holes and other phenomena;

        <bullet>  Exoplanet Exploration to study and identify planets 
        near stars like the Sun; and

        <bullet>  Scientist-led, competitively selected Explorer 
        missions.

Key Issues for Astrophysics

What are the implications of the lack of a budget wedge to support 
future ``Decadal'' priorities for astronomy and astrophysics? The FY09 
budget requests $315.6 million through FY13 to advance recommendations 
of the next decadal survey in astronomy and astrophysics, according to 
internal NASA budget documents. However, the request represents cuts of 
$75.8 million from the FY08 request for such missions, according to 
NASA internal budget documents. NASA officials told Committee staff 
that most of the budget request for future decadal survey missions 
would be held as reserves for the James Webb Space Telescope Mission, 
which requires increases in its reserves in order to manage the mission 
at a 70 percent confidence level. There is no room for future 
astrophysics observatories in the current FY09 budget's five-year 
budget plan. What does this mean for the health of the astrophysics 
program and community?

What are the implications to reductions in the Physics of the Cosmos 
line? What is NASA's rationale for proposing a Joint Dark Energy 
Mission budget that is considerably lower than the cost estimated in a 
National Academies report, which used an independent cost estimating 
process? The FY09 budget proposes $388.5 million for FY09-FY13 to 
develop a JDEM mission and to continue technology development for other 
future missions in the Physics of the Cosmos program (previously called 
the Beyond Einstein program). The JDEM new start responds to a National 
Academies study, which recommends that ``NASA and DOE should proceed 
immediately with a competition to select a Joint Dark Energy Mission 
for a 2009 new start.'' NASA plans to issue an Announcement of 
Opportunity for the mission in FY08, which is planned to be conducted 
in partnership with DOE. NASA estimates the mission cost at the level 
of $600 million, not including a potential contribution from the DOE, 
and anticipates a JDEM launch in 2015. The National Academies study, 
Beyond Einstein: An Architecture for Implementation, included an 
analysis that estimated JDEM mission life cycle costs (as managed at a 
70 percent confidence level) to be $1 billion-$1.3 billion. The 
National Academies study also found that ``LISA [Laser Interferometer 
Space Antenna] is an extraordinarily original and technically bold 
mission concept that will open up an entirely new way of observing the 
universe'' and recommended that NASA provide additional technology 
development funds for LISA. However, the FY09 budget request cuts about 
$129 million from the amount requested for these missions FY09-FY12 for 
future missions in the Physics of the Cosmos program, according to NASA 
internal budget documents.

        <bullet>  How will programmatic cuts affect the overall Physics 
        of the Cosmos program and the technology investments required 
        to continue such innovative missions as LISA?

Are NASA's plans for an exoplanet mission to explore planets near stars 
like the Sun consistent with the findings of the Astronomy and 
Astrophysics Advisory Committee's (a Congressionally-chartered 
committee) Exoplanet Task Force? The FY08 budget request reduced the 
Space Interferometry Mission (SIM) mission, which would conduct a 
census of planetary systems and to identify the location and masses of 
targets for potential further study, to the level of a technology 
development program. The consolidated appropriation for FY08 added $60 
million and included explanatory language directing NASA to start 
developing SIM. The FY09 request does not present SIM as a mission 
development program and instead notes that ``A new medium-class 
Exoplanet mission, managed by the Jet Propulsion Laboratory, will begin 
formulation in 2010, for which a re-scoped version of Space 
Interferometry Mission (SIM) is being evaluated as a potential 
candidate.'' The Astronomy and Astrophysics Advisory Committee, 
chartered by Congress, convened an ExoPlanet Task Force, which 
developed ``a 15-year strategy for the detection and characterization 
of extrasolar planets (``exoplanets'') and planetary systems.''

        <bullet>  What are the advantages and disadvantages of NASA's 
        decision not to pursue full development of SIM?

        <bullet>  Will the exosolar planet mission planned in the FY09 
        budget be revisited as part of the decadal survey, and if so, 
        what does that mean for advancing NASA's newly created 
        Exoplanet Exploration program?

What are the objectives of the Hubble Space Telescope Servicing 
Mission-4? A fourth and final Shuttle servicing mission (STS-125) is 
scheduled for August 2008 to install new science instruments that will 
improve the Hubble's observational capabilities and to replace 
batteries and gyroscopes that will allow the Hubble to continue 
operating through 2013.

Heliophysics

    The President's FY09 budget request for NASA includes $577.3 
million in direct program dollars for the Heliophysics theme, which 
seeks to understand the Sun and its effect on the Earth and the rest of 
the solar system; the conditions in the space environment and their 
effects on astronauts; and to develop and demonstrate technologies to 
predict space weather. The FY09 request represents a decrease of $267.6 
million in direct dollars from the FY08 appropriation, due in large 
part to the programmatic and budgetary transfer of Deep Space Network 
and ground network systems (approximately $250 million) to the Space 
Operations Mission Directorate.
    The program funds:

        <bullet>  Heliophysics research, including research and 
        analysis; space missions; sounding rockets and other scientific 
        platforms; science data and computing technology;

        <bullet>  the Living with a Star program that investigates 
        solar variability and its effects on Earth (space weather) and 
        the rest of the solar system;

        <bullet>  the Solar Terrestrial Probes program, which studies 
        the interrelationships among the Sun, the Earth, and planetary 
        systems; and

        <bullet>  the small and medium-class competitively-selected 
        missions (Explorer missions) that endeavor to provide frequent 
        flight opportunities to investigate focused research.

Key Issues for Heliophysics

How are data collected by NASA research satellites used for operational 
space weather services? What is needed to ensure the optimal use of 
NASA-funded research to improve space weather prediction? The 
Heliophysics Living with a Star Program includes the study of space 
weather and seeks improve our ability to predict variability in our Sun 
and solar storms. Space weather events can interfere with both on-orbit 
spacecraft and terrestrial assets such as electric power grids and can 
pose hazards to astronauts, especially during space walks. As society 
becomes increasingly reliant on global positioning signals for ground-
based applications, communications satellites, and Earth observations 
systems, the potential implication of spacecraft losses or altered 
signals due to space weather intensifies. NASA funds space research 
missions to help understand the nature and behavior of space weather. 
NASA also funds research to develop models of space weather. NOAA is 
responsible for the operational Space Weather Prediction Center, which 
provides forecasts on and alerts of space weather events. The Air Force 
also has a space weather capability. This year, NASA will launch the 
first mission of its Living with a Star Program, the Solar Dynamics 
Observatory (SDO).

        <bullet>  What contribution will the research data from the SDO 
        mission make to improving the prediction of space weather?

        <bullet>  Data from NASA's Advanced Composition Explorer (ACE) 
        research mission have been integrated into operational space 
        weather services. What is NASA's role in helping plan for the 
        continuity of data that is currently provided by ACE?

Are NASA's plan and proposed budget for initiating a Solar Probe 
mission realistic? The Solar Probe mission, which is part of the Living 
With a Star Program, was the highest priority large mission ranked in 
the 2002 National Academies decadal survey for solar and space physics. 
The objectives for the mission are to travel close to the Sun to 
measure the ``heating and acceleration of the solar wind.'' The FY08 
omnibus appropriation provided $17 million ``for the solar probe 
mission for continued technical risk reduction activities and related 
studies. NASA is expected to request a new start. . .in fiscal year 
2009.'' NASA's current plans are to fund a new start for what is 
referred to as ``Solar Probe Plus,'' a scaled down version of Solar 
Probe. However, the FY09 budget request does not include dedicated 
funding for a Solar Probe mission. The status of Solar Probe is at the 
stage of concept development for a potential medium-class mission at a 
NASA estimated level of $750 million. The FY09 request does not propose 
any funding for Solar Probe in FY09, and the proposed FY10 allocation 
is only $3.4 million, although the scheduled launch date is 2015.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Chairman Udall. This hearing will come to order. Good 
afternoon. I want to welcome all of our witnesses to today's 
hearing. Today's hearing continues the Committee's review of 
NASA's fiscal year 2009 budget request, and this time we are 
going to focus on NASA's space and Earth science program.
    NASA's science program has long been one of the agency's 
``crown jewels,'' and it has delivered outstanding results 
since the dawn of the Space Age 50 years ago, results that have 
rewritten the scientific textbooks and captivated the 
imagination of the public both here and around the world.
    I want to see that record of accomplishment and inspiration 
continue. However, I am concerned that NASA's science program 
is facing an uncertain future under the funding plan offered by 
the Administration.
    I know that Dr. Stern is going to put the best face on the 
outlook for NASA science in his remarks today, and he will 
point to a number of areas, such as funding for research and 
analysis and sub-orbital research where NASA has taken steps to 
improve what was a bad situation. And he undoubtedly will point 
to NASA's plans to initiate a number of exciting new science 
missions, including JDEM, an Outer Planets mission, a Solar 
Probe, two of the Earth Science missions recommended by the 
National Academies' Decadal Survey, and a Mars Sample Return 
mission.
    I want to commend Dr. Stern for his efforts to address some 
of the stresses facing the science community from past NASA 
budgetary challenges and for the energy and commitment he has 
brought to his job. Yet, as we will hear from a number of our 
witnesses today, it is not at all clear that it is going to be 
possible to sustain those new initiatives in an effective 
manner under the Administration's assumed funding plan.
    For example, the National Academies estimated that some $7 
billion would be required over the next 12 years to carry out 
the 15 NASA Earth Science missions recommended in the Decadal 
Survey. However, the Administration's budget plan for the next 
five years would allocate less than $1 billion to that effort.
    In the area of Mars exploration, the budget plan would cut 
the annual funding for the Mars program in half over the next 
five years, while still planning for the launch of an ambitious 
Mars Sample Return mission by 2018. And even though the cost of 
a Mars Sample Return mission has been estimated to be in the $5 
billion or higher cost range, NASA is planning to spend only 
$68 million on technology risk reduction activities for the 
mission over the next five years, an amount that seems quite 
low for a mission of such complexity and difficulty.
    Congress will better need to understand NASA's plans and 
assumptions as well as the impact on the current integrated 
Mars exploration program before we can feel comfortable in 
moving forward.
    Another area of concern is the outlook for NASA's 
astrophysics theme. Not only is NASA estimating a cost for its 
new JDEM initiative that is lower than the cost estimate 
contained in the recent National Academies' Beyond Einstein 
Report, but in addition, essentially all of NASA's five-year 
funding wedge for future astrophysics missions is already 
assumed to be needed to compensate for low levels of reserves 
in the James Webb Space Telescope project.
    I could go on, but the basic situation is clear. NASA's 
challenging new science initiatives are to be built on a budget 
that increases by only one percent through fiscal year 2011, 
and that assumes only inflationary increases at best in the 
years beyond that.
    There will be little new money. Instead, there will be a 
continuing need to transfer of funds across the science 
accounts to support each new initiative, an approach some might 
call ``robbing Peter to pay Paul.''
    I am very concerned that such an approach will not prove 
sustainable or credible. And assurances that improved cost 
controls will allow all the projects to be effectively carried 
out will need to be validated, given that eight NASA science 
projects have already exceeded statutory cost and schedule 
growth thresholds.
    We have got a great deal to discuss today. I again want to 
thank all of our witnesses for participating in today's 
hearing, and I very much look forward to your testimony.
    [The prepared statement of Chairman Udall follows:]

               Prepared Statement of Chairman Mark Udall

    Good afternoon. I want to welcome all of our witnesses to today's 
hearing. Today's hearing continues the Committee's review of NASA's FY 
2009 budget request, this time focusing on NASA's space and Earth 
science program.
    NASA's science program has long been one of the agency's ``crown 
jewels,'' and it has delivered outstanding results since the dawn of 
the Space Age 50 years ago--results that have rewritten the scientific 
textbooks and captivated the imagination of the public both here and 
around the world.
    I want to see that record of accomplishment and inspiration 
continue. However, I'm concerned that NASA's science program is facing 
an uncertain future under the funding plan offered by the 
Administration.
    I know that Dr. Stern is going to put the best face on the outlook 
for NASA science in his remarks today, and he will point to a number of 
areas, such as funding for Research and Analysis and sub-orbital 
research, where NASA has taken steps to improve what was a bad 
situation. And he undoubtedly will point to NASA's plans to initiate a 
number of exciting new science missions, including JDEM, an Outer 
Planets mission, a Solar Probe, two of the Earth Science missions 
recommended by the National Academies' Decadal Survey, and a Mars 
Sample Return mission.
    I want to commend Dr. Stern for his efforts to address some of the 
stresses facing the science community from past NASA budgetary 
problems, and for the energy and commitment he has brought to his job. 
Yet, as we will hear from a number of our witnesses today, it is not at 
all clear that it is going to be possible to sustain those new 
initiatives in an effective manner under the Administration's assumed 
funding plan.
    For example, the National Academies estimated that some $7 billion 
would be required over the next 12 years to carry out the 15 NASA Earth 
Science missions recommended in the Decadal Survey. However, the 
Administration's budget plan for the next five years would allocate 
less than $1 billion to that effort.
    In the area of Mars exploration, the budget plan would cut the 
annual funding for the Mars program in half over the next five years, 
while still planning for the launch of an ambitious Mars Sample Return 
mission by 2018. And even though the cost of a Mars Sample Return 
mission has been estimated to be in the $5 billion or higher cost 
range, NASA is planning to spend only $68 million on technology risk 
reduction activities for the mission over the next five years. . .an 
amount that seems quite low for a mission of such complexity and 
difficulty.
    Congress will need to better understand NASA's plans and 
assumptions as well as the impact on the current integrated Mars 
exploration program before we can feel comfortable in moving forward.
    Another area of concern is the outlook for NASA's astrophysics 
theme. Not only is NASA estimating a cost for its new JDEM initiative 
that is lower than the cost estimate contained in the recent National 
Academies' Beyond Einstein report, but in addition, essentially all of 
NASA's five-year funding wedge for future astrophysics missions is 
already assumed to be needed to compensate for low levels of reserves 
in the James Webb Space Telescope project.
    I could go on, but the basic situation is clear.
    NASA's challenging new science initiatives are to be built on a 
budget that increases by only one percent through FY 2011 and that 
assumes only inflationary increases at best in the years beyond that.
    There will be little new money--instead, there will be a continuing 
need to transfer of funds across the science accounts to support each 
new initiative--an approach some might call ``robbing Peter to pay 
Paul.''
    I'm very concerned that such an approach will not prove sustainable 
or credible. And assurances that improved cost controls will allow all 
the projects to be effectively carried out will need to be validated, 
given that eight NASA science projects have already exceeded statutory 
cost and schedule growth thresholds.
    Well, we have a great deal to discuss today. I again want to thank 
all of our witnesses for participating in today's hearing, and I look 
forward to your testimony.

    Chairman Udall. The Chair would now like to recognize the 
gentleman from Florida, Mr. Feeney, the Ranking Member, for an 
opening statement.
    Mr. Feeney. Thank you, Mr. Chairman, and thank you for your 
opening statement. I appreciate all of our witnesses for taking 
time from their busy schedules to be with us today, and we 
greatly value your input and perspectives as we approach a new 
budgetary year.
    Today's hearings examine NASA's fiscal year 2009 science 
budget, the changes proposed by this budget relative to fiscal 
year 2008 and their rationale. I commend Dr. Stern. We are glad 
to see you here today and his management team for putting 
together an exciting, responsive fiscal year 2009 budget 
request. Bearing in mind the NASA science budget profile is 
essentially flat, the fiscal year 2009 request nevertheless 
makes a good effort at remedying a number of deficiencies that 
have been highlighted in recent years.
    In this request, Dr. Stern has demonstrated that he is 
listening to the research community by, among other things, 
adding resources to the research and analysis program, 
increasing the number and frequency of small missions and sub-
orbital flights, and initiating missions proposed in the Earth 
Sciences Decadal Survey.
    This budget request also proposes to add a flagship mission 
to the outer planets, initiate an exciting mission to explore 
the questions of dark energy, and rigorously control mission 
costs to ensure that the taxpayers receive maximum benefit.
    I fully support all of these measures, particularly one to 
ensure that the continuity of missions and prevention of data 
gaps is preserved. Also flagship missions should not be allowed 
to crowd out smaller, but still scientifically important 
missions. A robust science portfolio should contain a variety 
of mission types and objectives.
    Having said that, I want to re-emphasize concerns that I 
raised last month at our hearing on NASA's fiscal year 2009 
budget. America is the world's premier space-faring nation. 
Space preeminence results from the inter-relationship among 
military, civil, and commercial space endeavors. Each augments 
the others. Leadership must be maintained in each activity. 
Strength in only one does not create space preeminence. This 
approach also applies to the separate NASA directorates. Each 
augments one another. Each must pursue and achieve excellence 
to ensure NASA remains the world's preeminent civil space 
agency. But as time passes that terrible February day when we 
lost Columbia, we run the risk of reverting to pre-Columbia 
behavior. As the Columbia Accident Investigation Board 
observed, NASA has usually failed to receive budgetary support 
consistent with its ambitions. The result is an organization 
straining to do too much with too little. Both the legislative 
and executive branches, as well as various NASA constituencies, 
are susceptible of lapsing into this behavior. We are often 
eager to assign new missions to NASA. This compliment stems 
from NASA's ability to perform the most difficult and 
extraordinary of assignments. But all of us, and I emphasize 
the use of the plural, shun from providing that which is 
necessary to continually achieve this excellence. The result of 
our actions is that NASA's resources are shrinking in real 
terms while the agency is charged with maintaining America's 
preeminence as a space-faring nation. The Columbia Accident 
Investigation Board observed ``continued U.S. leadership in 
space is an important national objective. That leadership 
depends on a willingness to pay the costs of achieving it.'' I 
don't mean to divert this hearing's focus, but I want to 
emphasize that all of NASA's programs are interdependent. When 
extraordinary or unforeseen problems are encountered in one, it 
is not uncommon to see the effects ripple throughout NASA's 
other programs.
    Turning back to NASA science, I remain awed by the breadth 
of missions that have been flown or are now flying, the 
discoveries they have enabled, and the cadre of exceptionally 
talented, motivated scientists and engineers who are the heart 
and soul of this enterprise. Their collective efforts have 
generated worldwide renown for NASA as an agency having no 
equal.
    Having invested billions of dollars over the past 50 years 
to develop and nurture this extraordinary capability, it is 
imperative that we sustain it. As we begin the next 50 years of 
science and exploration, I want to ensure that NASA's science 
programs are not burdened by mistakes of the past. We must 
ensure more stability in policies, resources, and agency 
management. We must use accurate cost estimates. We must 
implement management controls to lessen the likelihood of 
skyrocketing growth in mission costs.
    Later this spring, this subcommittee will begin drafting 
legislation reauthorizing NASA. I know our witnesses will 
provide us today with well-reasoned guidance and suggestions on 
how to provide policies and resources needed to sustain and 
build on NASA's record of achievements.
    With that, again, I want to thank you, Mr. Chairman, and 
our witnesses, and I would yield back the balance of my time.
    [The prepared statement of Mr. Feeney follows:]

            Prepared Statement of Representative Tom Feeney

    Thank you, Mr. Chairman, for calling this afternoon's hearing, and 
my thanks to our witnesses for taking time from their busy schedules to 
appear before us. We greatly value your perspectives and judgment.
    Today's hearing examines NASA's Fiscal Year 2009 science budget, 
the changes proposed by this budget relative to Fiscal Year 2008 and 
their rationale.
    I commend Dr. Stern and his management team for putting together an 
exciting and responsive FY09 request. Bearing in mind that the NASA 
science budget profile is essentially flat, the FY09 request 
nevertheless makes a good effort at remedying a number of deficiencies 
that have been highlighted in recent years.
    Through this request, Dr. Stern has demonstrated that he is 
listening to the research community by--among other things--adding 
resources to the Research and Analysis program, increasing the number 
and frequency of small missions and sub-orbital flights, and initiating 
missions proposed in the Earth Sciences decadal survey.
    This budget request also proposes to add a flagship mission to the 
outer planets, initiate an exciting mission to explore the question of 
dark energy, and rigorously control mission costs to ensure that the 
taxpayers receive maximum benefit. I fully support all of these 
measures.
    I particularly want to ensure the continuity of missions and the 
prevention of data gaps. Also flagship missions shouldn't be allowed to 
crowd out smaller but still scientifically important missions. A robust 
science portfolio should contain a variety of mission types and 
objectives.
    Having said that, I want to reemphasize concerns that I raised last 
month at our hearing on NASA's Fiscal Year 2009 budget.
    America is the world's premier space-faring nation. Space 
preeminence results from the interrelationship among military, civil, 
and commercial space endeavors. Each augments the other. Leadership 
must be maintained in each activity. Strength in only one does not 
create space preeminence.
    This approach also applies to the separate NASA directorates. Each 
augments the other. Each must pursue and achieve excellence to ensure 
NASA remains the world's preeminent civil space agency.
    But as time passes from that terrible February day when we lost 
Columbia, we run the risk of reverting to pre-Columbia behavior. As the 
Columbia Accident Investigation Board observed:

         NASA has usually failed to receive budgetary support 
        consistent with its ambitions. The result. . .is an 
        organization straining to do too much with too little.

    Both the legislative and executive branches--as well as various 
NASA constituencies--are susceptible of lapsing into this behavior. We 
are often eager to assign new missions to NASA. This compliment stems 
from NASA's ability to perform the most difficult of assignments.
    But all of us--and I emphasize the use of the plural--shun from 
providing what is necessary to achieve this excellence. The result of 
our actions is that NASA's resources are shrinking in real terms while 
the agency is charged with maintaining America's preeminence as a 
space-faring nation.
    The Columbia Accident Investigation Board observed:

         Continued U.S. leadership in space is an important national 
        objective. That leadership depends on a willingness to pay the 
        costs of achieving it.

    I don't mean to divert this hearing's focus. But I want to 
emphasize that all NASA programs are interdependent. When extraordinary 
or unforeseen problems are encountered in one, it's not uncommon to see 
the effects ripple through other NASA programs.
    Turning back to NASA science, I remain awed by the breadth of 
missions that have been flown--or are now flying, the discoveries they 
have enabled, and the cadre of exceptionally talented and motivated 
scientists and engineers who are the heart and soul of this enterprise. 
Their collective efforts have generated world-wide renown for NASA as 
an agency having no equal. And having invested billions of dollars over 
the past fifty years to develop and nurture this extraordinary 
capability, it is imperative that we sustain it.
    As we begin the next fifty years of science and exploration, I want 
to ensure that NASA's science programs are not burdened by mistakes of 
the past. We must ensure more stability in policies, resources and 
agency management; use accurate cost estimates; and implement 
management controls to lessen the likelihood of skyrocketing growth in 
mission costs.
    Later this spring this subcommittee will begin drafting legislation 
reauthorizing NASA. I know our witnesses will provide well-reasoned 
guidance and suggestions on how to provide policies and resources 
needed to sustain and build NASA's record of achievements.

    Chairman Udall. Thank you, Mr. Feeney. If there are Members 
who wish to submit additional opening statements, your 
statements will be added to the record. Without objection, so 
ordered.
    [The prepared statement of Chairman Lampson follows:]

              Prepared Statement of Chairman Nick Lampson

    I am deeply concerned about the state of NASA's budget and the 
Administration's request for FY09 both in general and in the case of 
the Science Mission Directorate. The President's budget request would 
not even fully cover the cost of inflation next year. While NASA has 
increased funding for science and new research projects, it has done so 
by shifting money from other accounts. Robbing aeronautics and Earth 
science to pay for science and exploration is not the path to a strong 
NASA--or to a strong American economy. I am pleased that NASA is taking 
steps to address recommendations made in the Decadal Surveys, but NASA 
cannot be successful in its missions if it is bleeding one account to 
boost another. I am disappointed that this is taking place and that we 
have been told that NASA will make do with resources available. I fear 
if we continue down this path of anemic funding and once again be 
caught behind the curve as we were in 1957.
    The fact that NASA has so many priorities and missions that have 
not been fully funded, but has requested funding resulting in a $264.7 
million decrease below the FY08 appropriation is troublesome. 
Especially concerning is the decreases in funding for Mars Exploration 
and technology development, in addition to delays and reductions in a 
number of programs across the Science Mission Directorate. These 
programs are vital to fulfilling the Vision and for expanding the 
benefits NASA technology provides for our society.
    As the representative of Johnson Space Center, the home of the 
Astronaut Corp, I have long been a proponent of returning man to the 
Moon and sending humans to Mars. But I believe it is not just about the 
destination, but what we will discover about our universe and ourselves 
along the way. We all know the mission will spur technology and 
business and improve our quality of life. But we cannot do any of that 
if we are underfunding science. We will not have the answers we need to 
go further.
    There is also an unquantifiable return on our investment--and that 
is the excitement in children's eyes when they watch a launch or tell 
you that they want to be an astronaut. We CAN afford to do this--we 
CANNOT afford NOT to.

    Chairman Udall. And in addition, I would like to include a 
statement for the record from the Planetary Society into 
today's hearing.
    [The information follows:]

                   Statement of The Planetary Society

    The Planetary Society appreciates the attention and care paid to 
space exploration and the NASA budget by the House Science and 
Technology Committee. The influence of this committee has enabled the 
many great achievements of the United States in space. We are pleased 
to submit this statement relevant to your consideration of NASA's 
Science Programs: Fiscal Year 2009 Budget Request and Issues.
    The Planetary Society is the largest space interest group in the 
world, representing more than 100,000 members and on-line activists 
from all walks of life. Space exploration, both human and robotic, 
creates enormous public interest and inspires both the generation that 
is privileged to work on it and the next generation that hopes we will 
create for them a positive vision of the future. Our advocacy for space 
exploration is based on that public interest.

Positive Developments

    The 2009 NASA budget submission reflects many positive 
developments, notably in Earth and Space Science. We commend the Agency 
and praise Drs. Griffin and Stern for the jobs they are doing, 
balancing so many interests with so many constraints. After years of 
neglect for Earth Science by the Administration, we were pleased to see 
that they are proposing two new Earth-observing satellites, clearly 
responding to the U.S. National Research Council recommendations. A 
funding increase in NOAA for instrument development accompanied the 
NASA new starts for Earth observation missions. We hope both the NASA 
and NOAA increases will be supported by Congress. Earth observations 
are crucial to understanding the issues of global climate change. With 
Mars and Venus, we see examples of planets gone bad and can apply those 
lessons to better understanding our own world. One of the greatest 
benefits of space exploration has been the creation of assets that will 
help us deal with the great problems of monitoring and protecting the 
Earth.
    NASA also proposes new funding to start an Outer Planets 
``Flagship'' Mission, either to Europa in the Jupiter system or to 
Titan in the Saturn system. Their selection will be announced later 
this year. A Europa orbiter, recommended in the National Research 
Council (NRC) Decadal study, was advocated by The Planetary Society and 
endorsed by the Congress for the past two years. Previously NASA had 
rejected additional funds to start the mission. This year, however, 
they have said they will commit to the new start. The outer planets new 
start is overdue, and we ask Congress to support it.

Concerns Continue for Science

    Over the past two years, The Planetary Society has conducted a 
``Save Our Science'' campaign against cuts made by the Administration 
in the science budget to compensate for expected funding for the Vision 
for Space Exploration that has not materialized. Some saw our pro-
science position as anti-exploration--but we emphatically reject any 
such interpretation: We are very much pro-exploration and see science 
and exploration as inseparable. We appreciate Congress' support of 
space science funding, and recognize that NASA's science program 
proposed in the FY09 budget takes account of that support. Some 
positive changes have been made, but only by transferring the pain from 
one program to another.
    Unfortunately, the devastating cuts to science made two years ago 
are still felt in the new budget. This year the pain is transferred to 
Mars. The positive changes in NASA's new budget came at the expense of 
a $200 million cut (35 percent) in Mars exploration. This tactic of 
moving the cuts around from year to year to please one community while 
hurting another was more or less admitted in recent Congressional 
testimony when the Associate Administrator for Space Science said that 
they transferred money from the only program which got an ``A'' in the 
NRC Decadal Study evaluation (Mars) to bolster programs that got a 
``D'' or ``F.''

Moon, Mars and Beyond is now Only the Moon

    All of this moving money around within the Science budget does not 
alter the Administration's approach of scaling back the Vision for 
Space Exploration by reducing the Constellation program to just 
developing a new rocket and building a lunar base.
    The Vision for Space Exploration was offered as a broad program of 
robotic and human exploration. It asserts the goal of landing 
astronauts on Mars, but in its first year of budget submission, the 
NASA Exploration Office was stripped of all Mars funding. The Mars 
Sample Return, then being initiated as a scientific robotic precursor 
to human space flight, had its funding canceled. Since then, 
culminating in this year's huge 35 percent cut, the program has been 
scaled back every year--despite the enormous public excitement about 
what is being found at Mars, lessons that teach us about past, present 
and future habitability.
    That cut-back is described in the attached figure showing the 
Administration's proposed Mars budget since the Vision for Space 
Exploration was announced, as well as its five-year projection.

Mars Matters!

    Mars exploration drives public interest in space. As Mars is the 
only planet we know, besides Earth, with accessible oxygen and water, 
it is a focus for understanding life and habitability of other worlds. 
For a decade now, the Mars program has been guided by the instruction 
to ``follow the water.'' That strategy has proved very successful, but 
it is not time to turn off exploration--it is time to move to the next 
exciting stage.
    Scientific questions about Mars now can focus on understanding 
conditions crucial to understanding life on other worlds and, even more 
importantly, conditions crucial to understanding life on planet Earth. 
Mars' thin CO<INF>2</INF> atmosphere, gigantic dust storms, and starkly 
revealed history of climate change provide a laboratory for studying 
atmospheric processes that are now changing Earth's climate.
    As noted at the beginning of this statement, we are not a 
scientific special interest complaining that our area is being cut in 
favor of other scientific areas. Indeed, the Mars program problem does 
not affect only science program in NASA--it is a NASA-wide problem. The 
goal of human exploration is Mars; public interest in the search for 
extraterrestrial life centers on Mars; the question of humankind's 
future on other worlds will begin to be answered on Mars. Mars is 
firmly tied to understanding the processes of habitability and global 
climate change.
    This is why the Mars program was fully restructured in 2000 into a 
strategic set of interrelated missions leading to robotic and then 
human sample return. That approach, binding exploration and science 
together, is now weakened. After the elimination of Mars from the 
Exploration program, Mars is now being diminished in the Science 
program. The planned 2011 Telecommunications and Science orbiter was 
first slipped to 2013. This year it is being moved to 2016 (with some 
uncertainty that it will even be included in the next five-year plan). 
The program of launching at every Mars opportunity, begun with 
Pathfinder in 1997, has been abandoned, and it appears likely that 
there will be no lander for more than a decade following the scheduled 
2009 Mars Science Laboratory.
    In principle, we support the new direction for Mars Sample Return 
proposed by NASA. But it is being offered with almost no technology 
development funds in the next five years. The Mars Exploration Program 
Analysis Group (MEPAG) recently reviewed this and concluded, ``Without 
the assumption that the funding for Mars exploration will dramatically 
increase from the proposed level of $300-400M per year (FY11-13) to 
levels of $600-900M per year in the future, then MSR cannot happen'' 
(emphasis added).
    What we see is a microcosm of what has happened to the Vision for 
Space Exploration--offer a grand plan with promises for future years, 
then scale it back to remove its essence. For the Agency to be in the 
position of eliminating the goal of human exploration to fund its year-
by-year needs is not just ironic, it is doomed to curtail public 
support for the program. We believe the reason that the Vision for 
Space Exploration and its first step with Constellation have failed to 
excite the public is because of diminishing the Mars goal and focusing 
on re-creating Apollo.

The Vision is Strong; Its Support is Weak

    The Planetary Society is a public-interest group; we fully 
recognize the larger issues constraining NASA and its budget. We do not 
fault, and indeed we reiterate our praise of, the leaders of the 
Agency--specifically Drs. Griffin and Stern--doing great public service 
and the best they can in an over-constrained situation. Dr. Griffin's 
strong leadership to retire the Shuttle and move the human exploration 
goal forward deserves great praise. The lack of Administration support 
for its own Vision, and its reduction to a lunar base program, is not 
the fault of NASA. Political leadership and redirection is the only 
solution because budget pressures are going to get worse, and political 
priorities are certain to change next January.
    For this reason, The Planetary Society joined with Stanford 
University's Department of Aeronautics and Astronautics to hold a two-
day workshop of experts to ``Examine the Vision.'' The Workshop 
conclusions were:

        <bullet>  It is time to go beyond LEO with people as explorers. 
        The purpose of sustained human exploration is to go to Mars and 
        beyond. The significance of the Moon and other intermediate 
        destinations is to serve as stepping stones on the path to that 
        goal.

        <bullet>  Bringing together scientists, astronauts, engineers, 
        policy analysts, and industry executives in a single 
        conversation created an environment where insights across 
        traditional boundaries occurred.

        <bullet>  Human space exploration is undertaken to serve 
        national and international interests. It provides important 
        opportunities to advance science, but science is not the 
        primary motivation.

        <bullet>  Sustained human exploration requires enhanced 
        international collaboration and offers the United States an 
        opportunity for global leadership.

        <bullet>  NASA has not received the budget increases to support 
        the mandated human exploration program as well as other vital 
        parts of the NASA portfolio, including space science, 
        aeronautics, technology requirements, and especially Earth 
        observations, given the urgency of global climate change.

    Some in the space community were looking for something more radical 
to come out of the workshop--a new destination or even elimination of 
the Vision. But the problem is not the Vision--it is with the blinders 
put around it. The Workshop's first conclusion emphasizes that Mars is 
the driver, and in our view, the lack of public enthusiasm is directly 
related to not tying both the Vision's human AND robotic elements to 
the Mars goal.
    The third and fourth conclusions emphasize that the Vision has not 
yet found its political niche. Perhaps the next Administration will 
find it and will understand that the cost and risk of human space 
flight are only justified when they serve national and international 
geopolitical interests. We believe that the need to bring nations 
together in space and on Earth is interest enough. International 
cooperation, especially at the Moon where so many other nations are 
following American footsteps (and Russian robotic tracks), could lower 
costs and heighten interest. It could move us to Mars faster.
    Which brings us to the fifth conclusion: The Vision has been 
underfunded, and that has caused dislocations that will only get 
greater. Budget should follow public support. Support requires that 
Mars be set as the goal for astronauts, and that the cost and risk be 
shared internationally. The proposed Mars Sample Return is also 
underfunded and also may fail to be realized. MEPAG and the NRC have 
rated Mars Sample Return a top priority, but it needs broader NASA 
support, and like the Vision, it needs international cooperation. We 
ask you to restore science and exploration funding for Mars to this 
end.
    Congress should assert the public interest in Mars science and 
exploration. That way America will really have a Vision for Space 
Exploration, one that will serve our country and excite the world with 
adventure, discovery and inspiration.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Chairman Udall. Moving on, at this time I would like to 
introduce our panel of witnesses, and I might like to add we 
were conferring briefly during Mr. Feeney's statement. It looks 
like there will be two votes on the Floor of the House in the 
next 10 minutes or so, and what I would like to do is continue 
the hearing as long as we possibly can. Then we will recess 
temporarily to travel to the Floor and cast those votes.
    Let me introduce this remarkable, impressive panel of 
witnesses we have today. First up we have Dr. Alan Stern, 
NASA's Associate Administrator for the Science Mission 
Directorate. Next to him, Dr. Lennard Fisk who is the Thomas M. 
Donahue Distinguished Professor of Space Science at the 
University of Michigan as well as the Chair of the National 
Research Council's Space Studies Board. Dr. Berrien Moore is at 
the center of the table who is the new Executive Director of 
Climate Central as well as the Chair of the National Research 
Council's Committee on Earth Studies. Next to him, Dr. Steven 
Squyres is the Goldwin Smith Professor of Astronomy at Cornell 
University as well as the principal investigator for the highly 
successful Mars Exploration Rover Project. And finally, it is a 
pleasure to introduce a constituent of mine from my home 
district of Boulder, Dr. Jack Burns who is a Professor of 
Astrophysics and Space Astronomy as well as the Vice-President 
Emeritus for Academic Affairs and Research at the University of 
Colorado at Boulder. Welcome. As our witnesses should know, 
spoken testimony is limited to five minutes each, after which 
the Members of the Subcommittee will have five minutes each to 
ask questions.
    I am going to return to Dr. Stern, and I should so the 
record is clear also acknowledge that Dr. Stern is a 
constituent of mine as well as a long-time resident of Colorado 
and has taken on a very important assignment at NASA. We are 
very proud of the work that you have done, Dr. Stern. The floor 
is yours.

   STATEMENT OF DR. S. ALAN STERN, ASSOCIATE ADMINISTRATOR, 
  SCIENCE MISSION DIRECTORATE, NATIONAL AERONAUTICS AND SPACE 
                     ADMINISTRATION (NASA)

    Dr. Stern. Thank you, Mr. Chairman. Chairman Udall, Ranking 
Member Feeney, Members of the Committee, thank you for inviting 
me here to discuss NASA's fiscal year 2009 budget request for 
the Science Mission Directorate. It has been my pleasure to 
serve for almost a year now here at NASA, and I want to 
acknowledge the strong support of both Administrator Griffin 
and the exemplary leadership team that we have at SMD.
    These are exciting times in the space and Earth sciences. 
We are currently building or flying 85 separate flight 
missions, and we fund over 3,000 research grants to scientific 
investigators. In the past year alone, NASA satellites have 
observed new details of subtle interaction between the oceans, 
the atmosphere, and polar ice that portend global change. 
Messenger just gave humanity its first look at the unseen side 
of Mercury. Cassini continues to reveal new insights about 
Saturn, its rings, and moons. The Stereo Mission is providing 
revolutionary 3-D images of the sun, and our space telescopes 
Hubble, Chandra, and Spitzer are giving us tantalizing clues to 
the nature of dark matter, dark energy, and the revealing 
characteristics of planetary systems around other stars. These 
are just a few examples of exciting developments going on in 
our field. However, as we look ahead, as you know we are 
confronted with a series of challenges. When I arrived last 
April, I said that we would address the concern that SMD's 
portfolio had become too heavily weighted towards large 
missions at the expense of small and medium-scale 
opportunities. One of the most harmful consequences of this 
imbalance was in the steep reduction in the number of 
opportunities for flight research, particularly in the 2010 to 
2012 timeframe. In addition I said that I would readdress the 
decline in funding for research analysis and the reduced 
science return on large investments that we are making in the 
science missions that we are flying. Well, I in the fiscal year 
2009 budget request, we made budget priorities of these very 
important needs. We also adopted two additional budget 
priorities, accelerating progress on the Earth Science Decadal 
Survey and building a lunar science community. With 
Administrator Griffin's backing, the President's budget request 
accomplishes all of these objectives. More specifically the new 
budget request offers seven new funded starts, significantly 
increases R&A, steeply accelerates the sub-orbital program, 
initiates a lunar program, and makes a head-turning start on 
the Earth Science Decadal Survey.
    As described in NASA's budget justification, the proposed 
program is fully supported with this request. To ensure that, 
we will continue to closely manage to cost and schedule through 
the development cycle. We will identify descoping options and 
appropriate trigger points. We will consider rescoping missions 
when cost boundaries are violated. We are also placing a new 
emphasis on the value of experienced principal investigators on 
ensuring adequate mission reserve funds and on stronger 
international collaboration ties.
    Regarding our plans for mission new starts, it is important 
to note that we launched four missions last year, and we plan 
on launching six missions this year. As you know, when a 
mission is launched, its budget profile steeply declines from 
the development phase to the operations phase. Those 10 
missions that we have launched represents 10 wedges that have 
opened up, and those are the wedges that are supporting in 
large measure the new starts financially that we are making in 
space and Earth sciences.
    Now, I do want to point out that the nature of program 
management with any fixed budget means that resources are 
limited and choices have to be made. That is not a bad thing. 
In fact, it forces the clarity of purpose and prioritization 
that both NASA and the scientific community have embraced. But 
I do want to specifically highlight the fact that none of our 
four science areas with the budgets that we are proposing can 
achieve a balance program while sustaining two simultaneous 
flagship class missions. Therefore, it is inevitable that the 
astrophysics budget cannot bear a second flagship while 
developing JWST and that the planetary program cannot bear both 
the outer planets flagship and the Mars Sample Return. So we 
must do them in sequence and series rather than in parallel.
    I believe we have been successful to date in this kind of 
regard, and I want to offer two examples of that success. The 
first is that in astrophysics we have scoped appropriate 
cosmology and exoplanet missions that are medium scale but can 
coexist with the development of JWST so that we can make 
progress before the development of JWST is complete in both 
dark energy and later in exoplanets.
    The second example is in rectifying the D grade that the 
National Research Council gave us in terms of outer planet 
exploration. We intend to fix that, and we are doing that 
because the Mars program has enjoyed a recent high, a 25-year 
high in its budget that is almost unprecedented. That high is 
due to the fact that we have been developing a Mars flagship 
called MSL, the Mars Science Lab. As that development finishes, 
the Mars program will be returning to its historic average over 
the last 25 years to make room for the outer planets flagship. 
Then, following the development of the outer planets flagship, 
we will have an opportunity to ramp the Mars budget back up to 
do Mars Sample Return. And we take turns as we have in the past 
with Cassini, then Mars science lab, next outer planets 
flagship, and then Mars Sample Return.
    In closing, I hope that the other witnesses here today 
share the view that the Earth and Space Science Program of the 
United States is the most ambitious and successful such program 
in the world. In fact, our efforts are the envy of the world. 
There is something every American can be proud of.
    Thank you for the opportunity to share our plans and 
perspectives with you and for your support of our efforts to 
chart a bright future for the space and Earth sciences.
    [The prepared statement of Dr. Stern follows:]

                  Prepared Statement of S. Alan Stern

    Chairman Udall and Members of the Subcommittee, thank you for the 
opportunity to appear today as Associate Administrator for NASA's 
Science Mission Directorate (SMD). It's been my privilege to serve as 
Associate Administrator for almost a year now, and I want to 
acknowledge the support of SMD's exemplary management team over what 
has been an extremely busy and productive year.

Overview

    These are exciting times for the Nation in the Space and Earth 
sciences. NASA satellites have observed interactions among oceans, 
atmosphere and ice to show how changes in the polar regions may reflect 
and portend global changes in climate. Elsewhere in the solar system, 
our MESSENGER (Mercury Surface, Space Environment, Geochemistry and 
Ranging) spacecraft just gave humanity its first look at the unmapped 
hemisphere of Mercury. Cassini continues to reveal new features of the 
moons and rings of Saturn, and of Saturn itself and its magnetosphere. 
The Great Observatories space telescopes (Hubble, Chandra and Spitzer) 
are giving us tantalizing clues of the nature and distribution of dark 
energy in the universe and revealing the characteristics of planets 
that circle other stars. The intrepid Voyager spacecraft are returning 
data from the termination shock where the shell formed by solar wind 
encounters interstellar space. The Aeronomy of Ice in the Mesosphere 
(AIM) spacecraft, launched in 2007 is providing revolutionary data on 
changes in noctilucent clouds that appear to be related to global 
change. These are but a few examples of exciting developments in NASA's 
space and Earth sciences program.
    In 2007 NASA launched four new orbital and planetary science 
missions (Time History of Events and Macroscale Interactions during 
Substorms (THEMIS), AIM, Phoenix, and Dawn), two major airborne Earth 
science campaigns, plus some rapid-response airborne remote sensing aid 
to the California wildfire emergencies, and the first test flights of 
the Stratospheric Observatory for Infrared Astronomy (SOFIA) 747 
airborne infrared observatory--all without any significant mishap or 
malfunction.
    Further, no fewer than six new NASA orbital science missions 
reached their final stages of development and are expected to fly in 
2008. These are: the Ocean Surface Topography Mission (OSTM), the 
Gamma-ray Large Area Space Telescope (GLAST), the Hubble Space 
Telescope Servicing Mission 4 (HST-SM4), the Orbiting Carbon 
Observatory (OCO), the Interstellar Boundary Explorer (IBEX), and the 
Solar Dynamics Observatory (SDO). We also continue the development of a 
Landsat follow-on mission and four other NASA Earth science missions, 
as well as a bevy of space science missions. And, we look forward in 
2008 to the next MESSENGER flyby of Mercury (in October), the Phoenix 
Mars landing (in May), and the NASA Exploration Systems Mission 
Directorate's launch of the Lunar Reconnaissance Orbiter (LRO) and 
Lunar Crater Observation and Sensing Satellite (LCROSS) lunar missions.
    These accomplishments and others in our program of over 90 flight 
missions and over 3,000 research grant activities describe a current 
program that is healthy, vigorous, and a model for the world. However, 
as we look ahead we are confronted with a series of challenges. NASA 
has heard repeatedly from the scientific community that its portfolio 
of missions has become too heavily weighted toward large missions at 
the expense of small and medium size opportunities. One of the most 
harmful consequences of this imbalance was a steep reduction in the 
number of opportunities for flight research, particularly in the 2010 
to 2012 time period. Beyond the difficulties that this imbalance 
imposed on the current program, a lack of smaller ``entry level'' 
opportunities creates significant challenges as we seek to develop a 
skilled and capable cadre of investigators for the future. In addition, 
a decline in available resources for Research and Analysis (R&A) had 
the potential to exacerbate these problems and reduce the science 
return from the investments we make.
    As we worked to develop the FY 2009 budget request we sought to 
address these issues by increasing the flight rate, rebalancing planned 
missions in favor of medium and small missions, increasing sub-orbital 
missions, and reversing the downward trend in funding for R&A. In 
addition, we adopted two additional budget priorities: accelerating 
progress on the new Earth Science Decadal Survey report; and building a 
lunar science community. The President's FY 2009 budget request for 
NASA succeeds in implementing these goals while remaining within the 
planned Science Mission Directorate budget runout. This has been 
accomplished by launching numerous missions last year and thereby 
opening cost wedges for new missions; more closely managing costs; re-
phasing the development of several missions; avoiding some cost 
overruns; and pursuing economies in the operations budgets for a number 
of missions. Looking to the future, it will be critical to continue to 
attack what is arguably the root cause of the imbalances we redress in 
the FY 2009 budget request: cost growth for missions in development. 
For at the end of the day, no strategy for maintaining a balanced 
program can succeed for long in the absence of disciplined program 
management.
    Among the many steps NASA has taken, perhaps the most dramatic and 
direct is to initiate seven new missions with our FY 2009 budget 
request. These missions represent substantial progress in rebalancing 
the program and respond directly to the National Research Council's 
(NRC) decadal surveys (and related priority-setting activities) in each 
of our four disciplines within SMD: Earth science, astrophysics, 
planetary science, and heliophysics. These seven new missions are:

         Ice Cloud and land Elevation Satellite (ICESat-II) will use 
        lasers to measure the heights of ice sheets around the world to 
        support climate change diagnosis and analyze forest canopies to 
        inform our understanding of the carbon cycle. ICESat-II is 
        planned for launch in 2015 and will be managed by NASA's 
        Goddard Space Flight Center (GSFC) in Maryland.

         Soil Moisture Active-Passive (SMAP) will observe soil moisture 
        and freeze-thaw cycles to expand our understanding of weather 
        and the water cycle. SMAP is planned for launch in 2012 and 
        will be managed by the Jet Propulsion Laboratory (JPL) in 
        California.

         Joint Dark Energy Mission (JDEM) will measure cosmological 
        parameters to explore the unseen dark energy that makes up most 
        of the expanding universe. JDEM is planned for launch in 2014-
        2015 and will be managed by NASA's GSFC. JDEM is a joint 
        mission with the Department of Energy.

         Outer Planets Flagship will travel to one of three extremely 
        interesting moons of the outer planets (Europa, Titan, or 
        Ganymede) that may have the potential to support life. The 
        Outer Planets Flagship is planned for launch in 2016-2017 and 
        will be managed by the JPL.

         Lunar Atmosphere and Dust Environment Explorer (LADEE) will 
        explore and characterize the Moon's tenuous atmosphere. LADEE 
        is planned for launch in 2010-2011, and will be managed by 
        NASA's Ames Research Center with its program office at NASA's 
        Marshall Space Flight Center (MSFC) in Alabama.

         Lunar Network Landers will establish two nodes of a planned 
        international seismic network for monitoring the Moon's 
        internal processes. The landers are planned for launch in 2013-
        2014, and will be managed by NASA's MSFC.

         Solar Probe Plus will fly through the Sun's atmosphere or 
        ``corona'' to understand how the Sun's corona is heated and how 
        the solar wind is accelerated. Solar Probe Plus is planned for 
        launch in 2015 and will be managed by NASA's GSFC.

    As is described in NASA's budget justification, these missions are 
fully supported within the request. These new missions are made 
possible within the out year projections in the FY 2009 budget request 
largely by the completion and launch of missions currently in 
development. NASA plans to launch more than 15 science missions over 
the next two years, creating the new mission opportunities the Agency 
and the community have regarded as critical to make further progress on 
the decadal survey priorities in each of the four science areas. 
Additionally, we are conducting studies of a host of other important 
new missions that we hope will reach new project status in coming 
years, including a new astrophysics mission to search for Exoplanets, a 
Mars Sample Return mission, two more Earth science decadal survey 
missions, and a future mission to study dangerous solar radiation.

Goals and Management Approach

    When I testified before this subcommittee last year I described the 
following guiding principles for NASA's Science Mission Directorate 
(SMD):

        <bullet>  make strong progress advancing all four decadal 
        surveys;

        <bullet>  accomplish more science from the SMD budget; and,

        <bullet>  help ensure that the Vision for Space Exploration is 
        successful by increasing the scientific yield it will produce.

    Further, I identified three areas for increased emphasis within 
NASA's budget for Science: strengthen investment in Research and 
Analysis (R&A); strengthen investments in mission data analysis to 
ensure that we get the best science value for the dollars we invest in 
missions; and, reinvigorate our program of sub-orbital research to 
train a new generation of researchers, advance technology development, 
and help bridge the 2010 to 2012 gap in orbital and planetary mission 
launches.
    I will now discuss how each of these objectives is being addressed 
in SMD.

Advancing the Decadal Surveys in the FY 2009 Budget Request

    NASA contracts with the NRC of the National Academies to identify 
and develop scientific consensus planning documents for each of the 
four science disciplines (Earth Science, Heliophysics, Planetary 
Science, and Astrophysics). These documents have become known as the 
``decadal surveys'' because they assess proposed activities and 
recommend investment priorities over a 10-year timeframe for each 
discipline. In effect, ``advancing the decadal surveys,'' means 
pursuing the highest value science objectives for each discipline as 
established by a consensus of leading scientists in the discipline.
    The FY 2009 budget request includes $1.37 billion for Earth 
Science. This budget request represents a substantial step forward in 
responding to the recommendations of the first NRC Decadal Survey for 
Earth Science, released in 2007. The five-year budget runout requests 
$910 million for priorities enumerated in the survey and represents a 
major initiative in NASA to concentrate more heavily on Earth science 
at this critical time. This funding will support five Decadal Survey 
mission priorities, including the immediate start of two Decadal Survey 
new mission priorities--the Soil Moisture Active/Passive (SMAP) mission 
scheduled to launch as early as 2012, and the Ice, Clouds, land 
Elevation Satellite II (ICESat-II) scheduled to launch in 2015--as well 
as formulation of two additional Decadal Survey missions and a Venture 
class mission also recommended in the Decadal Survey.
    The request also includes funding for over 1,700 research and 
analysis grants, the airborne program of Earth observations, the 
Applied Sciences program, and, seven missions in development which are 
important Earth science Decadal Survey precursor missions. The Landsat 
Data Continuity Mission (LDCM) and Ocean Surface Topography Mission 
(OSTM) will continue the decades-long time series of land cover change 
and ocean surface height data, respectively. The Glory mission targets 
the impact of aerosols on climate and extends the long time series of 
total solar irradiance measurements. The National Polar-orbiting 
Operational Environmental Satellite System (NPOESS) Preparatory Project 
(NPP) paves the way for the future national weather system and 
continues essential measurements from the NASA Earth Observing System 
(EOS). Aquarius and the Orbital Carbon Observatory (OCO) will make the 
first-ever global measurements of ocean surface salinity and 
atmospheric carbon dioxide, respectively. The request specifically 
increases funding for OCO and the Aquarius missions to maintain 
development schedules. The Global Precipitation Measurement (GPM) 
mission will make rainfall measurements on a global scale. The request 
retains the GPM core mission launch readiness date with a minor four-
month slip in the launch of the constellation spacecraft.
    As requested in the Subcommittee's invitation to testify, I have 
included a more detailed NASA Earth Science Architecture as Appendix I.
    NASA is working closely with NOAA to restore climate sensors that 
had been removed from the tri-agency NPOESS effort under the Nunn-
McCurdy recertification process in 2006. The FY 2009 budget request of 
$74 million for NOAA supports the addition of a Clouds and the Earth's 
Radiant Energy System (CERES) instrument onto NASA's NPP satellite, set 
to launch in 2010; instrument development and ongoing analyses to 
identify a suitable satellite platform for hosting the Total Solar 
Irradiance Sensor (TSIS); and development of climate data records. NASA 
is conducting development work on these sensors for NOAA on a 
reimbursable basis. In addition, NASA and NOAA are working together to 
initiate preparations for these sensors in FY08. These actions will be 
implemented through close coordination between NASA and NOAA, and they 
come in addition to the inclusion of the Ozone Mapping and Profiler 
Suite (OMPS)-Limb sensor on the NPP satellite that was announced last 
year.
    NASA's role in the NPOESS program, in accordance with Presidential 
Decision Directive/NSTC-2, is to facilitate the development and 
insertion of new cost-effective technologies that will enhance the 
ability of the converged system to meet its operational requirements. 
NASA's primary stake in the NPOESS program is a scientific one: we look 
to NPOESS to provide long-term continuity of measurement of key climate 
parameters, many of which were initiated or enhanced by NASA's Earth 
Observing System. Toward this end, NASA has also entered into a 
partnership with the NPOESS Integrated Program Office (IPO) for the NPP 
satellite. NASA is committed to doing its part as a technology provider 
to make the NPOESS program, as restructured in the Nunn-McCurdy 
certification, succeed in collaboration with NOAA and the Department of 
Defense (DOD).
    The Government Accountability Office and the Department of Commerce 
Office of Inspector General have reported on the NPOESS program and 
produced a series of recommendations which NASA will review and carry 
forward as lessons learned for the future. In broad terms, the issue of 
transitioning from research to operational climate monitoring will 
clearly require the continued close attention of both NASA and NOAA. 
NASA and NOAA are meeting on a regular basis to address these issues. 
In addition, experience with NPOESS and NPP illustrates the potential 
risks associated with attempting to address multiple mission 
requirements using a single spacecraft platform. As is noted below, it 
is absolutely critical to assure that mission concepts under 
consideration match a realistic projected budget profile and to 
appropriately ``size'' a mission from the earliest design phase. 
Notably, the Earth science Decadal Survey explicitly ruled out ``large 
facility class (cost greater than $1 billion) missions'' as 
inappropriate for Earth science research missions. Second, we must also 
effectively track and manage cost and schedule throughout the 
development cycle, identify and trigger de-scoping options at 
appropriate times to maintain cost ceilings, and consider canceling 
missions when those ceilings are violated. NASA is developing 
increasingly disciplined approaches to mission review that extend 
across the program and project levels.
    The FY 2009 budget request for Astrophysics is $1.16 billion, which 
includes funding to initiate a Joint Dark Energy Mission (JDEM) in FY 
2009 and to begin preparatory work to define a medium-scale exoplanet 
exploration mission to be initiated in FY 2010 and launched in the 2015 
timeframe, for which a SIM-Lite concept and other exoplanet mission 
candidates will be considered. The request supports a restart of the 
Nuclear Spectroscopic Telescope Array (NuSTAR) Small Explorer with a 
launch date of no-earlier-than 2011. It also provides funding for the 
Kepler exoplanet search mission, which is planned for launch in 
February 2009 to detect planets in the ``habitable zone'' around other 
stars. The request further supports development of the Wide-field 
Infrared Survey Explorer (WISE), which will conduct an all-sky survey, 
and the James Webb Space Telescope, which will explore the mysterious 
epoch when the first luminous objects in the universe came into being 
after the Big Bang. With its first test flights completed, the 
Stratospheric Observatory for Infrared Astronomy (SOFIA) 747 airborne 
infrared observatory will begin early science observations in 2009. The 
Astrophysics suite of operating missions includes three Great 
Observatories (Hubble Space Telescope, Chandra X-Ray Observatory and 
the Spitzer Space Telescope), which have helped astronomers unravel the 
mysteries of the cosmos. The request will also support the Gamma-ray 
Large Area Space Telescope (GLAST), which is now planned for launch in 
May, 2008, to begin a five-year mission mapping the gamma-ray sky and 
investigating gamma-ray bursts. The request also increases funding for 
sounding rocket payloads, balloon payloads, detector technology and 
theory by augmenting Research and Analysis (R&A) funding by 35 percent 
over FY 2009 to FY 2012.
    The FY 2009 budget request for Planetary Science is $1.33 billion 
to support an array of five currently operating spacecraft and rovers 
traveling to or now studying Mars, and four more missions en route to 
or operating at Mercury, the Asteroid Belt, Saturn, and Pluto, as well 
as a series of instrument missions of opportunity. The budget request 
initiates an outer planets flagship mission planned for launch in 2016 
or 2017. The request also continues a robust Mars Exploration Program 
with targeted launches in 2009, 2013, 2016, as well as expanded U.S. 
participation in the European ExoMars mission planned for 2013 launch, 
and an increase in Mars R&A funds. The Phoenix lander arrives at Mars 
in May, 2008; the Mars Science Laboratory continues in development for 
launch in 2009; a Mars Scout Aeronomy mission is planned for launch in 
2013, and a yet to be defined Mars science mission is planned for 2016. 
The request also includes $68 million for Mars Sample Return mission 
advanced development. With the New Horizons spacecraft continuing on 
its way to Pluto, the request realigns the New Frontiers Program's Juno 
Mission to Jupiter to be consistent with a 2011 launch date and funds 
initiation of the third New Frontiers mission, as called for by the 
planetary decadal survey. An open competitive solicitation for this 
mission is planned for release near the end of this calendar year, and 
planetary science R&A funding is augmented by 31 percent over FY 2009 
to FY 2012. The NRC recently completed a midterm review of progress 
against the Planetary Science Decadal Survey, now five years old. NASA 
will be responding to the NRC's assessment in a separate report in the 
coming weeks, but it is worth noting that our budget request addresses 
many of the issues brought forth in that report, including the delayed 
development of the Outer Planets Flagship, New Frontiers 3, and the 
need for increased R&A funds.
    Guided by the NRC's recent report: The Scientific Context for 
Exploration of the Moon, the FY 2009 budget request for Planetary 
Science includes a Lunar Science Robotic Mission Initiative funded at 
$60 million per year in FY 2009 to FY 2011, and at $70 million per year 
thereafter. NASA plans to launch a small lunar science orbiter by 2011 
and two mini-landers by 2014. The mini-landers will function as nodes 
in a geophysical network, as called for in the NRC study.
    The FY 2009 budget request for Heliophysics of $577.3 million funds 
a new Solar Probe mission which has long been sought by the U.S. 
scientific community and is recommended highly by the most recent 
Heliophysics Decadal Survey. The request also supports 16 currently 
operational missions, which will be joined in 2008 by both the 
Interstellar Boundary Explorer (IBEX) mission focused on the detection 
of the very edge of our solar system, and the Coupled ion-Neural 
Dynamics Investigation (CINDI) ``Mission of Opportunity'' that will 
provide new insight on the Earth's ionospheric structure. In early FY 
2009, the Solar Dynamics Observatory (SDO) to study the Sun's magnetic 
field is planned for launch, and the Geospace Radiation Belt Storm 
Probes (RBSP) mission will begin development. RBSP will improve our 
understanding of how the Earth's radiation belts are formed and how 
solar output modifies the Earth's radiation belts. RBSP will be 
augmented by the Balloon Array for RBSP Relativistic Electron Losses 
(BARREL), which was selected in late 2007 as a Geospace Mission of 
Opportunity. The FY 2009 budget request also increases budgets within 
Heliophysics for Sounding Rockets, Research Range, and R&A to achieve a 
more robust level of small payload opportunities. Funding for R&A is 
augmented by 22 percent over the FY 2009 to FY 2012 timeframe.
    The Heliophysics request fully supports the Explorer program, 
including the three new Small Explorer (SMEX) missions we are presently 
in the process of selecting for flight. It further includes funding for 
NASA's New Millennium Program, a crosscutting technology flight 
validation program with the overall goal of reducing risk and cost for 
science missions. However, this program has not been a cost effective 
mechanism for achieving this goal, and New Millennium's technology 
contributions to science missions have been limited, despite 
substantial investments. The Program has not contributed to reducing 
cost and risk for science Missions at a level commensurate with the 
resources dedicated to the program. In many cases, New Millennium has 
flown technologies that were not later useful for the science missions 
we build in response to NRC decadal surveys. Further, the resources 
required for launching and supporting New Millennium missions consume 
substantial resources which might otherwise be dedicated to technology 
development. In light of these facts, NASA has determined that it can 
achieve substantial improvement in technology development performance 
and application effectiveness by phasing out the New Millennium Program 
and integrating most technology development funds into the budgets for 
specific missions. We have already demonstrated this approach with the 
development of the James Webb Space Telescope and are now implementing 
this approach more widely so that we can get more science from the 
budget we have.

Getting More Science Accomplished from the Available Budget

    The first step in controlling mission costs is to assure that 
mission concepts under consideration match available funding targets. 
Rather than selecting mission content up to the available funds or in 
anticipation of potential efficiency gains, we are now selecting 
mission content that leaves sufficient ``head room'' in the budget 
profile to deal with the future challenges that inevitably arise in 
developing missions that have never been done before. In Astrophysics, 
this means treating JDEM as a ``Keplerclass'' or mid size mission, 
while fully retaining its ability to meet the basic science 
requirements described in the Dark Energy Task Force Report established 
by the Astronomy and Astrophysics Advisory Committee and High Energy 
Physics Advisory Panel. Similarly, as we begin preparatory work on a 
medium-scale exoplanet exploration mission, we will size the science 
content and capabilities to fit within the available budget profile. In 
Heliophysics, a redesign of the Solar Probe mission to be executable 
within the available budget has resulted in Solar Probe Plus. The 
redesigned mission will use a series of Venus flybys rather than a 
single Jupiter flyby to provide the necessary gravity-assist to enable 
the probe to approach the Sun, lowering costs and producing quicker 
science return than had been possible previously. The new mission 
design substantially reduces projected costs by eliminating the need 
for radioisotope power systems and sparing the spacecraft from the 
extreme cold associated with a trip to Jupiter.
    The second step in controlling mission costs is to track and manage 
cost and schedule effectively throughout the development cycle, 
identify and trigger de-scoping options at appropriate times to 
maintain cost ceilings, and consider canceling missions when those 
ceilings are violated. In conjunction with this, we are developing 
increasingly disciplined approaches to mission review that extend 
across the program and project levels.
    For example, Kepler successfully passed its Critical Design Review 
(CDR), which marks the completion of the project's design phase and 
transition into the build up of flight hardware, in October 2006. 
However, certain problems continued, putting the overall mission at 
risk. Facing further potential cost growth of up to $54M, a Kepler 
project management meeting was held in Boulder, Colorado, on July 6, 
2007, to examine the program's cost overruns and the program's plan for 
bringing the spacecraft to launch within the established budget. The 
plan included restructuring the project's management and changing or 
eliminating some tests or reducing their duration. No tests that affect 
the safety or ultimate performance of the system have been dropped, and 
all changes to the testing program were reviewed by multiple internal 
and external parties. The resulting plan has a healthy 24 percent 
reserves to launch. In addition, the lead industrial partner, Ball 
Aerospace & Technologies Corporation, gave up some of its earned fee on 
the project and the development schedule reserves were also refined. In 
order to keep the mission within its established cost cap, the total 
on-orbit observation time will be reduced by six months, but no 
significant science will be lost and the mission will be able to gather 
90 percent of its planned data. The savings realized by avoiding a 
Kepler cost increase removed a threat to the Explorer Program budget 
and helped us re-initiate the NuSTAR mission, thereby getting more from 
the SMD budget.
    In May 2007, the SDO mission had incurred schedule slips against 
the August 2008 Launch Readiness Date (LRD) that exceeded reserves. 
Schedule flexibility had been exhausted by instrument and spacecraft 
difficulties and was not recoverable. The Project's first cut at a 
replan identified a proposed LRD of 3/1/09 at an additional cost of 
$46.3 million. That estimate was subsequently improved to a 1/15/09 LRD 
and cost increase of $39.3 million by immediately accepting hardware 
deliveries with acceptable performance, deleting internal schedule 
reserves on instrument deliveries, and using week-end and second shifts 
to meet near-term deliverables. Through further iterations with the 
project team, NASA identified a combination of low-impact schedule de-
scopes and mission scope reductions that did not impact mission science 
objectives. The net result of these replanning efforts was a 60 percent 
cost reduction in the cost increase, from $46.3 million and a seven 
month launch delay to $18.1 million and a four month launch delay. At 
present, the project is maintaining schedule and working toward the 
approved Life Cycle Cost (LCC) of $805 million.
    NASA's approach to both the SDO and Kepler issues conform to the 
general principle that resources to solve project problems should come 
first from the mission lines or programs that include that project. 
Problems in programs and missions should be addressed within the 
Division (science area) in which they occur whenever possible. Further, 
we will not sacrifice the future to sustain significant budget overruns 
by missions in development. It is critical to the future of the program 
that we take these steps now to control costs and to establish a more 
disciplined program management regime.

Helping to Ensure Exploration Goals are Achieved

    The FY 2009 budget request for SMD makes significant strides toward 
establishing a strong lunar research community. The request includes a 
Lunar Science Robotic Mission initiative funded at $60 million per year 
in FY 2009 through FY 2011, and $70 million per year beyond FY 2011. 
This effort builds on and will be highly complementary to NASA's 
existing lunar science research activities by providing a flight 
program that delivers exciting scientific results. The first mission, a 
small science orbiter called Lunar Atmosphere and Dust Environment 
Explorer (LADEE), will characterize the tenuous lunar atmosphere as 
recommended by the NRC. LADEE will launch by 2011, and an initial pair 
of surface geophysical mini-landers will follow by 2014. NASA is 
optimistic about the prospect of developing an International Lunar 
Network of geophysical landers and has already received positive 
feedback from a number of potential partners. The request also 
strengthens lunar science by providing support for the development of 
the newly selected Gravity Recovery and Interior Laboratory (GRAIL) 
Discovery mission, which will use high-quality gravity field mapping of 
the Moon to determine the Moon's interior structure. We also 
established the NASA Lunar Science Institute (NLSI) at the Ames 
Research Center to jump start U.S. lunar science across the Nation. 
NLSI will augment other, already established lunar science 
investigations funded by NASA by funding the formation of 
interdisciplinary research teams. Management of the NLSI will be 
modeled after the highly-successful focused research initiative of the 
NASA Astrobiology Institute (NAI), also managed at NASA Ames.

Strengthening Research and Analysis and Mission Data Analysis

    We have taken a number of steps in this area to ensure that we get 
the best science value for the dollars we invest in missions. These 
include establishing a Research and Analysis Management Operations 
Working Group to identify R&A process improvements. We are also working 
to improve our practices for conduct of panel reviews of proposals to 
improve transparency and provide additional guidance to R&A program 
managers. We are also working to restore funding cuts from prior years. 
The FY 2009 budget request augments R&A in three of our four science 
areas (the augmentation in Earth Science came in the area of new 
missions as recommended by the new NRC decadal survey):

        <bullet>  Astrophysics R&A augmented 35 percent in FY 2009-FY 
        2012;

        <bullet>  Heliophysics R&A augmented 22 percent in FY 2009-FY 
        2012; and,

        <bullet>  Planetary Science R&A augmented 31 percent in FY 
        2009-FY 2012.

    R&A increases in the Earth science area will be evaluated in the 
coming year, as will the need for additional space science increases. 
To better evaluate the need for funds in specific scientific 
disciplines, we are developing ``demand metrics'' that help us guide 
funds to areas with the strongest scientific interest, and therefore 
with the strongest proposal pressure.

Reinvigorating Sub-orbital Research

    In recent years, cost growth in large missions constrained 
opportunities for new small, Principal Investigator-led missions, 
creating an imbalance and limiting launch opportunities, particularly 
in the 2010 to 2012 time period. We have made substantial progress in 
addressing this issue by reinvigorating sub-orbital research to train a 
new generation of researchers, advance technology development, and help 
to bridge the 2010 to 2012 gap in orbital and planetary mission 
launches. This includes initiating seven new missions with the FY 2009 
budget request, restarting the NuSTAR mission, selecting two new Scout 
(ExoMars 2013) and two new Discovery Missions of Opportunity (as two 
new assignments for the Deep Impact and Stardust spacecraft), and 
creating an annual Mission of Opportunity solicitation. The FY 2009 
budget request increases budgets for Sounding Rockets, Balloon 
Payloads, Research Range, and Research and Analysis to achieve a 
doubled level of small payload sub-orbital research mission 
opportunities.

Conclusion

    It is worth stepping back to appreciate the breadth, depth and 
productivity of the NASA science program I am charged to lead. Not 
including the seven missions we are proposing to initiate in the FY 
2009 request, we have 55 flight missions in operation, 30 missions in 
development, and over 3,000 ongoing research grants. The 14 on-orbit 
NASA Earth science research missions are producing definitive data sets 
that let us specify state of the planet and how the environment is 
changing. Heliophysics' 16 operating missions are revealing the 
behavior of our local star in detail. Missions to other planets 
continue to provide us with descriptions of the amazing diversity that 
we now know characterizes the solar system and tantalizing hints of 
environments hospitable to life. Our Astrophysics great observatories 
Hubble, Chandra, and Sptizer are probing the most profound questions of 
how the universe arose and evolved and our place in it. This program of 
research is far and away the worlds leading program. Historically, we 
are living through a truly spectacular age discovery in space, and the 
United States is leading these discoveries. We cannot only see more and 
farther and deeper than any other generation in history, we are 
learning more at an incredible rate. The Subcommittee and the American 
taxpayers you represent should be proud of the historic human 
achievement that our program represents. I certainly am, and I am 
committed to both inspiring the next generation of explorers with new 
discoveries and passing on a healthy and vigorous program of scientific 
exploration to the next generation of scientists.

Appendix 1:

                       Earth Science Architecture

Current Missions

    To address the challenges of recording simultaneous observations of 
all Earth components and interactions to generate new knowledge about 
the global integrated Earth system, NASA and its partners developed and 
launched the Earth Observing System and ancillary satellites. Fourteen 
satellites comprise today's NASA Earth Observing System.
    The scientific benefit of simultaneous Earth observation--the Earth 
System Science construct--is bearing fruit. For example, NASA's Aqua, 
Aura, Cloud-Aerosol Lidar and Infrared Pathfinder Satellite 
Observations (CALIPSO), and CloudSat satellites and France's Centre 
National d'Etudes Spatiales (CNES) Polarization and Anisotropy of 
Reflectances for Atmospheric Sciences (PARASOL) satellite, collectively 
known as the A-Train, are in specific orbits to record unprecedented 
atmospheric chemistry and composition observations over the same region 
within 15 minutes. The A-Train, a subset of EOS, is the largest Earth 
science space super-observatory flown to date.

Missions in Development

    Seven missions are in formulation and implementation for launch 
during FY 2008-2014. The new observations will extend some of the 
measurements made by EOS and will observe new features of the global 
integrated Earth system. The enormous complexity of the Earth system 
presents a challenge for NASA within the Group on Earth Observations 
(GEO): to enable sustained simultaneous observations of all key 
variables needed to understand Earth's changing environment.
    NASA and its National Polar-orbiting Operational Environmental 
Satellite System (NPOESS) partners (NOAA and Air Force) are developing 
the NPOESS Preparatory Project (NPP) mission. NASA and the NPOESS 
program planned NPP as a risk reduction mission as well as the 
transition mission for a set of mature climate measurements from the 
EOS era to the NPOESS operational environment. When the NPOESS 
development encountered cost and schedule problems, the Nunn-McCurdy 
recertification process resulted in the de-manifesting of several 
climate sensors from the NPOESS system. These sensors included ozone 
profiling (OMPS-Limb), Earth radiation budget (CERES), solar irradiance 
(TSIS), ocean altimetry (ALT), and aerosol polarimetry measurements 
(APS). NASA and NOAA have been working in cooperation OSTP to develop a 
plan for flight of these sensors. Agreement has been reached to re-
manifest OMPS-Limb on NPP via joint funding from NASA and NOAA, to re-
manifest CERES on NPP, and to prepare TSIS for future re-manifesting.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


Future Missions

    The decadal survey priorities are now NASA's principal determinant 
of the priority of Earth science satellite missions beyond 2010.
    The decadal survey recommended fourteen missions for NASA to launch 
during 2010-2020 and one mission for NASA to jointly implement with the 
National Oceanic and Atmospheric Administration (NOAA) for launch in 
2010-2013. NASA missions were grouped into three periods--near-term, 
mid-term, and late-term. In contrast to decadal surveys in other areas 
of NASA science, the Earth science Decadal Survey recommended an 
integrated slate of missions rather than a list of missions prioritized 
scientifically from the top down with an expectation they be pursued to 
the limit of funds available. In the NRC's view, doing some missions 
but not others would break the observing strategy they proposed, 
requiring a reassessment. Further, the survey recognized the importance 
of the synergies between the flying research and operational missions--
synergies that would be lost if the timeline for the decadal survey 
missions is greatly extended. Thus, NASA is pursing all four of the 
missions identified in the NRC's first time block and planning 
technology investments and other preparatory analyses for the others. 
The NRC explicitly ruled out ``large facility class (greater than $1.0 
billion) missions'' as inappropriate for Earth Science.
    Matching the matured mission concepts with the budget projections 
in the President's FY 2009 budget request, NASA will pursue the first 
two decadal survey missions and the first Venture class mission with 
projected launch dates as shown:

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    The next two decadal survey missions to be implemented will likely 
be the Climate Absolute Radiance and Refractivity Observatory (CLARREO) 
and the Deformation, Ecosystem Structure, and Dynamics of Ice (DESDynI) 
mission, with the order of these two yet to be determined. It is 
planned to start both by 2012, and to launch one by 2017 and the other 
by 2019.

                      Biography for S. Alan Stern

    Dr. S. Alan Stern is the Associate Administrator for NASA's Science 
Mission Directorate.
    He directs a wide variety of research and scientific exploration 
programs for Earth studies, space weather, the solar system and the 
universe beyond. In addition, he manages a broad spectrum of grant-
based research programs and spacecraft projects to study Earth and the 
universe.
    Stern is a planetary scientist and an author who has published more 
than 175 technical papers and 40 popular articles. His research has 
focused on studies of our solar system's Kuiper belt and Oort cloud, 
comets, satellites of the outer planets, Pluto and the search for 
evidence of solar systems around other stars. He has worked on 
spacecraft rendezvous theory, terrestrial polar mesospheric clouds, 
galactic astrophysics and studies of tenuous satellite atmospheres, 
including the atmosphere of the Moon.
    Stern has had a long association with NASA, serving on the NASA 
Advisory Council and as the principal investigator on a number of 
planetary and lunar missions, including the New Horizons Pluto-Kuiper 
Belt mission. He was the principal investigator of the Southwest 
Ultraviolet Imaging System, which flew on two Space Shuttle missions, 
STS-85 in 1997 and STS-93 in 1999.
    He has been a guest observer on numerous NASA satellite 
observatories, including the International Ultraviolet Explorer, the 
Hubble Space Telescope, the International Infrared Observer and the 
Extreme Ultraviolet Observer.
    Stern joined NASA in April 2007 from the Southwest Research 
Institute's Space Science and Engineering Division, Boulder, Colo., 
where he had served as Executive Director of the Space Science and 
Engineering Division.
    He holds Bachelor's degrees in physics and astronomy and Master's 
degrees in aerospace engineering and planetary atmospheres from the 
University of Texas, Austin. In 1989, Stern earned a doctorate in 
astrophysics and planetary science from the University of Colorado at 
Boulder.
    He is an instrument-rated commercial pilot and flight instructor, 
with both powered and sailplane ratings. Stern and his wife have three 
children.

    Chairman Udall. Thank you very much, Dr. Stern.
    Dr. Fisk.

      STATEMENT OF DR. LENNARD A. FISK, THOMAS M. DONAHUE 
    DISTINGUISHED PROFESSOR OF SPACE SCIENCE, UNIVERSITY OF 
 MICHIGAN; CHAIR, NATIONAL RESEARCH COUNCIL SPACE STUDIES BOARD

    Dr. Fisk. Thank you, Mr. Chairman. You asked a series of 
questions of me in your invitation of me, so let me just simply 
address the questions that you asked.
    You asked whether the Space Science Program is moving in 
the right direction. There are, as has been noted, many 
positive features in the proposed fiscal year 2009 budget for 
the Science Mission Directorate. There are seven new starts, 
there is an increase in the research and analysis budget. The 
space science community is buoyed by the opportunities to 
pursue new science missions and it is relieved that the unwise 
decisions of the past that were the guard to R&A have been 
reversed. All of these positive features have been achieved, 
however, within a fixed budget of only one percent annual 
growth, and this is a problem. Some of the new starts come at 
the expense of other programs that are displaced or deferred. 
The growth in Earth science is clearly heartening given the 
importance of the program, but it came at the expense of other 
divisions.
    So in many ways SMD is a graphic illustration of the 
dilemmas that face all of NASA, too few resources to accomplish 
the many tasks that the Nation has faced before the agency. 
Whether it is exploration, the use of the Space Station, 
aeronautics, or science, the funding is not adequate to do all 
the things that SMD should be doing. SMD is doing extremely 
well with what it has, trying to maintain the vitality of the 
space and Earth science program, but there is so much more that 
we could be doing.
    You asked in particular about heliophysics. There is good 
news here also. There is a new start for the Solar Probe 
mission which together with the European Space Agency's Solar 
Orbiter mission for which NASA has agreed to provide part of 
the payload presents a historic opportunity to develop a 
comprehensive and predictive understanding of the basic 
processes that control the solar atmosphere and its influence 
in particular on Earth.
    You asked me about the status and health of the science and 
engineering workforce. The civil service workforce at the NASA 
has a disturbing age distribution. It is strongly peaked at age 
45 to 49, with only a small fraction that are under 30 and 
almost an equally small fraction that are over 60. It needs to 
be rejuvenated, but that of course is a difficult task with the 
constraints that exist on NASA.
    With regard to the space and engineering workforce outside 
of NASA, there are students available to participate in the 
space program. Here the issue is the quality of the students. 
Why should the best and the brightest choose careers in space 
given that we have not made space a national priority?
    There is a need for hands-on training of these students 
which has the corollary benefit by that providing such training 
to undergraduates invariably recruits them into careers in 
space.
    You asked about the status of the NASA space weather 
program. Here there is a need to be sure that there is an 
adequate monitor of space weather events at the L-1 point which 
is in front of the Earth, but that may well be a NOAA 
responsibility. We also need to recognize that a true 
capability to predict space weather will only come when we have 
developed adequate understanding of the governing physical 
processes, and that in turn requires a comprehensive 
heliophysics research program at NASA.
    Finally, I would like to comment on the issues that need to 
be addressed in the reauthorization of NASA which I understand 
you are considering. We are four years into the Vision for 
Space Exploration announced by President Bush in 2004. So far 
the money that was promised to execute the Vision has not been 
provided, and it is hard to say that the Vision has generated 
much excitement, particularly among the young who are expected 
to benefit most from the future the Vision promises.
    I encourage you to ask whether there was a flaw in the 
Vision which we did not realize at the time. Vision is about 
the future, extending our civilization into space, but there is 
little of immediate concern to the taxpayers. And so I 
encourage you, as I would encourage the next Administration, to 
provide NASA with a role that is not only about the future but 
it is also important in the present. It could be a geopolitical 
role that improves our national image. It could be a role that 
improves our competitive position. It could be a reemphasis on 
those programs in NASA that are of demonstrable interest to the 
taxpayer, like Earth science or like aeronautics.
    Thank you very much.
    [The prepared statement of Dr. Fisk follows:]

                 Prepared Statement of Lennard A. Fisk

    Mr. Chairman, Members of the Subcommittee, thank you for inviting 
me here to testify today. My name is Lennard Fisk, and I am the Thomas 
M. Donahue Distinguished University Professor of Space Science at the 
University of Michigan. I also served from 1987 to 1993 as the NASA 
Associate Administrator for Space Science and Applications. I am 
currently the Chair of the National Research Council's Space Studies 
Board, although the views I offer today are my own.
    In your invitation letter asking me to testify before you today you 
asked a series of questions that I would to address now in sequence.

The State of the Space Science Program

    You asked me to comment on whether the space science program is 
moving in the right direction. I would like to expand this question to 
read: Is space science moving in the right direction and are the 
resources adequate to achieve success?
    The budget for the Science Mission Directorate (SMD), and its 
projected runout, has many, very positive features. There are new 
starts for seven different missions. Each of the major disciplines--
planetary, astrophysics, heliophysics and Earth science--has at least 
one major new start. Earth science in particular is able to begin 
making progress in pursuit of the science objectives of its recent NRC 
decadal survey. There are also increases in the Research & Analysis 
program, which is vital to the health and the future of space science. 
The space science community is buoyed by the opportunity to pursue 
important new science missions and relieved that the unwise decisions 
of the past have been reversed.
    All of these positive features of the SMD program have been 
accomplished within a fixed budget envelope, which is currently, and 
for the next few years, growing at only one percent per year. This is a 
problem. Some of the new starts in the budget come at the expense of 
other programs that are displaced or deferred. The growth in Earth 
science is heartening given the importance that society places on 
deploying NASA's technical prowess to understand global climate change. 
The growth in Earth science, however, came by taking funds from other 
science disciplines, all to remain within the fixed budget envelope. 
Moreover, there is no flexibility in the SMD budget, no robustness. A 
single major setback in the cost of some mission under development 
would seriously stress the carefully woven plan of maintaining the 
vitality of all the different science disciplines.
    It needs to be recognized also that NASA's response to the NRC 
Earth science decadal survey is inadequate if we are serious about 
understanding global climate change. That decadal survey report pointed 
out that the Earth science budget has decreased by about $500 million 
per year since 2000. Restoration of at least this amount of annual 
funding is required in order that the Nation can have a satellite 
system that adequately provides the sound scientific underpinning for 
planning for the inevitable climate change that lies before us. 
However, in the runout of the SMD budget to FY 2012 only a total of 
about $600 million, not $500 million per year, is provided. To be sure, 
the increased funds for Earth science are all that are available in an 
overall flat budget. The new funds come from the other science 
disciplines, and to take more would devastate those constrained, but 
otherwise healthy programs.
    In many ways SMD is a graphic illustration of the dilemmas that 
face all of NASA--too few resources to accomplish the many tasks that 
the Nation has placed on the agency. Whether it is human space 
exploration, the use of the Space Station, aeronautics, or science, the 
funding is not adequate. SMD is doing well with what it has, trying to 
maintain the vitality of the space and Earth science communities, and 
to move the program forward with new mission opportunities. However, 
there is so much more that needs to be done, whether it is a solid 
start on the Earth science decadal survey recommendations, a vigorous 
Mars program, a full Living-with-a-Star program, or a vigorous program 
to understand the astrophysical challenges of dark energy and dark 
matter. And the budget needs to be robust so that it is actually 
executable. The funding constraints on all of NASA and on SMD in 
particular need to be lifted, and the required resources need to be 
provided so that the Nation can have the space program that the Nation 
needs and deserves.

The State of Heliophysics

    You asked me to comment in particular on whether the Heliophysics 
program is moving in the right direction. Heliophysics is the study of 
the Sun, the heliosphere (i.e., the region of space created by the 
solar wind, the outward expansion of the solar atmosphere), the plasma 
environment of the planets, and the coupling and interactions among 
these various environments. Research in Heliophysics is essential for 
understanding the coupling between the Sun and Earth, and for 
predicting the space environment through which our space assets and 
eventually our astronauts will fly.
    There is good news in this program. As in other disciplines in 
space science, there is an increase in the Research & Analysis program 
budget and a new start for the Solar Probe mission. This good news is 
tempered, as in other disciplines, by the reality that the increase in 
budget for these elements of the program came at the expense of other 
planned initiatives, which cannot now be pursued. The budget envelope 
for Heliophysics is fixed, and in fact has been used, in part, to 
provide Earth Science with needed funds to make a start on its decadal 
survey missions. In the case of Solar Probe, then, the required funds 
have come from the Living-with-a-Star program, which is now unable to 
pursue, in the near term, either the Sentinel program or missions to 
the ionosphere.
    The new start for Solar Probe should be viewed, then, as a 
realignment of the scientific priorities. NASA has judged that it is 
more important to make direct measurements in the region of the solar 
atmosphere closest to the Sun, than are other priorities such as the 
study of the ionosphere. This logic is understandable. The inner region 
of the solar atmosphere is the source of the solar wind and solar 
energetic particles. It is a region where current instrumentation 
cannot observe the governing magnetic field and where direct in-situ 
observations are required to resolve the many mysteries that inhibit 
our ability to predict the space environment created by the Sun. The 
Solar Probe mission was endorsed by the 2003 NRC decadal survey for 
this field. It was considered to be an important, large mission for 
which funds beyond the planned budget envelope needed to be provided. 
This has not proven to be feasible, and the required funds have been 
taken from other planned missions. The science priority, however, of 
Solar Probe is not in question.
    The planned Solar Probe mission is very clever, and solves a number 
of the concerns associated with previous concepts for Solar Probe. 
Solar Probe needs to make multiple passes through the solar atmosphere, 
which is a dynamic, ever changing environment. Only by multiple passes 
can we avoid confusion that arises from the fact that this is such a 
dynamic place. The required multiple passes are achievable because the 
planned Solar Probe mission does not penetrate as close to the Sun as 
some previous versions of Solar Probes were planned to do. However, the 
current Solar Probe concept is judged by the scientists who have 
studied the mission in detail to have a penetration distance that is 
adequately close to be able to resolve the fundamental processes 
resulting in the heating of the solar atmosphere and acceleration of 
energetic particles.
    The other important feature of the planned Solar Probe mission is 
that it is to be undertaken in concert with the European Space Agency 
Solar Orbiter mission, for which NASA has agreed to provide part of the 
payload. Solar Orbiter is to be placed in an orbit around 30 solar 
radii from the Sun, and to achieve an orbit that is inclined to the 
solar equator. From this vantage point, a capable set of remote sensing 
instrumentation will make detailed observations of the solar surface 
and atmosphere, and a capable set of in-situ instruments will observe 
the solar outputs of plasma and energetic particles in detail.
    It should be possible to have Solar Orbiter in place while Solar 
Probe is doing its penetrations deep into the solar atmosphere, and the 
combination will be an historic opportunity to once and for all develop 
a comprehensive, predictive understanding of the basic processes that 
control the solar atmosphere and its influence on the heliosphere, and 
on the Earth and other planets. There is, however, an obligation with 
this combined program that must be met. The instrumentation on both 
Solar Probe and Solar Orbiter must be comprehensive and complete. The 
investment in these missions will be large, and the scientific payloads 
need to be capable of realizing the scientific breakthroughs that this 
historic opportunity will allow.

The Status and Health of the Science and Engineering Workforce

    You asked for my perspectives on the status and health of the 
science and engineering workforce as it relates to NASA's space and 
Earth science plans. I would respond to this question from several 
different perspectives.
    Let me comment first on the NASA workforce. The age distribution of 
the civil service workforce at the NASA centers is disturbing. It is 
strongly peaked at age 45-49, with only a small fraction of the 
workforce under 30, and almost an equal number over 60. There needs, in 
my judgment, to be a rejuvenation of the NASA workforce. Experience is 
important, but more current training, particularly in the engineering 
disciplines, and the enthusiasm, energy, and willingness to explore new 
concepts that inherently come with youth, are important as well. It 
will not be easy to rejuvenate the NASA workforce. Fixed budgets, the 
current age distribution, and the requirement mainly imposed by 
Congress for 10 healthy NASA centers places severe restrictions on 
NASA's ability to hire new scientists and engineers.
    There is an unfortunate corollary to NASA's inability to rejuvenate 
its workforce. We want our best young scientists and engineers to 
aspire to participate in the Nation's space program, yet it is widely 
known that the prospects for jobs at NASA, and thus a major leadership 
role in the exploration of space, are meager at best.
    Next I would comment on the science and engineering workforce 
outside of NASA. The number of students available to participate in the 
space program is probably adequate for the simple reason that space 
requires only a small fraction of the Nation's science and engineering 
workforce. The issue here is the quality of the students, their 
particular training, and their attitude when they enter the workforce.
    There are many capable science and engineering students in this 
country. The question is why should the best and the brightest aspire 
to participate in the space program when there are so many other 
exciting technical challenges that lie before them. The students see a 
space program that is not a national priority sufficient to receive the 
funding and support that is necessary for its success. Under these 
circumstances, only those students who have always aspired to pursue a 
career in space are likely to enter the field, as opposed to those who 
have the talents and the capabilities to pursue many different 
technical disciplines. Thus workforce and priorities for space are 
linked. If space becomes a national priority, the Nation's highly 
capable technical workforce will respond.
    There is also a question of training. It is essential that 
engineers in particular receive hands-on training with real space 
projects or space-related hardware. The vast majority of the senior 
technical workforce currently executing the space and Earth science 
program had hands-on opportunities earlier in their careers, and they 
all would say that it was essential for their current success. We 
should expect no difference for the next generation. It is incumbent 
upon NASA to provide the universities with the opportunities to offer 
their students hands-on experience if we are to continue our technical 
success.
    The previous two items are strongly coupled. The experience in most 
universities is that when students have hands-on research experiences 
in space engineering as undergraduates they invariably decide to pursue 
careers in space. If NASA provides universities with the opportunities 
to offer hands-on experience, not only does the required training 
occur, but the best and the brightest are recruited into space.
    Finally, there is the issue of attitude, particularly among young 
scientists entering the fields of space and Earth science. Space 
science is 50 years old this year; Explorer 1, the first space science 
mission, was launched in 1958. In a science discipline at this age, 
which is dominated now by scientists who have practiced their 
disciplines for decades, inevitably there are well established points 
of view that have been developed, which are resistant to new ideas. It 
is important that the new scientists entering the field challenge these 
established points of view, for that is how progress is made in 
science. And it is incumbent upon NASA, through its Research & Analysis 
program, to encourage new approaches and new thoughts, so that progress 
is made and the true answers to the many mysteries of the universe are 
revealed. Consequently, I strongly support the proposed increase in 
funding for the Research and Analysis program.

The State of NASA's Space Weather Program

    You asked what is the status of NASA's program to collect data and 
conduct research on space weather. There are two aspects of this issue 
that I would like to address: first, the monitoring of space weather 
that affects Earth, and second, our ability to learn how to predict 
space weather.
    It is important to have a spacecraft at the Sun-Earth L1 point in 
front of Earth that can provide real-time warning of space weather 
events that will impact Earth, and also provide information on solar 
wind conditions for basic research on the response of the Earth's 
magnetosphere, ionosphere, and atmosphere to space weather events. At 
present this information is provided by the Advanced Composition 
Explorer (ACE), which was launched in 1997. It is unwise to rely 
entirely on ACE and its instrumentation, some of which is showing signs 
of age. It is possible to put up a relatively inexpensive spacecraft to 
perform the basic monitoring function. I would add that such a 
spacecraft may be more appropriately a NOAA rather than a NASA 
responsibility, since NOAA is to provide operational space weather 
predictions.
    The second issue is our ability to develop a true predictive 
capability for space weather. It is not sufficient simply to monitor 
the immediate arrival of a space weather event, or to base predictions 
on general correlations between events on the Sun and the arrival of 
space weather disturbances at Earth. Rather, we need to have an 
adequate understanding of the basic physical processes that govern the 
acceleration of the solar wind, the release of Coronal Mass Ejections, 
and the acceleration of energetic particles. With this understanding, 
we will eventually be able to make detailed observations of the Sun, 
put that information into comprehensive numerical models, and make 
real-time predictions of the space weather that will impact the space 
environment of the entire solar system, and of the Earth in particular.
    The pursuit of a detailed understanding of the basic physical 
processes that govern the solar atmosphere and its extension into 
space, the response of the space environment of Earth, and the 
development of comprehensive numerical models is the main purpose of 
the Heliophysics Division in SMD. It is important that these efforts be 
encouraged so that a true predictive capability is developed as soon as 
possible. Missions such as Radiation Belt Storm Probes, which are 
currently under development, are important for understanding the 
response of the Earth's magnetosphere to space weather events. Missions 
such as the upcoming Solar Dynamics Observatory and the proposed Solar 
Probe and Solar Orbiter, which I discussed earlier, are essential for 
developing an understanding of the basic mechanisms that heat the solar 
atmosphere and accelerate energetic particles.
    It is also important to make maximum use of the space assets 
currently in place to study the Sun and the plasma environments that 
the Sun creates throughout the solar system. There is a flotilla of 
spacecraft in place known as the Heliophysics Great Observatory. These 
missions, from the recently launched STEREO missions that observe the 
Sun and its outputs in 3-dimensions to the venerable Voyager missions 
probing the distant heliosphere, all are essential to our understanding 
of the physics that governs the plasma processes in our solar system. 
It is important to use these missions in a coordinated way, to derive 
the maximum possible information from them, and in doing so to create 
the scientific foundation for the predictive models of space weather 
that we require.

Issues to Address in the Reauthorization of NASA

    You asked for input on the important issues that should be 
addressed with respect to NASA's space science program as Congress 
considers its reauthorization of NASA. I would like to take the liberty 
of answering this question in the broader context of NASA as a whole 
since I do not believe that the NASA space science program can be 
considered separately from NASA's overall activities and goals.
    We are now four years into implementing the Vision for Space 
Exploration that was announced by President Bush in January 2004, and 
it is worth a critical analysis of where we are. So far, with the 
exception of the initial FY 2005 budget, the Administration has not 
requested the funds it said were required to execute the Vision. There 
were underestimates of the costs required to continue to fly the 
Shuttle and complete the International Space Station. Consequently, 
NASA has been forced to cannibalize much of the rest of its program to 
even begin to make progress on the Vision. And it is hard to say that 
the Vision of returning to the Moon has generated much excitement, or 
even understanding among the public, particularly among the young who 
are expected to benefit most from the future that the Vision promises.
    We should ask ourselves whether there was a flaw in the Vision for 
Space Exploration, which we did not recognize at the time. The Vision 
is all about the future--extending our civilization into space, with 
the long-term benefits that we expect to accrue for our country. There 
is, however, little in the Vision that is of immediate concern. So when 
near-term needs intervene, such as providing funds for the war in Iraq 
or for Hurricane Katrina, it is NASA that comes up short in funding.
    I would encourage you, then, as you consider the reauthorization of 
NASA, as I would encourage the next Administration, to provide NASA 
with a role that is not only about the future, but is important in the 
present. There are several ideas worth discussing:

    NASA could use, and serve, a more important geopolitical role. The 
obvious one is to lead the world in the exploration of space, in a 
cooperative and facilitating way. NASA then becomes an instrument of 
our foreign policy through its ability to improve the image and impact 
of the United States around the world. If that is important to the next 
Administration then perhaps the resources necessary for NASA to play 
its proper role in leading the world will be provided.

    NASA could use, and serve, a more important role in improving the 
competitive position of the United States, through the encouragement of 
technology development, entrepreneurialism, and technical education. 
This would be a new emphasis for NASA that would encompass more than 
just human space flight, which is an engineering challenge but which 
does not often emphasize new technologies. It is the science 
disciplines of NASA, with their needs for new sensors and electronics 
and robotic capability that are a better stimulus for technology.

    And finally there are the programs in NASA that are of demonstrable 
immediate importance to the taxpayers--Earth science to provide the 
scientific basis for understanding global climate change, and 
aeronautics. In the current implementation of the Vision these programs 
have been allowed to decline and atrophy, and they deserve strong re-
emphasis.

                     Biography for Lennard A. Fisk

    Lennard A. Fisk is the Thomas M. Donahue Distinguished University 
Professor of Space Science at the University of Michigan, where from 
1993-2003 he was Chair of the Department of Atmospheric, Oceanic, and 
Space Sciences. Prior to joining the University in July 1993, Dr. Fisk 
was the Associate Administrator for Space Science and Applications of 
the National Aeronautics and Space Administration. In this position he 
was responsible for the planning and direction of all NASA programs 
concerned with space science and applications and for the institutional 
management of the Goddard Space Flight Center in Greenbelt, Maryland 
and the Jet Propulsion Laboratory in Pasadena, California.
    Prior to becoming Associate Administrator in April 1987, Dr. Fisk 
served as Vice President for Research and Financial Affairs and 
Professor of Physics at the University of New Hampshire. In his 
administrative position, he was responsible for overseeing the 
University's research activities and was the chief financial officer of 
the University. Dr. Fisk joined the faculty of the Department of 
Physics at the University of New Hampshire in 1977, and founded the 
Solar-Terrestrial Theory Group in 1980. He was an astrophysicist at the 
NASA Goddard Space Flight Center from 1971 to 1977, and a National 
Academy of Sciences Postdoctoral Research Fellow at Goddard from 1969 
to 1971.
    Dr. Fisk is the author of more than 190 publications on energetic 
particle and plasma phenomena in space. He is a Member of the National 
Academy of Sciences (NAS) and the International Academy of Astronautics 
(IAA); he is a Foreign Member of Academia Europaea and a Fellow of the 
American Geophysical Union. He currently serves as Chair of the NAS 
Space Studies Board; he is a co-founder of the Michigan Aerospace 
Corporation and a Director of the Orbital Sciences Corporation. He is 
the recipient of the NASA Distinguished Service Medal in 1992, the AIAA 
Space Science Award in 1994, and the IAA Basic Science Award in 1997 
and 2007.
    He is a graduate of Cornell University. In 1969, he received his 
doctorate degree in Applied Physics from the University of California, 
San Diego.

    Chairman Udall. Thank you very much, Dr. Fisk.
    Dr. Moore.

STATEMENT OF DR. BERRIEN MOORE III, EXECUTIVE DIRECTOR, CLIMATE 
CENTRAL, INC.; CHAIR, COMMITTEE ON EARTH STUDIES, SPACE STUDIES 
    BOARD, NATIONAL RESEARCH COUNCIL, THE NATIONAL ACADEMIES

    Dr. Moore. Mr. Chairman, Ranking Minority Member, and 
Members of the Committee, thank you for inviting me to testify 
today.
    Mr. Chairman, as you and your colleagues know well, the 
world faces significant and profound environmental challenges. 
Shortages of clean and accessible fresh water, degradation of 
terrestrial and aquatic ecosystems, increases in soil erosion, 
changes in the chemistry of the atmosphere, declines in 
fisheries, and above all, rapid pace of substantial changes in 
climate. Information from NASA and NOAA's environmental 
satellites is critical to addressing these problems, but as a 
result of significant cuts over several past budget cycles, the 
growth in the cost of accessing space and the development of 
instruments and inflation generally, we find ourselves with a 
growing mismatch between needs and resources. The fiscal year 
2009 budget begins to readdress some of this imbalance, but 
much more will need to be done for many budget cycles to come.
    Let me now turn to some of the questions that you asked. Is 
NASA headed in the right direction and what changes would I 
recommend?
    The President's fiscal year 2009 budget for NASA includes a 
major new initiative in Earth science and applications 
including a plan to provide $910 million over five years that 
addresses to varying degrees the Decadal Survey's nearest-term 
recommendations. In addition, the budget provides for the 
restoration for the ozone limb sensor to the NPOESS Preparatory 
program to integrate the Earth's radiation instrument series 
back onto NPP and to support identification of a possible 
flight for the total solar irradiance sensor. All of this is 
very welcome news, but I have several concerns. The initiatives 
funding for Earth science comes, as Dr. Fisk noted, at the 
expense of other NASA science programs. Approximately two-
thirds of the additional $910 million for Earth science are 
obtained by drawing resources away from the other science areas 
in the Science Mission Directorate. As I will note in my next 
point, Earth science requires an ongoing commitment of funding 
and at a higher level than is provided in the fiscal year 2009 
budget run-up and a simple redistribution of resources will not 
be a long-term solution. As has been noted by Members of this 
committee, NASA is being asked to accomplish too much with too 
little. What is needed is an increase in the overall top line 
budget for NASA which, in turn, will allow an increase in NASA 
science budget.
    Let me illustrate the point. This I provide in my 
testimony, and it is simply an update of what was in the 
Decadal Survey where we looked at the past 10 years in constant 
fiscal year 2006 dollars. We have now updated this graphic, 
looking in the past to now include the future, and that is to 
look at the proposed budget fiscal year 2008 as well as the 
fiscal year 2009 and the five-year runout. In fiscal year 2006 
constant dollars, the runout slope turns negative after two 
years. This simply says that we really are not yet on a path to 
addressing the recommendations of the Decadal Survey.
    I am encouraged, of course, and I must be encouraged about 
the renewed emphasis on Earth science. However, without 
additional resources, there is a limit to what management's 
best intentions can accomplish. The NASA Earth Science Program 
is doing what it can with the resources it has been given. It 
has not been given enough to accomplish what is expected of it, 
and more importantly, all that the Nation needs.
    What further challenges do I foresee for NASA in the Earth 
science and what would I recommend to address those challenges? 
If you look at the proposed response to the Decadal Survey, you 
see that three missions other than the venture class, three 
missions are being recommended. From the first set of four 
missions that we recommended, one to fly in 2012 dealing with 
solar moisture, one to fly in 2015 dealing with sea ice, and 
one to fly in 2017. So by 2017, we will have flown off three of 
the 17 recommended missions. The overall program recommended by 
the Decadal Survey simply is not being adequately implemented.
    I would like to suggest two challenging important actions. 
First, for both the Science Mission Directorate and the Earth 
Science Division, there should be a Congressional plus-up above 
the President's request. Congress did this last year, and the 
result was particularly positive since it served not only to 
achieve the direct benefits one might expect but it also 
encouraged industry to begin to invest anew in the technologies 
relevant to the missions recommended by the Decadal Survey.
    For the Earth sciences, the target should be at a greater 
implementation of the missions recommended as well as 
particular technology investments in the missions in the 2013 
and 2016 timeframe.
    Finally, dealing with the reauthorization, we need to view 
NASA and particularly Earth observations in the overall federal 
structure. A key to making more efficient use of scarce budget 
resources is to develop a comprehensive approach to Earth 
observation from space. The Decadal Survey Committee expressed 
great concern that the Nation's civilian space institutions, 
NASA, NOAA, and the USGS are not adequately prepared to meet 
society's rapidly evolving Earth information needs. These 
institutions have responsibilities that are in many cases 
mismatched with their authorities and resources. Institutional 
mandates are inconsistent with agency charters. Budgets are not 
well-matched to emerging needs, and shared responsibilities are 
supported inconsistently by the mechanisms of cooperation.
    It is important I believe that OSTP execute promptly the 
recommended study for a substantial overall comprehensive plan 
for Earth observation. I am encouraged that they are doing 
this. I simply worry that the time is running out in this 
Administration.
    Thank you very much.
    [The prepared statement of Dr. Moore follows:]

                Prepared Statement of Berrien Moore III

    Mr. Chairman, Ranking Minority Member, and Members of the 
Committee: thank you for inviting me here to testify today. My name is 
Berrien Moore III. For the past 20 years, I was Director of the 
Institute for the Study of Earth, Oceans, and Space at the University 
of New Hampshire. Recently, I have assumed the position of Executive 
Director for a new nonprofit organization, Climate Central, to be 
located in Princeton, NJ and Palo Alto, CA. I appear, today, largely in 
my capacity as the recent Co-Chair of the National Research Council 
(NRC)'s Committee on Earth Science and Applications from Space, which 
authored the first ``decadal survey'' for the Earth Sciences and as the 
current Chair of the National Research Council (NRC)'s Committee on 
Earth Studies of the Space Studies Board. This said, the views 
expressed in today's testimony are my own, but I believe they reflect 
community concerns.
    Mr. Chairman, the world faces significant and profound 
environmental challenges: shortages of clean and accessible freshwater, 
degradation of terrestrial and aquatic ecosystems, increases in soil 
erosion, changes in the chemistry of the atmosphere, declines in 
fisheries, and above all the rapid pace of substantial changes in 
climate. These changes are not isolated; they interact with each other 
and with natural variability in complex ways that cascade through the 
environment across local, regional, and global scales. Information from 
NASA and NOAA environmental satellites is critical in addressing these 
problems, but as a result of significant cuts over several past budget 
cycles, growth in the cost of accessing space and in development of 
instruments, and inflation, we find ourselves with a growing mismatch 
between needs and resources. The fiscal year 2009 budget for NASA 
begins to redress some of this imbalance, but much more will be needed 
for many budget cycles to come.
    I will now turn to the specific questions included in the letter of 
28 February 2008 that I received from the Committee:

1.  Do you believe NASA's space science program, and especially the 
Earth science program, is moving in the right direction? What, if any, 
changes would improve the program, and why? Please elaborate on your 
perspectives.

    Last June, this subcommittee held a hearing, ``NASA's Earth Science 
and Applications Programs: Fiscal Year 2008 Budget Request and 
Issues.'' In opening statements, the Chair of the Subcommittee (Udall) 
and its now Ranking Minority Member (Feeney) stated that:

         ``I called today's hearing for the purpose of examining how 
        well NASA's plans and programs compare to the priorities of the 
        decadal survey, and the extent to which NASA intends to support 
        those priorities in the FY08 budget and beyond. As numerous 
        witnesses before this Committee have testified, the situation 
        facing NASA's Earth Science program is not good. . .to quote 
        the Decadal Survey, the Nation's system of environmental 
        satellites is `at risk of collapse.' ''--Rep. Mark Udall (D-CO)

         ``NASA's Earth Sciences program has produced stunning 
        scientific results, often demonstrating, for the first time, 
        measurements and capabilities that have never before been 
        accomplished. I want that record of achievement to continue, 
        and it's also my desire that we build upon the program's 
        success to enable the goals established in the Decadal 
        Survey.''--Rep. Tom Feeney (R-FL)

    The Subcommittee hearing focused on NASA Earth science programs in 
general and the recommendations of the recently completed National 
Research Council decadal survey, ``Earth Science and Applications from 
Space: National Imperatives for the Next Decade and Beyond'' in 
particular. The decadal survey outlined near-term actions meant to stem 
the tide of capability deterioration and continue critical data 
records, as well as forward-looking recommendations to establish a 
balanced Earth observation program designed to directly address the 
most urgent societal challenges facing our nation and the world.
    Testifying on behalf of the Decadal Survey Steering Committee, in 
which I served as Co-Chair, Dr. Richard Anthes, President of the 
University Corporation for Atmospheric Research, outlined the key 
elements of the recommended program:

        <bullet>  Restoration of certain measurement capabilities to 
        the NPP, NPOESS, and GOES-R spacecraft in order to ensure 
        continuity of critical data sets.

        <bullet>  Completion of the existing planned program that was 
        used as a baseline assumption for this survey. This includes 
        (but is not limited to) launch of GPM in or before 2012 and 
        securing a replacement to Landsat 7 data before 2012.

        <bullet>  A prioritized set of 17 missions to be carried out by 
        NOAA and NASA over the next decade. This set of missions 
        provides a sound foundation for Earth science and its 
        associated societal benefits well beyond 2020.

        <bullet>  A technology development program at NASA with funding 
        comparable to and in addition to its basic technology program 
        to make sure the necessary technologies are ready when needed 
        to support mission starts over the coming decade.

        <bullet>  A new ``Venture'' class of low-cost research and 
        application missions that can establish entirely new research 
        avenues or demonstrate key application-oriented measurements, 
        helping with the development of innovative ideas and 
        technologies. Priority would be given to cost-effective, 
        innovative missions rather than ones with excessive scientific 
        and technological requirements.

        <bullet>  A robust NASA Research and Analysis program, which is 
        necessary to maximize scientific return on NASA investments in 
        Earth science. Because the R&A programs are carried out largely 
        through the Nation's research universities, such programs are 
        also of great importance in supporting and training the next 
        generation of Earth science researchers.

        <bullet>  Sub-orbital and land-based measurements and socio-
        demographic studies in order to supplement and complement 
        satellite data.

        <bullet>  A comprehensive information system to meet the 
        challenge of production, distribution, and stewardship of 
        observational data and climate records. To ensure the 
        recommended observations will benefit society, the mission 
        program must be accompanied by efforts to translate raw 
        observational data into useful information through modeling, 
        data assimilation, and research and analysis.

    In order to lay the foundation for implementing the full set of 
recommendations during the next decade, we further recommended these 
very near-term actions:

         First, NASA should commit to and begin to implement its 
        recommended Decadal Missions. Although, the NASA budget for 
        Earth Sciences is not now adequate to implement the survey 
        recommendations (see next question), a useful start can be made 
        with modest resources. The survey's initial seven missions 
        (2010-2013) should begin in 2008; the first four (CLARREO, 
        SMAP, ICESat-II, and DESDynI) should begin intensive Phase A 
        activities and the next three (for the time period 2013-2016--
        HyspIRI, ASCENDS, and SWOT) should begin pre-Phase A studies. 
        Increment needed beyond President's Request in FY08: $90 
        million.

         Second, NASA should increase its suborbital capabilities. 
        NASA's airborne programs have suffered substantial diminution 
        and should be restored. In addition, NASA should lead in 
        exploiting unmanned aerial vehicles (UAV/technology). Both 
        conventional and UAV aircraft are needed for instrument 
        development, and hence risk reduction and technology 
        advancement, and for their direct contribution to Earth 
        observations. Increment needed beyond President's Request in 
        FY08: $10 million.

         Third, NASA should increase support of its Research and 
        Analysis (R&A) program and in Earth System modeling. Improved 
        information about potential future changes in climate, weather, 
        and other environmental conditions is essential for the benefit 
        and protection of society. This improvement will come from: a) 
        better observations (the recommended missions and enhanced 
        suborbital capabilities); b) more capable models of the Earth 
        System; and c) a vigorous research program to use the 
        observations in models and interpret the results. The R&A 
        program has suffered significant cuts in recent years and these 
        should be reversed. R&A investments are among the most cost-
        effective as they directly exploit on-going missions, advance 
        knowledge to better define what is needed in the future, and 
        sustain and develop the requisite scientific and engineering 
        workforce. Increment needed beyond President's Request in FY08: 
        $20 million.

    The President's fiscal year 2009 budget for NASA includes a major 
new initiative in Earth science and applications, including a plan to 
provide $910 million over five years (FY 2009-2013) that addresses to 
varying degrees the items above and begins implementation of the 
decadal survey's nearest-term recommendations. In addition, the budget 
provides funding to restore the OMPS-L sensor to the NPOESS Preparatory 
Project (NPP) spacecraft, which is now scheduled for launch in 2010, 
integrate a spare CERES instrument on NPP, and support instrument 
development and analyses to identify a suitable satellite platform for 
hosting the total solar irradiance sensor (TSIS). All of this is very 
welcome news, but I have several concerns:

        <bullet>  The Initiative's funding comes at the expense of 
        other NASA science programs: Approximately two-thirds of the 
        additional $910 million over five years are obtained by drawing 
        from each of the three other science areas in the science 
        mission directorate (SMD). In the planetary portfolio, some 
        $200 million came from the Mars program as a result of delay in 
        a Scout mission procurement. The contribution from the 
        Heliophysics division included changes such as a stretching out 
        in the development of the Solar Probe mission. The Astrophysics 
        division contributions were largely obtained by reducing 
        funding in the out-years of the five-year plan, (2011-2013).

           Earth science requires an ongoing commitment of funding at a 
        higher level than is provided in the FY09 budget run-out and 
        redistribution of resources simply is not a long-term solution 
        to the problem. As noted by Members of this committee, NASA has 
        been asked to accomplish too much with too little; what is 
        needed is an increase in the overall top-line budget for NASA, 
        which in turn will allow an increase in NASA's science budget. 
        Absent such an increase, it will not be possible to restore 
        Earth science funding to the needed FY 2000 levels (as 
        recommended in the decadal survey) without inflicting great 
        damage to the other science portfolio areas.

        <bullet>  As illustrated below, the Initiative still falls very 
        short of what is required to implement the Decadal Survey. 
        Below is an updated version of a graphic that we prepared for 
        the Decadal Survey; it now includes budget profiles from the 
        FY08 and FY09 Presidential budgets (FY08 and FY09). As before, 
        we present the data in FY06 dollars to remove the effects of 
        inflation. It is evident that after an initial rise, funding 
        for Earth science at NASA actually begins to decrease again.

        <bullet>  The climate record from NPOESS is still very much in 
        danger. As this committee knows too well, cost and schedule 
        problems triggered a Nunn-McCurdy review of the NPOESS program. 
        Many of the specific capabilities related to better understand, 
        predict, and eventually mitigate the effects of global climate 
        change were lost in the restructured program. The changes to 
        NPP and the decision to find a platform for a new TSIS are 
        welcome news, but, as detailed in a forthcoming NRC report, far 
        from what is needed. Finally, NOAA must have adequate resources 
        to support the development and stewardship of Climate Data 
        Records. This was addressed in both the Interim and Final 
        reports of the decadal survey, and I call it again to the 
        attention of the Committee.
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        

    In summary, I am encouraged by the renewed emphasis on Earth 
science at NASA; however, without additional resources, there is a 
limit to what management's best intentions can accomplish. The NASA 
Earth science program is doing what it can with the resources it has 
been given; it simply has not been given enough to accomplish all that 
is expected of it, and, more importantly, all that the Nation needs. I 
address explicitly what further needs to be done in my answer to 
Question Two below.

2.  What, if any, challenges do you foresee for the future of the NASA 
Earth science program as presented in the FY 2009 budget request? What 
are your suggestions for addressing those challenges?

    As I noted in my response to question #1, the FY09 NASA Earth 
science program request is very good news, but I am concerned about 
whether the initiative can be sustained and whether it is advisable to 
fund Earth science at the expense of other NASA science programs. The 
planned addition of $910 million over five years to the Earth science 
budget also still leaves a very large shortfall in what is needed to 
execute the recommendations of the decadal survey (see again the figure 
above).
    The 17 missions recommended by the decadal survey are organized 
into sets in order to take most advantage of concurrent observations to 
advance our understanding of Earth as a system--four missions are 
recommended for launch in the 2010-2013 timeframe. In contrast, the 
FY09 budget plans for one to launch in 2012 and a second in 2015. A 
third is slated for 2017. This makes the concurrent observations 
between missions very difficult. The overall program recommended by the 
decadal survey is simply not being adequately implemented.
    I would like to suggest two challenging and important actions: 
First, both the Science Mission Directorate and the Earth Sciences 
Division need a budget plus above the President's request. Congress did 
this last year, and the result was particularly positive since it 
served to not only achieve the direct benefits one might expect, but it 
also encouraged industry to begin to invest anew in technologies 
relevant to the missions recommended by the decadal survey. For the 
Earth sciences, the target for this Congressional increase should be a) 
more rapid implementation of the first four missions and b) a greater 
technology investment in the missions in the 2013-2016 timeframe--
particularly the first two or three missions in the 2013-2016 
timeframe. Second, Congress should address the inadequacies in the out-
year budget; this could be particularly important as the executive 
branch of government goes through a transition.

3.  As NASA begins to plan missions recommended in the National 
Academies Earth science Decadal Survey, what actions do the Decadal 
Survey and other community input recommend to further the applied use 
of the data for societal benefits and the transition of research data 
into operational service? What, if any impediments exist that could 
constrain progress in this area, and how can they be overcome?

    In the decadal survey report, the steering committee expressed a 
particular concern with the lack of clear agency responsibility for 
sustained research programs and the transitioning of proof-of-concept 
measurements into sustained measurement systems. To address societal 
and research needs, both the quality and the continuity of the 
measurement record must be assured through the transition of short-
term, exploratory capabilities, into sustained observing systems. The 
elimination of the requirements for climate research-related 
measurements on NPOESS is only the most recent example of the Nation's 
failure to sustain critical measurements. Therefore, our committee 
recommended that, ``The Office of Science and Technology Policy (OSTP), 
in collaboration with the relevant agencies, and in consultation with 
the scientific community, develop and implement a plan for achieving 
and sustaining global Earth observations.'' In addition, we recommended 
that the plan recognize the complexity of differing agency roles, 
responsibilities, and capabilities as well as the lessons from 
implementation of the Landsat, EOS, and NPOESS programs.
    I am pleased to note that this recommendation is being taken very 
seriously by the OSTP. It is my understanding that they are developing 
an overall strategy for Earth observations policy, which will include 
interagency issues of the kind raised in the decadal survey as well as 
issues related to the U.S. contribution to a global observing system 
and GEO.
    The issue of an overall national strategy and plan for Earth 
observation is of central importance, and I return to it below in my 
answer to the Committee's final question.
    Another area that requires attention is the NASA applied sciences 
program. Last year, the NRC completed a review of this program; at the 
end of my testimony, I attach a copy the recommendations from that 
report. These recommendations are entirely consistent with those in the 
decadal survey; we also noted that the key to meeting societal needs 
for Earth observation data is to have the potential ``users'' of these 
data represented in a substantive way from the earliest stages of 
mission development, determining priorities, designing products, and 
evaluating benefits. As noted in my response to question #1, renewed 
support for the NASA Research and Analysis program is also critical to 
the success of the applied sciences program.

4.  The Committee on Science and Technology plans to reauthorize NASA 
this year and in so doing will communicate policy direction to NASA as 
well as to the next Presidential Administration. What, in your view, 
are the most important issues with respect to NASA's Earth science 
programs that Congress should consider in its reauthorization of NASA?

    NASA should consider how to best leverage its Earth science program 
resources to accomplish both the intended science and societal outcomes 
as described in the decadal survey. An integrated programmatic approach 
is required to align efforts towards these common goals. This means 
coordination of, for example, NASA's technology development investments 
to ensure needed technologies are ready to support recommended 
missions. It also will require additional support to applications end-
users' involvement in mission formulation, and targeted R&A investments 
to begin work on laying the scientific foundation needed to maximize 
the value of mission observations. In other words, we need to eliminate 
the traditional ``stove pipe'' approach, which often decouples funding 
priorities between program elements; sustained programmatic attention 
is required to implement the needed missions in a reasonable timeframe. 
Yet, as we stressed in the decadal survey, the program must also 
provide opportunities for entirely new measurements and approaches and 
so programmatic flexibility must be retained to both accommodate and 
enable new discoveries.
    A key to making more efficient use of scare budget resources is to 
develop a comprehensive approach to Earth observations from space. As 
stated above in my response to question 3, the decadal survey committee 
expressed great concern that the Nation's civil space institutions 
(including NASA, NOAA, and USGS) are not adequately prepared to meet 
society's rapidly evolving Earth information needs. These institutions 
have responsibilities that are in many cases mismatched with their 
authorities and resources: institutional mandates are inconsistent with 
agency charters, budgets are not well matched to emerging needs, and 
shared responsibilities are supported inconsistently by mechanisms for 
cooperation. Further, these are issues whose solutions will require 
action at high levels of the Federal Government. It was for these 
reasons that we recommended development and implementation of a 
comprehensive plan for achieving and sustaining global Earth 
observations.
    Returning to my opening comments, we know that the planet's 
environment is changing on all spatial scales including global, and 
change is rapid, perhaps more rapid than at any time in human history. 
Further, we know that many of these changes are occurring as a result 
of human activities. These human-induced changes are over and above the 
stresses imposed by the natural variability of a dynamic planet and are 
intersecting with the effects of past and existing patterns of 
conflict, poverty, disease, and malnutrition.
    As I noted, the changes cascade through the Earth's environment in 
ways that are difficult to understand and often impossible to predict. 
Therefore, at the least, these human-driven changes in the global 
environment will require that societies develop a multitude of creative 
responses, including strategies for mitigation and adaptation. Earth 
observations are a critical part of developing these responses.
    The linked challenges of confronting and coping with global 
environmental changes, and addressing and securing a sustainable 
future, are daunting and immediate, but they are not insurmountable. 
These challenges can be met, but only with a new and even more vigorous 
approach to observe and understanding our changing planet and with a 
concomitant commitment by all to alter our actions.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                    Biography for Berrien Moore III
    Berrien Moore III joined the University of New Hampshire (UNH) 
faculty in 1969, soon after receiving his Ph.D. in mathematics from the 
University of Virginia. A Professor of Systems Research, he received 
the University's 1993 Excellence in Research Award and was named 
University Distinguished Professor in 1997. Professor Moore's research 
focuses on the carbon cycle, global biogeochemical cycles, and global 
change as well as policy issues in the area of the global environment. 
In 2007 he was awarded the Dryden Lectureship in Research by the 
American Institute of Aeronautics and Astronautics (AIAA) and was among 
the network of scientists who contributed their expertise to the 
assessment reports of the Intergovernmental Panel on Climate Change 
(IPCC), resulting in that organization's designation as the 2007 co-
recipient of the Nobel Peace Prize. Dr. Moore was the coordinating lead 
author for the final chapter, ``Advancing our Understanding'' of the 
IPCC's Third Assessment Report.
    The Director of the Institute for the Study of Earth, Oceans, and 
Space (EOS) from 1987 to 2008, he has simultaneously served on and 
chaired numerous government affiliated scientific committees (NASA/
NOAA, The National Academies), including the NRC Committee on Global 
Change Research from 1995-1998 which produced the landmark report, 
``Global Environmental Change: Research Pathways for the Next Decade.'' 
In 1987 he was appointed chairman of NASA's senior science advisory 
panel and in 1992 upon completion of his chairmanship, was presented 
with NASA's highest civilian award, the NASA Distinguished Public 
Service Medal for outstanding service to the agency. Most recently he 
co-chaired with UCAR President Rick Anthes, the National Research 
Council's decadal survey, ``Earth Observations from Space: A Community 
Assessment and Strategy for the Future.''
    His scientific committee service has spanned decades and 
continents, including his four-year tenure (1998-2002) as the Chair of 
the Science Committee of the International Geosphere-Biosphere 
Programme and his previously mentioned service as a lead author within 
the Intergovernmental Panel on Climate Change's (IPCC) Third Annual 
Report (TAR) which was released in Spring 2001. In July 2001 he chaired 
the Global Change Open Science Conference in Amsterdam and is one of 
the four architects of the Amsterdam Declaration on Global Change.
    Professor Moore's current professional affiliations include the 
following: Member, Advisory Council, Jet Propulsion Laboratory; Member, 
Scientific Advisory Board, Max Planck-Institute for Meteorology, 
Munich, Germany; Chair, National Academies' Space Studies Board 
Committee on Earth Studies; Chair, Steering Committee, Global 
Terrestrial Observing System (United Nations Affiliate); Member, Board 
of Directors, University of New Hampshire Foundation; Member, Board of 
Trustees, Mount Washington Observatory, North Conway, NH; Member, 
Science Advisory Team-The National Polar-Orbiting Operational 
Environmental Satellite System (NPOESS/NOAA).
    In February 2008 Professor Moore stepped down as Director of the 
Institute for the Study of Earth, Oceans, and Space to lead Climate 
Central, an emerging, nonprofit, nonpartisan think-tank dedicated to 
producing and providing the public, business and civic leaders and 
policy-makers with objective and cutting edge information about climate 
change and potential solutions. The group is based in Princeton, NJ and 
Palo Alto, CA.

    Chairman Udall. Thank you, Dr. Moore. As you all have 
heard, there is a vote on. I think if we move with some 
dispatch, Dr. Squyres and Dr. Burns, we can get your testimony 
in, and then the Committee will stand in temporary recess and 
then we will return to direct questions of the panel.
    So, Dr. Squyres.

STATEMENT OF DR. STEVEN W. SQUYRES, GOLDWIN SMITH PROFESSOR OF 
  ASTRONOMY, CORNELL UNIVERSITY; PRINCIPAL INVESTIGATOR, MARS 
                   EXPLORATION ROVER PROJECT

    Dr. Squyres. Thank you. Well, Mr. Chairman, Ranking 
Minority Member, and Members of the Subcommittee, thank you 
very much for the opportunity to appear today.
    In my opening remarks, I would just simply like to make two 
points. The first point is that this budget contains a lot of 
good news for solar system exploration. The budget includes a 
healthy increase in funding for research and analysis. R&A is 
important. It is where the Nation reaps the benefits of the 
missions that NASA flies. It is where data get turned into 
scientific knowledge, so this is a very welcome development and 
I applaud it.
    It is also good news that there is funding for three new 
robotic missions to the Moon to be launched by 2014. This 
renewed emphasis on lunar science is consistent with NASA's 
focus on the Moon as the primary target of the Vision for Space 
Exploration.
    And perhaps the best news of all is that the budget also 
calls for the development of an Outer Planets Flagship mission 
for launch in 2016 or 2017. This mission would be sent to the 
Jupiter system, to Saturn's moon, Titan, or to Jupiter's moon, 
Europa; and any one of these missions would have enormous 
scientific potential. So there is a great deal here to be 
pleased about, and I commend Dr. Stern and the agency for what 
they have accomplished.
    But there is some bad news, too, and my second point is 
that I am concerned about the dramatic cuts in the budget to 
NASA's very successful program on Mars exploration. In 
presentations to the science community, NASA has described a 
very exciting future program of Mars exploration. In 2013, an 
orbiter would be launched to study the upper atmosphere of 
Mars. In 2016 another major science mission would be launched, 
and then in 2018 or 2020, the long-awaited Mars Sample Return 
mission would be sent on its way. The reason that I am 
concerned is that the budget doesn't appear to contain enough 
funds to carry out this program. Now, I say this based not just 
on my own intuition but on a study that I participated in 
recently that was chartered by NASA and that was done in 
response to requests from the Office of Management and Budget.
    In order to fly the Mars Sample Return mission by 2018 and 
2020, our study concluded that a few hundred million dollars 
would have to be spent on technology development over the next 
five years, but as you noted in your opening remarks, Mr. 
Chairman, the actual number in the budget is only $68 million. 
So we concluded that either sample return would have to be 
slipped well beyond 2020 or that the missions in 2013 and 2016 
would have to be eliminated.
    We are also concerned about the total cost of the Mars 
Sample Return mission. NASA's stated cost goal for MSR is $3.5 
billion. That is less than twice the probable cost of the Mars 
Science Laboratory for a mission that is much more than twice 
as complex. And so we concluded that it is likely that the full 
cost of Mars Sample Return will exceed $3.5 billion by an 
amount that is comparable to an entire flagship mission, and 
that shortfall would have to be covered by a foreign partner. 
So there are problems. There are serious problems in the Mars 
program.
    Now let me state very clearly and emphatically that the 
right answer in my opinion is not to move money from other 
parts of the space science budget into the Mars program. 
Everything that I talked about, the increases to R&A, the lunar 
program, the Outer Planets Flagship, and everything you have 
heard from the other witnesses is a welcome development in this 
budget. I applaud all of that. Instead, my strongest advice to 
this committee would be that you strive to add to NASA's space 
science budget the funds that are needed to restore the Mars 
exploration program to the levels that were specified in the 
fiscal year 2008 Congressional Appropriations Act. This would 
enable NASA to continue the program that has been a great 
scientific success and has captured the imagination of the 
American public. Again, I really want to stress that most of 
the news in this budget is good for solar system exploration, 
and if you can fix the one serious problem, the cuts to the 
Mars program, you can make this a space science budget the 
Nation can really be proud of. Thank you.
    [The prepared statement of Dr. Squyres follows:]

                Prepared Statement of Steven W. Squyres

Abstract

    The President's FY09 budget request for NASA Space Science contains 
both good news and cause for concern in the area of solar system 
exploration. The budget contains a healthy increase in funding for 
Research and Analysis. It contains significant new activity in lunar 
science, including the GRAIL Discovery mission and three new robotic 
missions to the Moon to be launched by 2014. This renewed emphasis on 
lunar science is consistent with NASA's focus on the Moon as the near-
term target of the Vision for Space Exploration. The budget also calls 
for the development of an Outer Planets Flagship mission for launch in 
2016 or 2017. This mission would be sent to the Jupiter system, to 
Saturn's moon Titan, or to Jupiter's moon Europa. Any one of these 
missions would have enormous scientific potential. So all of these are 
very welcome developments for which NASA should be strongly commended. 
The area of greatest concern within the Solar System Exploration budget 
is the Mars Exploration Program. NASA has described an exciting future 
program of Mars exploration, but a recent Mars program architecture 
study suggests that the budget request does not contain adequate funds 
to carry out this program. The budget request includes the money 
necessary to fly exciting science missions in 2013 and 2016. It also 
contains $68 million in technology development funding for Mars Sample 
Return. But $68 million is far short of the investment that would be 
needed to support launch of Mars Sample Return by the target dates of 
2018 and 2020. Also, NASA's stated cost goal for MSR is just $3.5 
billion, whereas the full cost of MSR will probably exceed this by an 
amount comparable to an entire flagship mission. The Mars program 
architecture study concluded that the budget request will support Mars 
science missions in 2013 and 2016 only if MSR is slipped well beyond 
2020. Alternatively, it concluded that MSR could be carried out by 2020 
only if both the 2013 and 2016 missions were eliminated. My strongest 
advice to this committee would be that you correct this problem by 
working to add to NASA's Space Science budget the funds necessary to 
restore the Mars Exploration Program to the levels specified in the 
FY08 Congressional Appropriations Act.

    Mr. Chairman and Members of the Subcommittee, thank you for the 
opportunity to appear today. My name is Steven W. Squyres, and my title 
is Goldwin Smith Professor of Astronomy at Cornell University. I am the 
scientific Principal Investigator for NASA's Mars Exploration Rover 
project, and I have participated for the past thirty years in a number 
of other NASA solar system exploration missions.
    I welcome the opportunity to talk to you today about NASA's Space 
Science budget for Fiscal Year 2009. My main impression of the 
President's FY09 budget request for Space Science is that it is a 
valiant attempt to do a lot with a little. The budget contains some 
very good news, calling for the initiation of several missions that 
have been high-priority goals of the space science community for many 
years. These include a Solar Probe mission and a joint NASA-DOE Dark 
Energy mission, both slated to launch in the middle of the next decade. 
Both of these missions are consistent with the recommendations of the 
relevant Decadal Surveys of the National Research Council. I will leave 
it to others appearing before this subcommittee today to discuss the 
scientific importance of these missions in greater detail than I can, 
but I applaud their inclusion in the budget.
    There is also good news for study of the Earth, where the 
President's budget request opens up a funding wedge that will 
accelerate the recommended flight missions of the Earth Science Decadal 
Survey. Again, others can comment better than I on the merits of these 
missions. But speaking as a planetary scientist who has to live on this 
planet, I welcome the idea of NASA increasing the share of its 
resources that is devoted to study of the Earth's environment.
    In solar system exploration, my own area of expertise, there is 
both good news and some cause for concern.
    The first piece of good news is that the budget includes a healthy 
increase in funding for Research and Analysis. The R&A program is where 
the Nation reaps the benefits of the space missions that NASA flies; it 
turns data into scientific knowledge. The R&A program is where many new 
concepts for planetary missions are born, and where students learn how 
to do science. Increased R&A funding will mean increased award rates 
for research grants, larger grant sizes, and a more productive 
planetary science community. So this is a very welcome development.
    Also among the good news is that there is significant new activity 
in the long-neglected area of lunar science. NASA recently selected the 
GRAIL Discovery mission, which will use twin spacecraft to orbit the 
Moon and map its gravity field in unprecedented detail, addressing 
long-standing questions about the Moon's internal structure and 
evolution. In addition, the budget provides funds for three new robotic 
missions to the Moon to be launched by 2014. These include an orbiting 
spacecraft called the Lunar Atmosphere and Dust Environment Explorer 
(LADEE), and two small landers that will touch down near the north and 
south lunar poles.
    This renewed emphasis on lunar science is consistent with NASA's 
focus on the Moon as the near-term target of the Vision for Space 
Exploration. Many opinions have been expressed regarding NASA's planned 
return to the Moon. My personal view is that the Moon is the logical 
place to go next with humans, because it is the best place to 
demonstrate the new technologies and vehicles that will be needed to 
carry astronauts to more exciting and distant destinations like Mars 
and asteroids. And while I hope that NASA will not get bogged down in 
extended program of human exploration of the Moon while more appealing 
targets beckon, one can only welcome new low-cost missions that address 
science that is directly related to the Agency's central focus.
    The budget also calls for the development of an Outer Planets 
Flagship mission for launch in 2016 or 2017. This mission would be sent 
to the Jupiter system, to Saturn's moon Titan, or to Jupiter's moon 
Europa. Any one of these missions would have enormous scientific 
potential.
    The Jupiter system is like a complete solar system in miniature. 
Jupiter itself is the best example of a giant planet in our solar 
system, and may be representative of a class of planets that are common 
throughout the Universe. Its four large moons formed together and yet 
show enormous diversity, making them a natural laboratory for studying 
the processes that shape planetary bodies. At Saturn, the Cassini/
Huygens mission has revealed Titan to be a complex and fascinating 
world, with a dense hydrocarbon-rich atmosphere and lakes of liquid 
methane and ethane on its surface. The chemistry that takes place in 
Titan's atmosphere may be closely related to some of the chemical 
reactions that preceded the development of life on Earth. And at 
Europa, observations from the Voyager and Galileo spacecraft have 
provided evidence that a deep ocean of liquid water may exist beneath 
the satellite's icy crust. Europa's ocean, if shown conclusively to 
exist, may be the best place in the solar system to search for 
extraterrestrial life.
    The Outer Planets Flagship mission is directly responsive to the 
most recent NRC Decadal Survey for Solar System Exploration. This 
survey placed high priority on a Europa Geophysical Explorer mission 
that would scrutinize several of Jupiter's moons before embarking on 
detailed exploration of Europa.
    My excitement over inclusion of an Outer Planets Flagship mission 
in the President's budget is tempered somewhat by cost concerns. All of 
the candidate missions being studied are very technically challenging, 
and all of them will require a substantial up-front investment in key 
technologies. Given the projected launch dates, there is enough time to 
prepare for these missions, and I am heartened to see the technology 
investment beginning now. But NASA's total projected budget for the 
Outer Planets Flagship mission is unlikely to be adequate for a mission 
of the complexity demanded by the science goals. To their credit, NASA 
is clearly aware of this, and the Agency has emphasized the need for a 
capable foreign partner to make a major contribution to the mission. 
Foreign partnerships for large outer planets missions can be forged--
the Cassini/Huygens partnership between NASA and the European Space 
Agency has been a spectacularly successful example. But international 
cooperation can be difficult to bring about and manage, and careful 
planning with a committed partner will be required for this critically 
important mission to be a success.
    I believe that the area of greatest concern within the Solar System 
Exploration budget is the Mars Exploration Program.
    In presentations to the science community, NASA has described an 
exciting future program of Mars exploration. This program would 
continue the ongoing operations of several highly successful spacecraft 
at Mars, including the Mars Odyssey orbiter, the Mars Exploration 
Rovers Spirit and Opportunity, and the Mars Reconnaissance Orbiter. It 
would operate the Phoenix lander that will touch down near the north 
pole of Mars in May of this year. It would launch the highly capable 
Mars Science Laboratory mission in 2009 to explore for long distances 
over the Martian surface and study the planet's former suitability for 
life.
    This program also would continue an exciting program of Mars 
exploration into the second decade of this century. In 2013, an orbiter 
mission would be launched to study the dynamics and evolution of the 
upper atmosphere of Mars. In 2016 another major science mission would 
be launched, either into orbit or back to the Martian surface. And 
then, in 2018 and 2020, the orbital and surface elements of the long-
awaited Mars Sample Return mission would be launched.
    This program of future Mars exploration would build on the momentum 
of some of NASA's greatest successes of the past decade. It would be 
balanced in its scientific content. And by including a sample return 
mission it would directly address what has been one of the highest 
priorities in Mars exploration for many years. It is my impression that 
this program has the strong support of the Mars science community.
    Where I see cause for concern is that the President's FY'09 budget 
request does not appear to contain adequate funds to carry out this 
program. I base this statement not just on my own intuition, but on a 
Mars program architecture study in which I participated recently that 
was chartered by NASA to respond to a request from the Office of 
Management and Budget. The study was carried out by nineteen senior 
engineers, scientists, and cost analysts. The conclusions of the study 
were reported recently to NASA's Planetary Science Subcommittee, and I 
will relate them briefly here.
    The budget for Mars Exploration in FY08 was about $625 million, and 
last year's annual budget plan going forward from FY09 to FY12 was 
roughly constant at that level. In contrast, the current President's 
budget request cuts Mars exploration to less than $390 million in FY09, 
and averages only about $350 million a year for the five years going 
forward. In the Science Mission Directorate's planning estimates, Mars 
program funding does not start to ramp up again until FY17, and does 
not return to current levels until FY19.
    The FY09 budget request includes all of the money necessary to fly 
exciting science missions in 2013 and 2016. It also contains $68 
million in technology development funding for Mars Sample Return. But 
there are two problems with this scenario if MSR is going to be 
launched in 2018 and 2020.
    One problem is that $68 million in the period from FY09 to FY13 is 
far short of the investment that would be needed to support launch of 
MSR by 2018 and 2020. Mars Sample Return will be the most complex 
robotic planetary mission ever undertaken, by a substantial margin. In 
order to launch the first element of the mission in 2018, our study 
concluded that a technology investment of hundreds of millions of 
dollars--not just $68 million--would have to be made by four or five 
years before the 2018 launch.
    The other problem is the total cost of Mars Sample Return. NASA's 
stated cost goal for MSR is $3.5 billion. That number is less than 
twice the probable cost of the Mars Science Laboratory, for a mission 
that appears to be much more than twice as complex. We concluded that 
the full cost of MSR will exceed $3.5 billion by an amount comparable 
to an entire flagship mission. That shortfall would have to be covered 
on the appropriate schedule by a highly capable and committed foreign 
partner, with all of the management challenges that international 
partnerships entail.
    Putting this together, our study concluded that the President's 
FY09 budget request will support NASA's planned Mars missions in 2013 
and 2016 only if MSR is slipped well beyond 2020. Alternatively, we 
concluded that MSR could be carried out by 2020 only if both the 2013 
and 2016 missions were eliminated. And at a cost target of $3.5 
billion, we concluded that a flagship-class contribution from a foreign 
partner would be required to enable sample return.
    The impact on the Mars program of elimination of the 2013 and 2016 
missions would be severe. There would be a lack of continued progress 
toward key goals of the NRC Decadal Survey, and a loss of scientific 
balance. Of perhaps still greater concern is the loss of technical and 
scientific know-how that could occur as a result of the very long 
hiatus between landed missions.
    In addition, the Mars Exploration Program would cease to be a truly 
interconnected program of exploration. In a recent report entitled 
``Grading NASA's Solar System Exploration Program: A Midterm Review,'' 
the NRC gave the Mars program the only grade of ``A'' in the review, 
and said this about it:

         A key element of the success of this program is that it is not 
        a series of isolated missions, but rather a highly integrated 
        set of strategically designed missions, each building on the 
        discoveries and technology of the previous missions and fitting 
        into long-term goals to understand the planet, whether or not 
        it ever had or does now have life, and how Mars fits into the 
        origin and evolution of terrestrial planets.

    With the implementation of the President's FY09 budget request and 
a Mars Sample Return mission ``anchored'' in 2020, this key 
characteristic of the Mars program would be lost.
    As I noted at the beginning of my testimony, the President's budget 
request for NASA Space Science is a valiant attempt to do a lot with a 
little. I admire the Agency for this attempt, and I am heartened to see 
that the budget contains major new initiatives across nearly the full 
breadth of space science. But I foresee problems, particularly in the 
weakening of the Agency's Mars program.
    Let me state clearly that the right answer in my opinion is not to 
move money from other parts of the Space Science budget into the Mars 
program. Instead, my strongest advice to this committee would be that 
you work to add to NASA's Space Science budget the funds necessary to 
restore the Mars Exploration Program to the levels specified in the 
FY08 Congressional Appropriations Act. This would enable NASA to 
continue what has been one of its most scientifically successful 
programs. It would also allow continuation of a program that has 
captured the public's imagination, and that is directly relevant to the 
central focus of the Agency: NASA's Vision for Space Exploration.
    If funding cannot be restored to the Mars program, then some very 
tough choices would have to be made. The way to make such choices, of 
course, would be via the same kind of community-based process that 
produced the Decadal Survey. My own opinion is that a post-MSL Mars 
program that consisted solely of a sample return by 2020 would not be 
the best use of limited resources. If faced with a decade-long hiatus 
in the exploration of Mars, I personally feel that the best thing to do 
about sample return--which has been and remains one of the highest-
priority goals of Mars exploration--would be to postpone it a few years 
in favor of missions in 2013 and 2016 that would continue to make major 
advances in our knowledge of the planet.
    Again, I thank you for the opportunity to appear before the 
Subcommittee today.

                    Biography for Steven W. Squyres

    Steven W. Squyres is Goldwin Smith Professor of Astronomy at 
Cornell University, and is the Principal Investigator for the science 
payload on the Mars Exploration Rover Project. He received his Ph.D. 
from Cornell in 1981 and spent five years as a post-doctoral associate 
and research scientist at NASA's Ames Research Center before returning 
to Cornell as a faculty member. His main areas of scientific interest 
have been Mars and the moons of the outer planets. Research for which 
he is best known includes study of the history and distribution of 
water on Mars and of the possible existence and habitability of a 
liquid water ocean on Europa.
    Dr. Squyres has participated in many of NASA's planetary 
exploration missions, including the Voyager mission to Jupiter and 
Saturn, the Magellan mission to Venus, and the Near Earth Asteroid 
Rendezvous mission. Along with his current work on MER, he is also a 
co-investigator on the 2003 Mars Express, 2005 Mars Reconnaissance 
Orbiter and 2009 Mars Science Laboratory missions, a member of the 
Gamma-Ray Spectrometer Flight Investigation Team for the Mars Odyssey 
mission, and a member of the imaging team for the Cassini mission to 
Saturn.
    Dr. Squyres has served as Chair of the NASA Space Science Advisory 
Committee and as a member of the NASA Advisory Council. His awards 
include the American Astronomical Society's Harold C. Urey Prize, the 
Space Science Award of the American Institute of Aeronautics and 
Astronautics, the American Astronautical Society's Carl Sagan Award, 
the National Space Society's Wernher von Braun Award, and the Benjamin 
Franklin Medal of the Franklin Institute. He is a fellow of the 
American Academy of Arts and Sciences.

    Chairman Udall. Thank you, Dr. Squyres.
    Dr. Burns.

 STATEMENT OF DR. JACK O. BURNS, PROFESSOR OF ASTROPHYSICS AND 
 SPACE ASTRONOMY; VICE PRESIDENT EMERITUS FOR ACADEMIC AFFAIRS 
        AND RESEARCH, UNIVERSITY OF COLORADO AT BOULDER

    Dr. Burns. Chairman Udall, Ranking Minority Member Feeney, 
and Members of the Subcommittee, thank you for your invitation 
to discuss NASA's astrophysics program here today.
    This is an invigorating time for astrophysics. In the next 
two years, NASA will launch several much-anticipated missions 
including the gamma ray observatory GLAST and the planet-
finding telescope, Kepler. Next August, the astronauts aboard 
the Space Shuttle will extend and enhance the scientific life 
of the Hubble Space Telescope. The astronomy community very 
much appreciates the continuing efforts of this Congress to 
fund these important programs.
    Mr. Chairman, in response to your first question about the 
direction of the astrophysics program at NASA, let me say that 
Dr. Stern and his staff have addressed many of the concerns 
regarding the previous astrophysics budget that was in place 
before they joined the agency last April. Included in the 
positive changes, a few of which we have already heard about, 
is the fact that the previous cuts in research and analysis, 
R&A budget, have been largely reversed. The astrophysics R&A 
budget is proposed to increase by 8.5 percent in 2009 and 48 
percent in the next five years. The R&A program permits 
researchers and their students to mine NASA's investments in 
the astrophysics missions.
    Second, NASA has begun as you said, Mr. Chairman, a new 
start, the Joint Dark Energy Mission, JDEM, in partnership with 
the DOE.
    Thirdly, NASA has opened competition for three new Explorer 
missions, and it is reinvesting in sounding rockets and balloon 
experiments, thus helping to restore the much-needed balance 
within the portfolio of science launches, particularly with the 
smaller missions. In all of these areas, NASA astrophysics is 
moving in the right direction. However, like my colleagues on 
this panel, I too am concerned about the overall drop, 
particularly for astrophysics. Using NASA's new start inflation 
index, the astrophysics budget is forecast to fall by $423 
million or 31 percent for 2013 in real buying power over that 
for 2008. This decrease is proposed to occur right during an 
era of significant new astrophysics discoveries that will 
commence particularly with the James Webb Space Telescope at 
the end of this five-year period.
    The fundamental issue is that NASA is underfunded for its 
overall mission which in turn creates budgetary stress 
throughout the agency as noted once again by my colleagues on 
the panel. In my view, this is the key challenge that must be 
addressed by the Congress and the next Administration. The 
astrophysics community will soon begin its Decadal Survey. Our 
task will be to set priorities over an ever-broadening 
scientific landscape. The proposed new missions must be 
realistically life cycle costed and cost capped based upon the 
best available models and experience. I believe that all 
missions, even those ranked by previous Decadal Surveys, must 
be evaluated and reranked along with the new ideas that emerge.
    As we begin the next Decadal Survey, we are facing a 
daunting challenge once again due to NASA's astrophysics 
budget. How do we start, Mr. Chairman, new missions as will 
surely be recommended by the Decadal Survey with a budget that 
is forecast to decline by 31 percent in real buying power over 
the next five years?
    Regarding the large missions with budgets over $500 
million, NASA is following the AAAC, the Decadal Survey, and 
other Academy committee recommendations. A few issues, though, 
are worthy of note. There is continuing concern about the 
potential cost growth and the James Webb Space Telescope, 
although I emphasize, I have no heard any additional imminent 
problems in completing and delivering the telescope to its 
orbit in 2013, but we must remain vigilant.
    For JDEM, NASA must now select a single concept for the 
mission and cap the total budget at $600 to $800 million so as 
not to impose further stress on the astrophysics budget.
    And thirdly, one of the possibly most exciting potential 
missions for the next decade will be the search for extrasolar 
planets. There are a number of promising concepts under 
development, but all must be vetted by the Decadal Survey. The 
community-based priority setting must be allowed to proceed, 
Mr. Chairman, without intervention if we are to select the best 
concept and maintain the budgetary balance within the 
astrophysics program.
    Finally, Mr. Chairman, you asked about my views on 
reauthorization of NASA. From its founding days, NASA's mission 
has been exploration, human and robotic, scientific and 
technological, near-Earth and larger cosmos. I recommend that 
the Congress reauthorize NASA to execute this mission on behalf 
of and for the benefit of our nation of explorers. Furthermore, 
NASA should be reauthorized with a budget that reflects this 
bold mission and its value to the Nation. NASA must continue to 
explore in the broadest sense. Scientific exploration is 
equally fulfilling and synergistic with human exploration. NASA 
must continue to explore in a balanced fashion recognizing that 
all facets of explorations define the benefit of the agency to 
the Nation. Thank you, Mr. Chairman.
    [Prepared statement of Dr. Burns follows:]

                  Prepared Statement of Jack O. Burns

Introduction

    Mr. Chairman, Ranking Minority Member, and Members of the 
Subcommittee, I want to thank you for inviting me to appear before you 
today to discuss NASA's Astrophysics program. My name is Jack Burns and 
I am a Professor of Astrophysical and Planetary Sciences at the 
University of Colorado, Boulder and Vice President Emeritus for 
Academic Affairs and Research for the University of Colorado System. I 
also have the privilege to serve as Chairman of the American 
Astronomical Society's Committee on Astronomy and Public Policy and as 
a member of the NASA Advisory Council.
    Let me begin by thanking this committee and the Congress for its 
leadership in crafting and passing H.R. 2272, America Creating 
Opportunities to Meaningfully Promote Excellence in Technology and 
Science Act (COMPETES), signed into law by the President on August 9, 
2007. As aptly stated by Chairman Gordon, the America COMPETES Act 
``will help secure the United States' ability to compete in the global 
marketplace.'' It is an admirable response to the critical issues 
defined in the 2005 National Academies' report entitled ``Rising Above 
the Gathering Storm'' led by former Lockheed-Martin CEO Norm Augustine. 
I urge the Congress to fully finance the programs authorized in the 
COMPETES Act to provide a much needed enhancement of the Nation's 
innovation economy.
    Speaking of innovation, NASA continues its long history of 
contributing to the country's high technology economy via spinoffs from 
it science programs. For example, Hubble Space Telescope (HST) images 
form one of the key databases behind GoogleSky bringing state-of-the-
art imagery of the Universe into a tool now available to anyone, 
anywhere in the world with a computer (http://www.google.com/educators/
spacetools.html).
    In a similar vein, Microsoft recently announced its WorldWide 
Telescope software (http://worldwidetelescope.org/). The WorldWide 
Telescope is being developed using images from the HST and the ground-
based Sloan Digital Sky Survey. A third example is a company called 
Teraview, Inc. that was founded to utilize Terahertz (i.e., very high 
frequency) technologies and sensors developed at JPL. These spin-off 
technologies from the space science program are being used for 3-D 
imaging and spectroscopy for biomedical and materials research (http://
www.teraview.com/).
    These examples demonstrate NASA's broad applications in astronomy, 
education and public outreach that are also fueling the private 
sector's technology innovations. NASA's leadership in these areas 
brings high visibility to U.S. science and technology achievements and 
attracts young people to these fields.
    This is an exciting time for space science and astrophysics. In the 
next two years, NASA will launch several much anticipated missions 
including the gamma-ray large area space telescope, GLAST, the wide-
field infrared survey explorer, WISE, and the planet-finding photometry 
telescope, Kepler. NASA will also be a major participant in 
international missions with the European Space Agency (ESA) such as 
Herschel that will seek thermal radiation from newly forming stars, 
planets, and ancient galaxies, and Planck that will probe the earliest 
epochs after the Big Bang. And, very importantly, the next Hubble 
Servicing Mission (SM4) will extend and enhance the life of the Hubble 
Space Telescope with the installation of new instruments including the 
Cosmic Origins Spectrograph.
    While we enjoy a generous flow of data from past and current space 
telescopes, we are looking forward to new telescopes and new scientific 
challenges in the next decade. The astronomical community, under the 
leadership of the National Academy of Sciences (NAS), is preparing for 
the commencement of the Astronomy and Astrophysics Decadal Survey that 
is carried out once every ten years. This is an opportunity to look 
forward toward the future of space astrophysics in the context of a 
broad, national astronomy and astrophysics program. The next Decadal 
Survey will provide guidance for federal investment in the next 
generation of ground and space-based telescopes.
    This priority-setting exercise has been the key ingredient in the 
success of U.S. astronomy and astrophysics for the past five decades. 
It is very important for the health of NASA's astrophysics program that 
we conduct an orderly evaluation of concepts across the full spectrum 
of astrophysics missions and wavelengths. To emphasize this point, the 
American Astronomical Society issued this statement in January 2008:

         ``The American Astronomical Society and each of its five 
        divisions strongly endorse community-based priority setting as 
        a fundamental component in the effective federal funding of 
        research. Broad community input is required in making difficult 
        decisions that will be respected by policy-makers and stake-
        holders. The decadal surveys are the premier examples of how to 
        set priorities with community input. Other National Academy 
        studies, standing advisory committees, senior reviews, and 
        townhall meetings are important components. Mid-decade 
        adjustments should also be open to appropriate community input. 
        Pleadings outside this process for specific Congressional 
        language to benefit projects or alter priorities are 
        counterproductive and harm science as a whole. The American 
        Astronomical Society opposes all attempts to circumvent the 
        established and successful community-based priority-setting 
        processes currently in place.''

    The astronomy community appreciates the continuing efforts of 
Congress to fund the programs that reflect these community priorities.

Responses to the Questions from the Chairman

1.  Do you believe the space science program, and especially the 
Astrophysics program, is moving in the right direction? If not, what 
changes do you think would improve the program and why? Please 
elaborate on your perspectives.

    Associate Administrator Alan Stern and Astrophysics Division 
Director Jon Morse are to be congratulated for their prompt, 
constructive responses to the community's deep concerns regarding the 
previous Astrophysics program budget that was in place before they 
joined the Agency last April. As noted by several individuals at 
hearings of this Subcommittee last year, there was discontent with the 
proposed future of astrophysics at NASA. Some important changes have 
been made by the new leadership that are highly laudable, although some 
key long-term challenges remain.
    Let me describe a few of the positive budgetary developments 
proposed for fiscal year 2009. First, the previous cuts in the Research 
and Analysis (R&A) budget have been largely reversed. This budget is 
proposed to increase by 8.5 percent in FY 2009 and is forecast to 
increase further through FY 2013 for a total of 48 percent growth over 
five years between 2007 and 2013. The R&A program permits researchers 
and their students to mine NASA's investments in astrophysics missions 
from the last decade. It provides investigators at universities and 
laboratories opportunities to conduct research on archived data, 
theoretical investigations of astrophysical phenomena related to NASA 
telescopic observations, laboratory studies, and the development of new 
instrumentation for future missions. In particular, it provides funding 
to attract young people and to train them in science and engineering, a 
key component of the America COMPETES Act.
    Second, the Science Mission Directorate (SMD) has made a swift and 
positive response to the NAS' Beyond Einstein Program Assessment 
Committee (BEPAC) recommendation to begin funding for a Joint Dark 
Energy Mission (JDEM) in partnership with the Department of Energy 
(DOE) Office of Science. JDEM is proposed to have a budget of $8.5 
million in FY 2009 increasing to $125 million in FY 2013. The 
challenges here are concluding an equitable partnership agreement with 
DOE and putting a strong cost cap in place at the level of $600-800 
million for the total JDEM mission (including all life cycle costs).
    Third, NASA SMD has opened competition for three new small Explorer 
missions. This will help fill the previously identified ``valley of 
death'' in NASA's science mission launch schedule. It will also bring 
new university, laboratory, and industry teams, including graduate 
students and post-doctoral fellows, into partnerships for space science 
missions. In addition, SMD has restarted the previously canceled 
Explorer-class mission called the Nuclear Spectroscopic Telescope 
Array, NuSTAR, to explore the high energy X-ray sky up to energies of 
80 keV. Similarly, NASA is reinvesting in sounding rockets and balloon 
experiments to prototype detectors and spectrographs for potential 
future satellite missions. SMD has begun to restore the balance within 
its portfolio of science launches with a healthier number of small 
missions.
    The above investments and new starts are much appreciated by the 
astrophysics community. Drs. Stern and Morse have been very responsive 
to the recommendations of the previous NAS Astronomy and Astrophysics 
Decadal Survey as well as suggestions from other NAS committees. In all 
these areas, NASA Astrophysics is moving in the right direction.
    However, I am very concerned about the overall drop in funding for 
Astrophysics from $1.363 billion in FY 2008 to a proposed $1.162 
billion in FY 2009 (a decline of 14.7 percent). The budget is projected 
to remain flat thereafter. Using NASA's new-start inflation index, this 
forecast is a reduction of $423 million (31 percent) for FY 2013 in 
real buying power over that for FY 2008. This decrease is proposed to 
occur during an era of significant new astrophysics discoveries with 
observatories such as the James Webb Space Telescope and with the 
expected exciting recommendations from the Decadal Survey.
    NASA's overall budgetary increases for several years have been 
below inflation and SMD's budget reflects this decline. Thus, Dr. Stern 
is attempting to rebalance the science portfolio, create new missions, 
support research and analysis of a rich archive from previous missions, 
and invest in future technology development--all with a flat or 
declining budget in inflation-adjusted dollars. This is a truly 
Herculean task!
    The fundamental issue is that NASA is underfunded for its overall 
mission which, in turn, creates budgetary stress for all of the 
Directorates including Science. In my view, this is the key problem 
that must be addressed by the Congress and the next Administration.

2.  What, if any major challenges do you foresee for the future of the 
NASA astrophysics program, as proposed in the FY 2009 budget request? 
What are your suggestions for addressing those challenges?

    As noted above, the Astrophysics community will soon begin its 
Decadal Survey under the leadership of the NAS. A great deal of effort 
from our community, involving hundreds of astronomers, as well as 
significant resources from federal agencies will be expended in this 
priority-setting endeavor. But, this is well worth the effort. Our 
challenge in this Decadal Survey will be to set priorities over an 
ever-broadening scientific landscape and to embrace new ventures beyond 
those that we have pursued in the past. We will build consensus on a 
select set of priorities for new telescopes and new missions that will 
advance the astrophysical frontiers ranging from exoplanets to 
cosmology. These new missions must be realistically costed (for 
construction, operations, and de-commissioning) and cost-capped based 
upon the best available models and experience.
    I believe that all missions, even those ranked by previous Decadal 
Surveys but without a funded new start, must be evaluated and ranked 
along with new ideas. The resulting roadmap of telescopes and 
technologies will help guide the Congress and federal agencies toward 
the most prudent and productive investments in the next decade. In the 
past, the Congress has praised the Astrophysics community as being the 
first to undertake this difficult task of prioritization which has led 
to spectacular successes for missions such as the Hubble Space 
Telescope, the Chandra X-ray observatory, and the Spitzer Space 
Telescope.
    As we begin the next Decadal Survey, we are facing a daunting 
challenge due to NASA's Astrophysics budget. How do we start new 
missions as recommended by the Decadal Survey with a budget that is 
forecast to decline by 31 percent in real buying power over the next 
five years? Even within SMD, Astrophysics is shrinking relative to the 
other divisions. This is shown in the figure below provided by SMD.
    From FY 2007 to FY 2013, Astrophysics' budget ``wedge'' diminishes 
while Earth Science, Planetary Science and Heliophysics all grow. Earth 
Science is increasing in response to the exciting agenda put forward by 
its Decadal Survey. The declining wedge for Astrophysics has been 
developed before the astrophysics community has had an opportunity to 
make its case among the other science themes with the results from the 
Astronomy and Astrophysics Decadal Survey. I think we may have the cart 
before the horse here. I urge flexibility in budget planning for the 
out-years in SMD to insure that we, too, in Astrophysics have an 
opportunity to make our case for new investments after our Decadal 
Survey is completed.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    The Astrophysics community must continue to assist NASA during this 
time of tight budgets. We must do a better job of full-costing for new 
missions and then we must hold these missions to those costs within 
realistic contingencies. This must be a partnership between 
astrophysicists, aerospace contractors, and NASA with an a priori 
agreement on terms by all parties.
    Our community, working together with NASA, must continue to shutter 
space-based observatories as they age and decline in scientific 
effectiveness. This is often difficult and challenging. But, such 
decisions will become even more important in the future as we face 
limited budgets and a cadre of exciting new telescopes waiting in the 
wings.
    I commend NASA Astrophysics for convening a Senior Review this 
Spring composed of members of the scientific community to examine most 
of NASA's current astrophysics missions. I urge NASA to perform a 
Senior Review on all its missions, including the Hubble Space Telescope 
after the SM4 servicing mission, over the next several years.
    NASA Astrophysics faces the following challenges:

        <bullet>  How will NASA continue to support future technology 
        development in key areas relevant to its next missions? NASA 
        needs a technology-development fund agency-wide and, 
        specifically, for the space sciences. Our community also needs 
        further relief from the restrictions imposed by the 
        International Traffic in Arms Regulations (ITAR) that are 
        impeding international collaborations in space science 
        technologies and astrophysics missions.

        <bullet>  How will NASA address the most exciting astrophysical 
        questions that will inevitably emerge from the Decadal Survey 
        in areas such as exoplanets, black holes, and dark energy? 
        Budget stability, unlike that of the past few years, along with 
        budgetary flexibility and new funding will be required.

        <bullet>  How do we train the next generation of space 
        scientists given that the timescales for development and launch 
        of new space missions are often measured in decades, much 
        beyond that of the tenure of students in undergraduate and 
        graduate programs? It is becoming extraordinarily difficult to 
        train instrumentalists in this field. We need to consider 
        creative new programs that fund students to work on missions 
        while in graduate school through a faculty position, and/or a 
        closer integration of rocket/balloon programs with space 
        missions.

3.  The FY 2009 budget proposes initiating missions that will have 
budgets over $500 million. Is NASA's approach to these proposed new 
missions in terms of potential scope, preliminary NASA cost estimates, 
alignment with science priorities, estimated launch timeframes, 
approach to technology development, and opportunities for international 
or interagency partnerships consistent with the Astronomy and 
Astrophysics Advisory Committee (AAAC) and decadal survey 
recommendations? What, if any, risks or issues need to be considered 
with respect to these proposed initiatives?

    Within the tightening budgetary framework, NASA is following the 
AAAC, Decadal Survey, and other NAS committee recommendations. Let me 
describe some of the challenges facing NASA's largest astrophysics 
missions over the next few years.
    In the near-term, there remains much concern about potential JWST 
cost growth. Most of the astronomical community was shocked by the 
large increase in the cost of this mission several years ago. It was 
caused by unrealistic estimates of the development, construction, and 
life cycle costs in the early design phases of this mission. I believe 
we have learned an important lesson from this under-costing and we must 
do a better job of cost estimation for new missions in the future. 
Although the history of JWST continues to produce nervousness among 
astronomers, I have not heard of any additional, imminent problems in 
completing and delivering the telescope to its orbit in 2013.
    JWST is a remarkably powerful mission with potential science 
returns comparable to or exceeding those of the Hubble Space Telescope 
over the past two decades. The upcoming technical reviews for JWST will 
be important in truly understanding how well the project is doing. Such 
``flagship'' missions have an essential role in Astrophysics since they 
involve the broadest cross-section of the community in observations 
ranging from planetary bodies in our solar system to the first galaxies 
that formed in the Universe. Smaller projects of the Explorer and 
Discovery class are faster and more nimble (i.e., able to respond 
quickly to new discoveries), but flagship missions such as JWST push 
the scientific discovery boundaries as only large aperture telescopes 
can do.
    JDEM has been vetted by both the NAS Quarks to Cosmos Committee 
and, more recently, by the NAS BEPAC. The BEPAC concluded that ``a JDEM 
mission will set the standard in the precision of its determination of 
the distribution of dark energy in the distant universe. By clarifying 
the properties of 70 percent of the mass-energy in the Universe, JDEM's 
potential for fundamental advancement of both astronomy and physics is 
substantial.'' This Committee found that the JDEM mission candidates 
have mature technologies, most having flown in space or developed in 
other programs. The BEPAC recommended as its top priority that ``NASA 
and DOE should proceed immediately with a competition to select a Joint 
Dark Energy Mission for a 2009 new start.'' The charge and execution of 
this academy review was handled superbly, and NASA has acted swiftly 
and impressively on the BEPAC recommendation. NASA must now run a 
competition to evaluate and then select a single JDEM concept for its 
new start. In this process, the technology, the full life cycle costs, 
and the risks must be carefully weighed. As I noted earlier, it is 
critical to cap the total budget from NASA and DOE to the $600-800 
million level for JDEM so as to not impose further stress on the 
Astrophysics budget.
    Other large, potential missions are awaiting evaluation by the next 
Astronomy and Astrophysics Decadal Survey. One very exciting potential 
mission for the next decade will be the search for extrasolar, 
including Earth-like, planets around other stars in our Galaxy. NASA 
will begin this effort with the 2009 launch of Kepler, a mission 
designed to indirectly detect exoplanets from the change in the light 
as these planets transit behind and in front of their parent stars. 
Recently, the Exoplanet Task Force convened by the AAAC has recommended 
a large-scale astrometric mission. They carefully avoided specifying a 
particular concept because they believe a re-evaluation of the approach 
for an astrometric mission for planet searches is needed.
    Furthermore, NASA has recently awarded several new ``mission 
concept study'' grants to examine additional ideas for exoplanet 
discovery with very different technologies. For example, the New Worlds 
Observer would use a four-meter class telescope and a flower-petal-
design star shade to dramatically reduce the light from the parent star 
and to directly image terrestrial as well as gas-giant planets in 
extrasolar systems. All these exciting concepts must all be carefully 
vetted and reviewed by the Decadal Survey. This community-based 
priority setting must be allowed to proceed without intervention if we 
are to select which concept is best suited, both scientifically and 
technologically, to fulfill the goal of detecting exoplanets. The 
entire balance of the astrophysics program is threatened if we attempt 
to start a new large project before JWST is completed and before the 
Decadal Survey has finished its analysis.
    Other potential flagship missions evaluated by BEPAC include the 
Laser Interferometer Space Antenna, LISA, that would search for 
gravitational waves from the merger of black holes, and Constellation-X 
that will view compact and extended sources of X-ray emission with 
ground-breaking spectral resolution. These projects are continuing to 
develop with support from the FY 2009 Astrophysics budget which I 
heartily endorse. Once again, this is consistent with the 
recommendations of BEPAC. Both projects have counterparts being 
developed by ESA. I strongly recommend that NASA enhance its efforts to 
seek collaborations on both projects from the international community 
to reduce costs and risks for these flagship missions. International 
partnerships will likely increase their appeal to the Decadal Survey.

4.  The Committee on Science and Technology plans to reauthorize NASA 
this year and in so doing will communicate policy direction to NASA as 
well as to the next Presidential Administration. What, in your view, 
are the important issues with respect to NASA's space science programs 
that Congress should consider in its reauthorization of NASA?

    From its founding days, NASA's mission has been exploration--human 
and robotic, scientific and technological, near-Earth and the larger 
cosmos. I recommend that this Committee and the Congress reauthorize 
NASA to execute this mission on behalf of and for the benefit of our 
nation of explorers. The value of NASA to America is seen best via its 
pioneering outlook in exploring scientific frontiers, its human reach 
into and beyond Earth orbit, its inspiration to the next generation to 
study the STEM fields, and its development of new technologies to grow 
America's innovation economy.
    Most importantly, NASA should be reauthorized with a budget that 
reflects this bold mission and its value to the Nation. Much of NASA's 
current problems in transitioning from the Shuttle to the CEV, in its 
aeronautics programs, and in its science research missions are caused 
by underfunding. The budget is simply too small for the mission. In my 
view, NASA should be reauthorized at a budgetary level sufficient to 
fulfill its mission or the mission should be de-scoped to reflect a 
lower level of commitment. The current limbo cannot continue as it 
demoralizes a dedicated NASA workforce and promises unachievable goals 
to the taxpayers. I hope that the Congress and the next Administration 
will choose the high road of investment and hold both NASA and its 
partners in the university and industry communities to high levels of 
efficiency, accountability, and effectiveness. I believe that the 
astronomical community is ready to generate a high return on investment 
for our fellow taxpayers.
    The reauthorization should encourage NASA to move forward with the 
priorities developed in the community-wide Astronomy and Astrophysics 
Decadal Survey. It should also authorize enough funding to execute the 
most important priorities in the Decadal Survey. NASA must be able to 
accomplish its science mission, as well as those of the other 
directorates, in an adequate fashion.
    There has always been a level of synergy between the science and 
the human exploration programs within NASA. NASA's first satellite 
launch 50 years ago, Explorer I, demonstrated new rocket technology 
that would take Mercury astronauts into space and also discovered the 
Van Allen radiation belts surrounding the Earth. More recently, 
astronauts aboard the Space Shuttle have ventured four times, and will 
return for a fifth time this August, to service the Hubble Space 
Telescope and to install powerful new instruments.
    The Vision for Space Exploration promises some hopeful new synergy 
between human exploration of the Moon and science. The NAC Astrophysics 
Subcommittee and the NAS Report on The Scientific Context for the 
Exploration of the Moon recommended that the unique radio-quiet 
environment of the lunar far-side is ideally suited for an array of low 
frequency radio telescopes that would uniquely detect the first 
structures to form out of the early Universe's ``Dark Ages.'' In 
addition, the Ares V heavy-launch vehicle designed to deliver payloads 
and astronauts to the Moon has exciting capability to place very large 
telescopes, with apertures of 10-30 meters (compared to JWST's 6.5-
meter aperture mirror), into the L2 Earth-Sun Lagrange point for 
extraordinarily deep viewing of the cosmos. NASA's reauthorization 
should promote further synergy between scientific and human 
exploration.
    NASA must continue to explore in the broadest sense. Human 
explorations of the Moon and, in the future, near-Earth asteroids and 
Mars are exciting, fulfilling goals that will continue to define the 
U.S. as a great nation. Scientific exploration is equally fulfilling, 
contributes to the Nation's high technology economy, adds to our 
intellectual development as a species, and inspires both young and old. 
NASA must continue to explore, in a balanced fashion, recognizing that 
all facets of exploration define the benefits of NASA to the Nation. 
Human and scientific explorations produce excitement in equal measures 
and strong support for NASA.
    In conclusion, astrophysics research continues to yield an unbroken 
string of revolutionary discoveries about the Universe with now over 
250 planets known to orbit around stars in our Galaxy, with giant black 
holes of a million to a billion times the mass of the Sun modulating 
star formation in galaxies, and dark energy dominating the energy 
density of the Universe possibly requiring another revolution in our 
conception of gravity and the nature of matter. Space astrophysics is a 
proven lure for students, a testbed for new technologies, and a 
training ground for the Nation's next generation of innovators. As 
such, investments in astrophysics pay major dividends in elevating the 
Nation's scientific and technological literacy.
    Thank you again for this opportunity to share these thoughts with 
you today.

    Chairman Udall. Thank you, Dr. Burns. The Committee will 
stand in temporary recess for approximately 20 to 25 minutes. 
We will return and ask the panel questions.
    [Recess.]

                               Discussion

                        Congressional Thresholds

    Chairman Udall. Okay. All right. The hearing will come to 
order. I want to thank the panel for your forbearance. The 
Chair now recognizes himself for five minutes.
    Dr. Stern, I would like to turn to you and I have a number 
of comments here that will be interspersed with some questions 
so bear with me as I think the focus of our hearing today. The 
fiscal year 2009 budget request for NASA states that eight 
projects have exceeded Congressional thresholds on cost of 
schedule growth. This is an increase of five missions over the 
projects listed in the 2008 budget request. The eight projects 
include Herschel, Kepler, the NPOESS Preparatory Project, 
Glory, Orbiting Carbon Observatory, Aquarius, Gamma-ray Large 
Area Space Telescope, and the Stratospheric Observatory for 
Infrared Astronomy. Given that the 2009 budget request includes 
several new initiatives estimated to cost $500 million or more, 
what specific steps is NASA taking to address the problems of 
the eight missions cited in the budget book and ensure that any 
new initiatives do not exceed Congressional thresholds? What if 
any margin is there in your budget request to handle any 
additional schedule and cost growth? I would have an additional 
concern that I would like to raise on this topic, and that 
centers on NASA's lack of responsiveness to Congress in 
complying with the statute that established the cost and 
schedule thresholds. Specifically, Public Law 109-155, the NASA 
Authorization Act of 2005 is clear in stating how quickly 
notification of such threshold reaches is to be conveyed to the 
Congress. In particular the person overseeing the program 
experiencing such increases or delays must notify the 
administrator immediately and formalize such notification in 
writing no later than 30 days after the initial notification. 
In turn, not 15 days later than receiving this written 
notification, the administration must transmit the notification 
received in NASA's authorization committees.
    Congressional committees receive copies of the program 
notifications for projects such as Glory some four months late. 
Considering the explicit timelines in the legislation, what 
caused such a lengthy delay? Furthermore, the Act requires that 
not later than 30 days after receiving a program's written 
notification, the administrator must determine if the program 
is likely to exceed development costs by 15 percent or more or 
whether the milestone is likely to be delayed by six months or 
more. If the determination is affirmative, not later than 15 
days after the making of the determination, the administrator 
must transmit to NASA's authorization committees a report 
including a description of the increase in cost or delay in 
schedule an action taken or proposed be taken. We still have 
not received your report. Your Assistant Administrator for 
Legislative and Intergovernmental Affairs notified the 
Congressional committees that the mandated report would be 
submitted no later than March 2008. Even that would make it 
almost six months late. What is the reason for the significant 
delay? I am concerned that NASA is not taking these reporting 
requirements seriously, and I will be pursuing this issue 
further in the coming months.
    Thank you for listening to such a long question. Now the 
floor is yours to answer.
    Dr. Stern. Chairman Udall, let me begin with your last 
point, and I will apologize for the agency and offer to take 
that response for the record because I think it requires a 
detailed and careful response. I understand your frustration, 
and sir, I can make the commitment to you that we will work to 
do this better going forward. I would like to spend my time if 
I may speaking to your first two questions.
    Chairman Udall. Please do, Dr. Stern. Thank you for that 
assurance.
    Dr. Stern. Yes, sir. You asked about what management tools 
we are putting in place and what kinds of cost reserve postures 
we are taking, and that is what I want to respond to. Regarding 
management tools, there is a whole variety of things that over 
the last year we have put in place. I know you may have heard 
about some of these. I am going to lay them out, and when you 
see them as a larger picture, I think you will appreciate that 
we are really in I think a pretty strong posture now to go 
forward.
    We are oftentimes now lying in a bed made for us, that is, 
projects that were selected that had too much content for the 
available budget or too little reserves for them. SMD has now 
adopted a philosophy that doesn't try to stuff six or eight 
pounds in that five-pound bag. The missions that we are 
selecting, and I can tell you that all three that we selected 
last year, BARREL, NuSTAR, and GRAIL, all came in well below 
their cost caps and they were verified by independent cost 
estimates made by non-advocate parties. And we looked at those 
very carefully and factored those into our selection criteria. 
So we are trying to make sure that missions have a lot of head 
room. The administrator has required from a reservist posture 
that all missions above a threshold are required to have a 
statistical cost confidence level of 70 percent which often 
requires reserves in excess of 30 percent, which are quite 
large by historical standards, something that NASA had not done 
in the past for which Administrator Griffin should receive 
credit for insisting upon adequate reserves.
    We ourselves in SMD have taken descope seriously. I think 
you have seen examples of that on the MSL mission, you have 
seen some descopes in some Earth science missions. They are not 
always hardware or instruments. Sometimes they are done in the 
operations phase, they are done in terms of the testing or the 
degree of scientific analysis. We are actually trying to put 
feedback loops in place. In the same vein, we have on at least 
one occasion told the science Principal Investigator that if he 
can't control his costs we are going to find another Principal 
Investigator for the mission, and as you are aware, we have 
also come forward with new missions that have cost caps which 
is quite unorthodox. We are turning that from a rare to a 
routine practice. I think that those and other tools that we 
are putting in place like PI minimum experience requirements 
are giving us the suite of dials on the control panel, if you 
will, to ensure that we can manage the projects that we are 
starting to stay in budget so that overruns become rare instead 
of routine.
    Chairman Udall. Thank you for that thoughtful and 
comprehensive answer, and the Chair now recognizes the Ranking 
Member, Mr. Feeney, for five minutes.

                International Traffic in Arms Regulation

    Mr. Feeney. Thank you, Mr. Chairman. Speaking of reports, I 
asked Mike Griffin, other than more money which we all agree 
that we would like to see for NASA, what two things he would 
like to have and the first thing he said, well, I have got 53 
reports annually due to Congress. I would like to have a few 
fewer reports. But he also mentioned ITAR as a very important 
priority legislatively this year. Some things in the program 
can go on with or without Congressional action this year. Does 
anybody have some comments on the importance of passing ITAR? 
Obviously they have implications for the human space flight 
program, but with respect to the science programs, are there 
implications and importances in visiting ITAR as we deal with 
this and you could give us advice on as we try to take this up? 
Dr. Burns.
    Dr. Burns. Yes, Congressman Feeney. I would be happy to 
address that. We have wrestled with that a good deal at the 
University of Colorado in building missions and particularly 
involving international graduate students and restrictions 
associated with them being involved as well as we have a number 
of collaborations with England, Australia, Canada, and those 
restrictions to very friendly countries, countries where we 
have a number of graduate students and collaborators have been 
very restrictive. Looking more broadly though, I think the 
issue is one in which as Dr. Stern said a little bit ago, we 
need to be looking at more international collaboration because 
sharing the costs and the risks associated with these large 
projects in astrophysics for example, the LISA mission, or the 
Constellation-X mission, we need those international 
collaborations. The ITAR restrictions are making it more 
difficult than they need to be and I think are really raising 
the risk factor for some of our missions.
    Mr. Feeney. Dr. Squyres, did you have something?
    Dr. Squyres. Yeah, I would just say that ITAR is some very 
well-intentioned legislation that has had some unintended 
consequences for space science in the United States that has 
actually worked against the best interests of the Nation. As 
the Principal Investigator for the Mars Exploration Rover 
Project, I have had the opportunity at Cornell University to 
have many very talented students come and want to work on the 
mission. These are students and post-docs from nations like 
Denmark and Canada, and we have had to turn away people because 
of the restrictions on ITAR. And these are people who can 
materially advance a U.S. space mission and make it a better 
mission. And if there is anything that this committee or that 
this Congress could do to reduce the burden in a way that in no 
way endangers national interest, obviously that has to be 
foremost, but in a mission like operating rovers on Mars, I 
feel that we could involve international partners in a fashion 
that would put no national interest at risk and would benefit 
this nation.
    Mr. Feeney. Thank you. By the way, thanks to Chairman 
Gordon's permission, I expect to attend in Beijing the first 
Global Space Summit the third or fourth week of April. It is 
awfully presumptuous but not surprising given the way the 
Chinese have advanced in their space programs for them to be 
hosting the first-ever Global Space Summit. But if we are not 
going to deal with international partners, you know, clearly 
the Chinese are going to use it to every advantage as well as 
some others.

                          The Need for Balance

    Dr. Stern, lately we have been hearing that NASA and the 
science community have used the word ``balance'' to describe 
managing goals obviously with the budget constraints that we 
have all voiced problems with, also the allocation of resources 
across the agency, across the Science Mission Directorate and 
across individual programs. Could you describe NASA's approach 
to the term balance and what meaning you give it as you 
evaluate the priorities in a resource-challenged environment?
    Dr. Stern. Yes, sir, Mr. Feeney. Balance really comes in 
several dimensions, so it is important to recognize that it is 
not just the balance between the different scientific 
disciplines, Earth science, astrophysics, heliophysics, and 
planetary science, but it is also balanced within each 
discipline. We try to optimize for each field using its Decadal 
Survey as our primary guide, not optimizing for each individual 
program because then we can't get to balance without averaging 
over the fields. It is also important that we balance in terms 
of the mission side of the House versus the research side of 
the House because if all we do is fly missions and collect ones 
and zeros and don't spend the money to turn those into 
discoveries that change the textbooks, then that is another 
kind of imbalance.
    And still there is one more that I would like to speak to, 
and that is the scale of missions. We got a little bit out of 
balance in recent years with too many large missions compared 
to the number of small, intermediate-scale missions, as I said 
earlier, that stunts progress and it slows innovation. We were 
certainly not in as bad a situation as space science reached in 
the early- and mid-1980s when it looked like we were slipping 
back toward that. We have made positive changes on all of these 
fronts with regard to the balance between programs in our new 
budget, for example, the Earth Science Initiative, with regard 
to higher R&A budgets, so we rebalance between the mission side 
and the analysis side. Within the individual programs, the 
primary example being in the planetary program where we are 
lagging in most of the areas, and we rebalanced using our best 
judgment in the Decadal Survey with regard to the Mars program. 
And we have made progress within the mission scales as well. 
When you look at our new starts, you will see in the Explorer 
program as well we have quite a bit more small- and medium-
scale missions than large-scale missions.

                     Arecibo and Near-Earth Objects

    Chairman Udall. The Chair recognizes the inimitable, the 
one and only, the creative Member from California, Mr. 
Rohrabacher.
    Mr. Rohrabacher. Thank you.
    Chairman Udall. For five minutes.
    Mr. Rohrabacher. For five minutes. All right. And that is 
it. I was in a discussion earlier today about Arecibo and the 
threat of near-Earth objects and the fact that without their 
radio telescope, that we will not be able to actually project 
the trajectory of newly observed near-Earth objects so that we 
will not know if some newly observed near-Earth object is 
actually going to hit the planet and kill millions of people. 
We won't know that without Arecibo, and there just seems to be 
this battle going on about whether or not that is worth funding 
its $5 million expenditure and they are already laying people 
off at Arecibo. Now, I am listening to all these other things 
and am wondering why that is more important than being able to 
protect the lives of millions of people should a near-Earth 
object which we know appear every now and then, how is what you 
are doing more important than that?
    Dr. Stern. Sir, perhaps I will speak for the agency and 
others may wish to speak as well.
    Mr. Rohrabacher. All right.
    Dr. Stern. Well, as you know and as you have encouraged, we 
have an active program to detect near-Earth objects, to plot 
their orbits, to determine when they are potentially hazardous.
    Mr. Rohrabacher. And with Arecibo, how will that----
    Dr. Stern. Sir, with all----
    Mr. Rohrabacher. I would like to progress.
    Dr. Stern. With the detection techniques that we use. They 
are optical. They are not radar, and in fact, most of the orbit 
determination work is done without radar. It is rare that, even 
with Arecibo, that a small, near-Earth asteroid comes close 
enough to be detected by radar. That has to do with the 
technical nature of radar.
    Mr. Rohrabacher. So my description of that, that the 
Arecibo telescope is a necessary component to determine 
trajectory of near-Earth objects is not an accurate 
description?
    Dr. Stern. Sir, I think those facts are--you have got it 
right, exactly right.
    Mr. Rohrabacher. Okay.
    Dr. Stern. In fact, we do that by optical techniques. When 
an object does come very close, we can take advantage of radar 
to improve the orbits, but it is extremely fortuitous, 
extremely rare that an object comes sufficiently close.
    Mr. Rohrabacher. I am not saying that. I am saying is 
Arecibo significant? Is that what is necessary for us to--
realizing that near-Earth objects that come close to the Earth 
are rare, but also realizing that a rare object can kill 
millions of people, if not, even create worse problems. Is the 
Arecibo telescope vital to the mission to tracking that or can 
you track that with just optics? Are you telling me you can 
just track the trajectory with just optics?
    Dr. Stern. Yes, sir. Arecibo is nice to have but it is not 
required, and it alone, for example, would not be able to track 
most near-Earth asteroids.
    Mr. Rohrabacher. So I have been given the wrong 
information. Arecibo is not necessary. Are you all in 
concurrence with that, Arecibo is not necessary for the 
tracking, to getting the right trajectory so we know if an 
object is going to hit the Earth or not?
    Dr. Moore. Sir, I would say that the techniques of optical 
and radar are complementary to one another. Each has strengths, 
each has weaknesses. I believe that if we had the Arecibo 
capability, it would strengthen our capabilities in this area. 
It is difficult to use words like essential or not useful at 
all. There is a gray zone in between. Arecibo could make a 
significant contribution. There are many of us in the planetary 
science community----
    Mr. Rohrabacher. Let me ask you this. Would it make you say 
a significant contribution and it makes any difference, but is 
it possible that you could have a near-Earth object that we 
find that is traced with our optics and that without the 
Arecibo we could make a mistake and that it could actually be 
something that could possibly hit the Earth, where otherwise 
with the Arecibo we would be able to know that it was going to 
hit the Earth?
    Dr. Moore. Well, speaking as a scientist, I don't think it 
would be responsible for me to say it is impossible, but I 
think it would be extremely unlikely. Keep in mind----
    Mr. Rohrabacher. By the way, it is also extremely unlikely 
that anything will ever hit the Earth period. We know that in 
our lifetime. But given something that is up there, how 
unlikely--you said it would only help us 10 percent or more?
    Dr. Moore. I can't assign a number for it. I would be happy 
to take that for the record and do an analysis, but I will tell 
you that we have other radar tools in our inventory.
    Mr. Rohrabacher. Okay.
    Dr. Moore. They are NASA assets. Arecibo, I remind you, is 
an NSF asset, and NSF chose not to fund it. It is not a NASA 
asset.
    Mr. Rohrabacher. Yes, what I have got----
    Dr. Moore. [inaudible] assets.
    Mr. Rohrabacher. NSF and NASA are both fighting who is 
going to get $5 million more in their budget, and other guy has 
to have--this is all, as far as I am concerned, it is all a 
bureaucratic budgeting and game-playing with turf just to save 
$5 million in their budget. But this is the first time, Mr. 
Chairman, that I have asked this question in which I have 
received the answer that Arecibo is not an essential element to 
tracking near-Earth objects. So I am glad you are on the record 
now because we will look into that, and frankly this is the 
first time. And I take it that everybody concurs with that 
except you have a little bit of a disagreement.
    Dr. Fisk. Can I at least decide whether I am going to 
concur or not here for a moment?
    Mr. Rohrabacher. Please, I ask----
    Dr. Fisk. I just remind you that in the last years, I 
believe it was in the Appropriations Act, there was a 
Congressionally-requested study of the National Academy on this 
issue that is to assess including the role of Arecibo in this 
problem; and the Academy is currently forming a committee as 
requested with NASA sponsorship to give you that kind of an 
answer on all aspects of this thing. I think that will provide 
you with all the information that you need.
    Mr. Rohrabacher. That is very good. And when is that due?
    Dr. Fisk. Help me out. Late 2009. That is an Academy----
    Mr. Rohrabacher. Well, by then Arecibo will be closed up, 
and that doesn't sound like it is going to help us at all.
    Mr. Chairman, we have got some decisions to make, and I am 
going to be looking directly into it. And I thank you for that. 
You are the first person--we have been discussing this for two 
years, and you are the first person who stepped forward and 
said no, Arecibo isn't really that essential.
    Chairman Udall. I thank the gentleman from California for 
his passion and for his interest in this, and as he and I have 
discussed we are, and as the Ranking Member also has been 
involved, we are on track to reauthorize NASA in the next 
couple of months, hopefully. I guess it is the next three or 
four months, but this will certainly be a part of the 
discussions that we have as we move towards the reauthorization 
act. So I thank the gentleman.

           The Budget Request and Mars Sample Return Mission

    The Chair will now recognize himself for an additional five 
minutes. We will have another round if that is acceptable. Dr. 
Stern, let me move back to the budget request again, 
particularly the reduction of the programmatic content of the 
Mars portion of the budget by $918 million from fiscal year 
2009 to fiscal year 2012. At the same time the proposal 
includes a maintenance of the sequence of planned Mars missions 
and adding an ambitious Mars Sample Return mission for launch 
in 2018 which you heard about earlier. Various expert groups 
chartered or convened by NASA have analyzed the budget plan and 
have expressed their views that the fiscal year 2009 budget 
assumed budgets beyond fiscal year 2013 will not support the 
Mars program that NASA has outlined.
    Let me ask you about some specific areas of concern with 
respect to the proposed Mars Sample Return mission. I 
understand that it is typically a good program management 
practice to spend some four to six percent of the overall 
mission cost on developing required new technologies for a 
mission before actually embarking on the project. For a Mars 
Sample Return mission, that is expected to cost on the order of 
$5 billion. Four to six percent with suggested several hundreds 
of millions of dollars is needed for early technology risk 
reduction. Can you tell me how you arrived at the low figure of 
only $68 million over the next five years for the Mars Sample 
Return technology risk reduction? Can you cite any other 
successful NASA science missions that spent such a low 
percentage on technology risk reduction without incurring cost 
growth and schedule delays?
    Next, serious concerns have been expressed that both the 
funding profile and the total budget for NASA's Mars Sample 
Return mission are unrealistic and that an attempt to proceed 
with MSR's envisage will lead to the need to cancel other Mars 
missions and ultimately to slip the schedule and increase the 
cost estimate for MSR. How do you respond? And then Dr. 
Squyres, we will put you in the queue and would like you to 
respond to Dr. Stern's comments when he is finished. So we will 
start with Dr. Stern.
    Dr. Stern. Thank you, Mr. Chairman. That is a hefty topic. 
I need to take a few minutes to lay out that full picture for 
you because the topic is deserving of it.
    We have an exciting Mars program, and I want to deconstruct 
for just a moment the claim that our Mars program is not 
executable. We actually asked the Mars experts, and I hope Dr. 
Squyres will weigh in on this, and you say, well, we have the 
Mars Science Lab, the Aeronomy mission that Dr. Squyres spoke 
of, to-be-named mission in 2016, and then the Mars Sample 
Return. Which of those do you have a problem with when you say 
the program as a whole is not executable? And when pressed, 
Mars Science Lab is generally deemed by experts to be 
executable. I think people believe that we can to the Aeronomy 
mission on the roughly half-billion-dollar budget set-aside for 
it. It is really not possible to say that the 2016 is not 
doable on the $880 million budget set-aside because the mission 
has not yet been scoped. We have asked the science community to 
tell us what they want to do in that budget, and until they 
come back to us, there is nothing to argue about. We are 
looking for that guidance.
    Now, with regard to your specific question about MSR, keep 
in mind that it was only in May of last year as we were 
formulating the budget that I elected that we actually take a 
stand, put a stake in the ground, and use Mars Sample Return as 
a central organizing theme for our Mars program going forward. 
Now, every Mars report of late, the Jakosky report to the 
National Academy last summer on astrobiology, the MEPAG reports 
and our advisory panels, et cetera, put Mars Sample Return at 
the top. We are not putting it at the top of our priorities. We 
can't execute that mission until approximately 2020 because our 
European partners who are interested in collaborating at about 
40 percent of the total cost have commitments of their own and 
cannot themselves ramp their budget until the middle of the 
next decade.
    So while we are executing MSL, the Aeronomy mission, and 
the 2016, we cannot be building up the MSR budget because we 
would be ahead of our partners and the phasing wouldn't work. 
Now, we put $68 million in this budget, and the purpose of the 
$68 million is not to do all of the technology development for 
MSR. To the contrary, this is our money for doing the 
architectural studies that we will be doing in the next couple 
of years to determine exactly what MSR consists of and which 
technologies need to be developed as well as some early lead 
technologies that we are making an initial commitment to.
    Now, it is up to the Mars community. We have told them, if 
you want a smaller mission 2016 and a steeper ramp to MSR, that 
$880 million is out there and it can be used for both purposes. 
And so we can address just the five percent sort of number for 
technology development, for advanced development for MSR if the 
community comes back with a mission that is properly scoped for 
2016. If, on the other hand, the community asks to use the 
entire $880 million for science mission in 2016, then MSR is 
necessarily going to have to wait on its technology development 
to a later date. But that is a decision for the scientific 
community to make.
    Chairman Udall. Dr. Squyres, would you care to respond and 
provide your perspective? And I would ask the Committee's 
indulgence. I think this is an important enough question that I 
will go over my time a bit and make sure we get for the record 
your point of view.
    Dr. Squyres. Yes, sir, I would be glad to. I agree 
wholeheartedly with Dr. Stern that a Mars program that 
consisted of the Aeronomy mission in 2013 for a cost of $550 
million I believe it is, another Mars mission in 2016 at $880 
million which is a hefty sum, followed briskly by Mars Sample 
Return would be an exciting program; and I think you would find 
that many of us in the Mars community certainly speaking for 
myself, I would stand solidly behind such a program. As Dr. 
Stern pointed out, and I agree, the money that is in the 
President's budget request for fiscal year 2009 fully supports 
that 2013 mission and that 2016 mission, and we can do great 
things with those two missions. The problem simply stated is 
that the $68 million that is available in the next five years 
to do studies and preparation for Mars Sample Return is not 
adequate in that timeframe to support, in the judgment of 
myself and many members of the community who look at this very 
hard, a sample return mission in the 2018 and 2020 timeframe.
    So a consequence of the budget as it has been submitted, 
there are two possible outcomes. It is really very simple. One 
possible outcome is that we do the 2013 mission, we do the 2016 
mission, we do great science, and Mars Sample Return simply 
moves downstream; and I don't think what I just said was too 
much at odds with what Dr. Stern just said.
    The other possibility is if you choose to anchor in 2018 
and 2020 the sample return mission, then the money that you 
need to spend to get ready for those missions in that 
timeframe, which you correctly state is in the realm of 
hundreds of millions of dollars, has to be taken out of the 
Mars program and that means you are not going to be able to do 
the 2013, 2016 missions.
    So I think it is an either/or proposition if we are faced 
with the very large cuts to the Mars program that the current 
budget entails. If, however, the money that we are provided for 
Mars exploration were put back to the levels that we have 
enjoyed over the last several years, I believe that it would be 
possible to carry out in full the program that many of us in 
the community would like to see and that Dr. Stern I am sure 
would like to see as well. And that would be the 2013 mission, 
the 2016 mission; and in that same timeframe, do the advanced 
technology development necessary so that you could actually do 
sample return which remains a very high priority for the Mars 
community in 2018 and 2020. I hope that addressed your 
question.
    Chairman Udall. Thank you, Dr. Squyres, and I might, before 
I recognize Ranking Member Mr. Feeney, tell the audience and 
tell the rest of the Committee that when we end the hearing, 
and I think we will have another round depending upon people's 
time schedules, you are going to finish the hearing with some 
recent images from the Mars rovers.
    Dr. Squyres. I would enjoy doing that.
    Chairman Udall. I know I am very much looking forward to 
doing that. I just wanted everybody to know here to stay 
because at the end of this, we will end with a bang here today. 
The Chair recognizes Mr. Feeney for five minutes.

                           The NPOESS Program

    Mr. Feeney. Do our technical budget questions stand in 
between the audience and exciting video slots? Okay. Well, I 
will make my questions penetrating then. The NPOESS program has 
had significant problems over time, budgetary and meeting its 
goals. That led to the Nunn-McCurdy review, and ultimately that 
meant that a number of climate sensors were dropped from the 
satellite in order to limit cost growth. The program was also 
re-baselined at that point. Is NPOESS meeting its revised 
schedule and its cost milestones and what are the largest 
threats and challenges we have? Dr. Stern, why don't we start 
with you and anybody else that wants to weigh in on that.
    Dr. Stern. Yes, sir, very briefly. After the restructuring, 
the mission has been doing much better. It is a very ambitious 
undertaking, and simply put, we have a long way to go. It is 
still early days in the development of both the payload and the 
spacecraft. So while I think it is doing considerably better, 
we have to be ever vigilant.
    Mr. Feeney. Does anybody else--Dr. Moore, please.
    Dr. Moore. I think the program has had many problems, and 
one of the problems has been a technology hurdle associated 
with the imager referred to as VIIRS. It appears that those 
problems are not yet behind us and that perhaps for some of the 
geophysical variables like ocean color, we are not going to be 
able to achieve the requirement. I think the question that 
really stands before us is that each time we believe that we 
have the instrument, shall we say, we are over the worst 
hurdles, a new hurdle appears. And so I think it is just the 
concern with the past performance that we have constantly 
stumbled, even though we thought we were near the end on this 
particular instrument. I agree with Alan that I think that we 
are beginning to see, and not to use an old phrase, the light 
at the end of the tunnel and hopefully it is not the train 
coming towards us.

                            Workforce Issues

    Mr. Feeney. And when we are talking about lights at the end 
of tunnels and we are looking into space, those are light years 
away sometimes. We don't know how long those--tunnels are 
finite. You are on the planet.
    Dr. Fisk, you raised the issue that is a concern to a lot 
of us on a lot of fronts at NASA and that is the workforce 
issue. It is something that I think all of us are focused on. 
It is not necessarily a specific budgetary issue, but you are 
the one that raised it in your talk, and I was interested given 
again the parameters we have with the likely budget outcome if 
you think that there are things we can do differently to excite 
future science and math scholars through our science program or 
for that matter through the space flight program. If you think 
that there are different things that NASA can be doing because 
it serves a twofold purpose in my view. Number one, we get kids 
focused on the subjects that they need to master for us to be a 
preeminent space society, and that is math and science, which 
also has a lot of import in other areas for our economy and 
strategic and military capabilities; but it also conceivably 
would help generate the sort of support that we are all looking 
for in the public for NASA's missions. So maybe we can get the 
$800 million to advance the Mars program and maybe we can 
shorten the gap in the human flight. So it is a dual purpose if 
we can find a way to do it. NASA does, by the way, of all the 
agencies, they get more hits from school websites, they get 
more interest from teachers in the science field. So Dr. Fisk, 
why don't you start and if anybody else has any thought about 
what we can do within existing parameters to get that 
excitement started.
    Dr. Fisk. I think I have always thought of this problem in 
sort of two different ways. There is the question of 
encouraging people to go into science and math in general, 
engineering sciences as well, and there, you know, just simply 
the excitement of space and making that available to the school 
system is obviously an extremely positive thing and it 
encourages people to go into the fields. But it isn't the 
problem. There is a separate problem which was once you have 
encouraged them to go into math and science in general, do they 
want to go into space? And that is a second problem because 
that problem comes up at the university level. You know, you 
have encouraged people to go off and get training and 
engineering degrees, undergraduate degrees, and so on; and then 
they have a whole series of options available to them which are 
in the best interests of the Nation, whether they are, you 
know, nanotechnology, various kinds of sensor technologies, any 
number of things. And the question is, you know, should they go 
and will the best and the brightest go into the space business. 
That problem is actually not that difficult to solve in my 
judgment because what happens is, you know, I think all our 
experiences, Jack Burns at the end, and all of us, Steve, that 
are in universities, have discovered that when you engage 
students as undergraduates in technical fields in participating 
in some aspects of space, research projects, hands-on 
experience and so forth, they inevitably want to go into the 
space business. And they are encouraged to do so, they see the 
excitement first-hand, and the converse is also true when you 
don't, the lures of all the other disciplines.
    So the Nation can decide. If we need people in these 
fields, we have so many challenging activities coming up in 
space. We have challenging activities and our workforce is 
starting to get old in the space business, and as a result, you 
know, we need to vet these people in. They need to be the best 
the Nation can offer, and there is a very simple process that 
you can do that, engaging the universities because at this 
point, they have decided to go into the field, that happened 
earlier, and now the question is the yield factor for space. 
Thank you.
    Dr. Moore. To turn the problem slightly differently, I 
think in your discussions that we had earlier about ITAR, this 
is an area where not only for the university community, but for 
the NASA centers, a fresh vision would be very helpful. I know 
that it is a burdensome aspect for JPL as well as for Goddard 
and other NASA centers. There are certain very real reasons for 
ITAR, but I think that they could be scaled back and that would 
directly address what you have raised.
    Dr. Squyres. I just wanted to comment that I think that a 
lot of what we do in the space science program has enormous 
potential to inspire young students to go into careers in math 
and science, not just in space, but in math and science 
overall; and I think we need to work very hard to find creative 
ways to engage those students in ways that are going to be 
captivating for them. I recently had a fascinating experience. 
I gave a talk to 20,000 young middle school and high school 
students, mostly from underprivileged school districts in 
Detroit. I did it at Ford Field where the Detroit Lions played. 
I was lined up on the 10-yard line between the hash marks with 
the end zone filled with middle school students and showing 
pictures that had come down from Mars four hours before on the 
jumbotron screen. They were captivated. They get turned on by 
this, and if we can take what we do and the passion that we all 
feel for what we do in space and if we can find creative ways 
to reach those people, it is an enormous resource out there, 
there really is.
    Dr. Burns. I agree very much with my colleagues on this 
topic, but let me add one other nuance here, an issue that we 
face, and that is that the timetables today are getting to be 
so long for these space missions, a decade or more, that it is 
difficult to attract students into these programs because the 
timetable for building these instruments is well beyond the 
typical tenure of a student, either undergraduate or graduate 
level. And so they don't have a chance to fly these missions, 
if you will, while they are in school. So we have a problem 
that is making it difficult to attract new instrumentalists who 
build the next generation of spacecraft sensors or imagers, and 
it is something that we need to face. I think Dr. Stern is 
helping by reimplementing--we almost drove the balloon and the 
rocket program out of existence, and so this is very helpful in 
that regard but we really need to do much more.
    Chairman Udall. I would like to thank the panel for some 
really important insights into this crucial area of how do we 
recruit young people into these important fields and then how 
do we retain them and give them a sense that this is very 
worthwhile.
    The Chair recognizes again the gentleman from California 
for five minutes.

                  Education, Asteroids and Exoplanets

    Mr. Rohrabacher. I would just note that unless our children 
have a good foundation in science and mathematics, that we are 
not going to be able to recruit them later on. And let me just 
note that of all the hearings that I had, especially yesterday 
with Bill Gates, it is very clear that there is such a 
hesitation to confront the political problem of permitting 
science and mathematics teachers to receive more pay than the 
teachers of other subjects. And pay differential is the 
fundamental issue that is either going to make us successful in 
giving these fundamental skills or not because you have got 
dozens of people that want to teach English literature and 
history, and frankly for every one person that you can maybe 
attract to teach science and mathematics, and the science and 
mathematics people can make lot more money doing something else 
other than teaching. So we need to pay them more money. There 
was a movie called, and I remember they said--it was about 
baseball, ``Build it and they will come.'' Well, pay more money 
and they will come. And unfortunately there is a major 
political impasse in that certain political people have relied 
on unions and the educational unions which would rather hold 
America back than give up the right to have every teacher in 
every subject just be paid exactly the same amount of money. 
That is the fundamental problem we face there.
    It was also mentioned that someone is seeing the light at 
the end of the tunnel. I hope when they are looking through a 
telescope the light at the end of the tunnel isn't a near-Earth 
object headed in our direction. And I think some day it will 
be, and I understand there have been near-Earth objects--you 
know, they come so infrequently but there happens to have been 
one just a short while ago that came between the Earth and the 
Moon, that close. We didn't even know it was there until after 
it had gone by. And I think that it is worth our while to be 
able to look out, and by the way, that is also something that--
we actually passed legislation. It gives awards to young people 
who, if they look into the sky and discover some near-Earth 
object, we give them an award, I think the Pete Conrad Award. I 
authored the bill that permits this and gives this award every 
year to a young person that discovers some object. So that is a 
good way of getting young people involved as well.
    Let me ask, it was mentioned earlier and I believe it was 
you that was talking about the discovery of planet, outer 
planets or something that NASA is doing?
    Dr. Burns. Congressman Rohrabacher, I think exoplanets is 
what you were referring to----
    Mr. Rohrabacher. Yes.
    Dr. Burns.--around other star systems?
    Mr. Rohrabacher. Yes, how much are we spending discovering 
these extra planets?
    Dr. Burns. Well, I would have to turn to Dr. Stern because 
I don't know those numbers off the top of my head, but we have 
got a new mission which is going to be launched next year 
called Kepler that is going to be dedicated to looking for new 
stars. Right now based on ground-based observations, over 250 
planets are known to now exist around other star systems.
    Mr. Rohrabacher. The question that I need to answer here is 
why are we willing to--this is obviously an expensive 
proposition. Why are we willing to launch a new program that is 
going to cost money to find out about planets from distant 
stars when we are not willing to spend even more than $3 
million a year trying to find near-Earth objects that may or 
may not hit the Earth and kill millions of people?
    Dr. Stern. I think that is for me. Let me say that in 
executing our exoplanets program, we are following the 
recommendations of the National Academy. It is a very exciting 
program. We have a number of spacecraft that we are turning to 
that task, and we are building Kepler----
    Mr. Rohrabacher. How much is that going to cost?
    Dr. Stern.--and looking forward to future programs.
    Mr. Rohrabacher. How much will that cost?
    Dr. Stern. Those missions are typically in the Kepler cost 
class, and they are $600, $800 million.
    Chairman Udall. Mr. Chairman, let us just note, $600, $800 
million and we are quibbling over whether or not we are going 
to really have a program that can really take care of charting 
all of the near-Earth objects in a very quick time just to see 
if one of them might hit the Earth and quibbling over a $5 
million telescope which may, and I am going to look into this, 
which may or may not play an essential role. If it doesn't play 
an essential role, I am going to take that back and I will call 
my friends at Cornell and tell them I got the wrong 
information. I do seem to remember, Mr. Chairman, the last time 
we held a hearing, all of the witnesses told us how vital this 
telescope was but to spend hundreds of millions of dollars to 
find a planet and distant stars and not be willing to----
    Dr. Stern. Mr. Rohrabacher, if I may----
    Mr. Rohrabacher. Sure.
    Dr. Stern.--I would like to tell you about our NEO program 
because it is an exciting program as well.
    Mr. Rohrabacher. It is a $3 million program, is it not?
    Dr. Stern. It is commonly referred to as the $3 million 
program. In fact, because we were lagging in our goal that the 
Congress set to finish by the end of 2008 projecting 90 percent 
of all the kilometer class potentially hazardous objects near 
the Earth, I actually took some of my discretionary funds and 
helped that program along this year. So it is actually being 
funded at a little bit higher level than that. But I also want 
to point out, that is not the only way that we study near-Earth 
asteroids. We have programs in fundamental research in our 
planetary science division. We have flown a mission to orbit 
and then land on a near-Earth asteroid----
    Mr. Rohrabacher. I was there when they did.
    Dr. Stern.--called NEAR. You are probably familiar with 
that mission.
    Mr. Rohrabacher. Right.
    Dr. Stern. I think its cost level was several hundred 
million dollars. I think it was about $250 million. We have a 
mission on its way, although not to a near-Earth asteroid, to 
orbit two of the largest asteroids in the asteroid belt. We 
have a whole variety of programs that address the nature of 
asteroids, their composition, their structure. This all helps 
inform us about the near-Earth asteroid problem in one way or 
another, and we are doing the program that the Congress asked 
us to do and I expect us to meet that goal by the end of 2008.
    Mr. Rohrabacher. Very good answer. Thank you.
    Chairman Udall. I thank the gentleman from California. I 
want to recognize the gentleman from Florida for a comment.
    Mr. Feeney. Yes, I will be brief and I know the Chairman 
has some questions but I will be done for the day after this. I 
have a bit of an interest in the near-Earth object issue as 
well. I would note a couple things. Number one, some scientists 
believe 64 million years or so ago dinosaurs and other entities 
went extinct around the planet because of a near-Earth object 
actually colliding. We actually had a big one I think in 1908 
in Siberia that would have been catastrophic. So these things 
do occur, and I think Congressman Rohrabacher's concerns are 
genuine. I would point out that I think if I remember the 
testimony right, something like 99 percent of the resources 
spent on detecting near-Earth objects are American resources. 
It would seem to me like other space-faring nations and 
scientific nations, this is one where it is not a zero-sum 
game. We are sort of all in it together, and I think this is 
one that begs for international cooperation. And then finally I 
would suggest, and I am sorry that Dana is not here to hear it, 
but you know, sometimes we give these warnings and we get to 
later say I told you so; but it is going to be hard to hold 
anybody responsible if we get hit by one of these things, the 
human race goes extinct. It is just going to be tough to hold 
any agency specifically. So one of the problems that he has is 
there may be more immediate concerns from folks that have to 
allocate resources.
    With that, Mr. Chairman, we don't get to see slide shows in 
the Financial Services Committee, so I am going to give up my 
questioning time and----
    Chairman Udall. I know the Ranking Member and I will do 
everything possible to hold a hearing if that day does arrive.

                  Aviation Emissions and Earth Science

    Dr. Stern, if I might, I am going to take a few more 
minutes and then we will end with some inspirational images 
from Mars, from the red planet. And you may want to direct this 
to Dr. Freilich I know who is here. What if any research are 
you doing in the Earth science and applications program to 
better understand the impact of aviation on climate and how it 
might be mitigated? Do you think NASA should be doing research 
in this area if it is not already, given the potential for 
regulatory actions to penalize aviation emissions down the 
road? And then Dr. Moore, you may want to comment once the NASA 
team has had a chance to comment.
    Dr. Stern. Yes, sir, well, I think if you would like a full 
answer on it now rather than taking it for the record, I would 
invite Dr. Freilich to the microphone and he can give a better 
answer than I could, if that is acceptable.
    Chairman Udall. Please.
    Dr. Stern. Mike?
    Dr. Freilich. We will take it for the record and give you a 
complete answer. I can say that there are several aspects of 
aviation and applications and science that are covered in our 
programs. In the science programs, our fleet of satellites 
measure atmospheric compositions and measure cloud and aerosol 
properties. Some of these clouds and aerosols are the result of 
aviation exhaust if you will or whatever, a result of aviation. 
It is fairly prevalent. Actually, when there was little 
aircraft flights over the United States right after the tragedy 
of 9/11, it gave us a remarkably clean view from our flying 
satellites of the situation without aircraft that could be 
compared to the normal situation with aircraft. And I will get 
you in more detail the specific studies that are going on right 
now. We are also in the applications program conducting a 
number of studies with the Federal Aviation Administration and 
NOAA to improve aviation and its interactions with the 
environment, in particular, the effects of icing on aircraft 
and predictions of that to better route aircraft and to improve 
the overall air traffic system.
    Chairman Udall. Thank you, and Dr. Moore, please comment.
    Dr. Moore. It seems clear to me that certainly in the 
aeronautics program, looking at aircraft efficiency and in 
particular the issue of carbon emissions is going to be a great 
opportunity. In some of these, we ought to recognize these 
green issues. Well, the color of money is green, and in terms 
of being competitive, we should think about can we improve the 
U.S. aircraft fleet so that on carbon emissions it has lower 
carbon emissions per traffic mile, per passenger mile. And that 
is going to be particularly important as we look to the era of 
cap and trade on carbon emissions or carbon tax. These will 
become very real economic benefits for the country if we can 
make the kind of engineering progress that I think that would 
be natural for an aeronautics program to focus upon.
    Chairman Udall. Those are excellent insights, and I agree, 
with the right leadership and the right incentives, in some 
cases the right regulatory structure, I am betting on our 
entrepreneurs, on our capital flows, on our technology; and it 
is one of the shortest but one of the most powerful sounds 
bites around. There is green in green, so I appreciate your 
pointing that out to all of us. We want to sell this technology 
all over the world.

                            Images From Mars

    Thanks again to the panel. Dr. Squyres, do you want to end 
with some inspirational, exciting----
    Dr. Squyres. Yes, sir, I would enjoy that very much. I 
always like showing off the latest pictures from Mars.
    Chairman Udall. If we can bring the lights down----
    Dr. Squyres. Yeah, that would be great.
    Chairman Udall.--and make it even more exciting.
    Dr. Squyres. Today is day 1,491 of our 90-day mission to 
Mars. Both Spirit and Opportunity rovers are continuing to do 
extraordinarily well, doing great science; and moreover, they 
are part of an armada of spacecraft from NASA and also European 
spacecraft that are at Mars right now and daily sending back 
new data.
    I have just brought a few pictures for you.
    [Slide.]
    This is a recent picture from the rover Opportunity. 
Opportunity landed about six kilometers, about four miles, to 
the north of where this picture was taken, over a period of 
years drove to a spectacular impact crater called Victoria 
Crater. It is 800 meters in diameter, it is about 70 meters 
deep, it is a spectacular window into the subsurface of Mars. 
As we speak, Opportunity is down inside Victoria Crater, going 
down into the rocks exploring and sort of taking a trip back in 
time as we look at the rocks exposed there. One of the reasons 
that I chose this particular image is if you look off in the 
distance sort of on the far horizon, you will see a large cliff 
there. That is about 25, 30 feet high. That is a place that we 
have named Cape Verde, and after we finished doing the geology 
that we are doing at this particular location, we are going to 
try to get as close as we can to that and take what should be 
some absolutely stunning images of it.
    [Slide.]
    This picture came down from the Spirit rover less than 24 
hours ago, so this was happening on Mars yesterday. Spirit is 
in a place called Home Plate investigating some rocks 
immediately in front of the rover you can see the rover's arm 
reaching out and making measurements. This particular rock 
outcrop is one that we have named Wendell Pruitt. Wendell 
Pruitt was one of the members of the Tuskegee Airmen. We have 
chosen the Tuskegee Airmen to name rocks in this particular 
area. He was one of the first great African-American fighter 
pilots.
    [Slide.]
    Here is a picture of Wendell Pruitt the rock. This was 
taken with our microscopic imager just a day or so ago. I will 
not attempt to analyze that image. I just saw it for the first 
time yesterday, but stuff is happening on Mars. I also wanted 
to show you one more image, and this comes not from the rovers 
but from one of that armada of orbital spacecraft. Every now 
and then Mars will just surprise the heck out of us, and this 
was a wonderful one.
    [Slide.]
    What you are seeing here is an avalanche caught in the act 
of happening. This is a picture taken from a spacecraft called 
the Mars Reconnaissance Orbiter. It has a spectacular high 
resolution camera that can look down from orbit and see objects 
as small as a meter or so in size, and this is near the Martian 
north polar region on a very steep slope, and this is an 
avalanche roaring down a slope on Mars and we happened to catch 
it as we were flying overhead, just beautifully illustrates to 
me what a dynamic and interesting place Mars is. So we continue 
to do the best science that we can, and we appreciate your 
support.
    Mr. Feeney. Those are terrific pictures. Mr. Chairman, you 
know, to a Floridian, they look a lot like parts of Colorado.
    Chairman Udall. Thanks again to the panel. Dr. Stern, thank 
you, Dr. Fisk, Dr. Moore, Dr. Squyres, Dr. Burns, another 
inspirational panel. Thank you for your commitment to this 
very, very important part of our future. I look forward to 
having you back, and thanks again for your time.
    [Whereupon, at 4:04 p.m., the Subcommittee was adjourned.]

                               Appendix:

                              ----------                              


                   Answers to Post-Hearing Questions
Responses by S. Alan Stern, Associate Administrator, Science Mission 
        Directorate, National Aeronautics and Space Administration 
        (NASA)

Questions submitted by Chairman Bart Gordon

Q1.  A presentation at a recent National Research Council Space Studies 
Board meeting noted that ``There has been a major shift to supporting 
mission-enabling technology development only within lines of individual 
missions after their new start. This increases the likelihood of having 
major cost overruns within the missions themselves''.

        a.  What is your response to this argument, especially given 
        programmatic cuts to technology development lines in the 
        Science Mission Directorate budget?

        b.  What is your strategy for ensuring technology development 
        to support the multiple new science initiatives proposed in the 
        FY 2009 budget?

A1a, 1b. NASA does not agree with the assessment that there is 
increased likelihood that missions will have major cost overruns if 
they undertake their own technology development. The SSB presentation 
and mention of ``cuts to technology development lines'' are clearly 
referring to the demise of the New Millennium program. That 
responsibility is being transferred, not abandoned. Moreover, the data 
showed that the technology developed in NMP was largely not being 
utilized on subsequent missions. JWST is an example of a project 
achieving its own tech development. We also note that our projected 
technology development in the R&A program is increasing, not 
decreasing.
    While funding for long-range, low technology readiness level (TRL) 
development has declined in recent years, NASA's technology programs 
have become more tightly focused on delivering critical technologies 
for its future missions. NASA has been able to maintain an adequate 
level of basic Research and Development within its present level of 
funding. NASA's research and technology development programs have the 
funds necessary to support the missions that the President has asked us 
to do. NASA research and technology activities primarily exist in both 
the Exploration Systems Mission Directorate (ESMD) and the Science 
Mission Directorate (SMD).
    Needed technology is identified via the NASA Science Plan 
development and Mission Concept Development Studies. The technology 
itself continues to be developed via Research and Analysis (R&A), Small 
Business Innovative Research (SBIR), and Innovative Partnership Program 
(IPP).

Q2.  There are concerns about the future loss of the Delta II launcher 
for medium-class missions and the rising cost of launch vehicles. Could 
you please describe in specific terms which launch vehicles will be 
used small and medium class missions that have not yet been assigned 
launch vehicles and that are planned for launch through 2014?

A2. NASA competitively procures launch services using the NASA Launch 
Services (NLS) contract. At the appropriate time in the mission life 
cycle, a Launch Services Task Order (LSTO) is initiated to solicit cost 
proposals from NLS suppliers for that specific mission.
    The following Small Class (SC) missions on the planning manifest 
through 2014 have not yet been assigned launch vehicles: NuSTAR, SMEX-
12, SMEX-13, and GPMC. Currently, two providers are available under NLS 
for Small Class services: Orbital Sciences Corporation with their 
Pegasus and Taurus launch vehicles; and SpaceX with their Falcon-1 
launch vehicle (in process of certification). As a result of the 
anticipated future loss of the Delta II vehicle, there are currently no 
unassigned Medium Class (MC) missions on the planning manifest through 
2014.
    All remaining unassigned missions are sized and budgeted for 
Intermediate Class (IC) launches.

Q2a.  What, if any, cost impacts does the current launch vehicle 
planning have for science missions and do the FY 2009 budgets reflect 
current estimated prices for launch vehicles?

A2a. The FY 2009 budget reflects estimated costs for launch services. 
The rising cost of launch services impacts NASA, as the increasing 
budget allocated to launch vehicles reduces funding available for 
scientific investigations.

Q2b.  Will the Atlas 5 or Delta 4 be used to launch two science 
payloads, and if so what is required to facilitate these ``piggyback'' 
launches?

A2b. NASA regularly examines the technical and economic feasibility of 
co-manifesting dual payloads, and has successfully demonstrated this 
approach as recently as 2006 with the CloudSat/CALIPSO missions 
launched on a single Delta II rocket. The primary constraint affecting 
the dual manifest approach is orbital destination, although readiness 
date of the payloads is also a major consideration. It should be noted 
that Dual Payload Adaptor Fittings (DPAF) designed specifically for the 
IC launch vehicles (Atlas V and Delta IV) do not currently exist, and 
must be designed and qualified in order to permit future co-manifested 
missions.

Q3a.  The Consolidated Appropriations, FY 2008 recognized the important 
contribution that the Arecibo Observatory makes to scientific research 
on space weather and global climate change, and to observations of 
near-Earth objects. The explanatory language accompanying the Act 
directs NASA ``to provide additional funding for the Arecibo 
Observatory.''

      What, if any, additional funds are provided for Arecibo in NASA's 
FY 2008 operating plan?

A3a. NASA has committed $538,110 of FY 2008 planetary science funding 
to researchers that are using the Arecibo radar facility for planetary 
science, including NEO characterization efforts. No NASA funds were 
provided for Arecibo facility operations in FY 2008; Arecibo is 
operated by an NSF-funded FFRDC.

Q3b.  Does the FY 2009 budget request include any support for Arecibo?

A3b. Over $500,000 of FY 2009 planetary science funding is planned to 
support researchers that are using the Arecibo radar facility. No NASA 
funds are planned to be allocated to Arecibo facility operations; 
Arecibo is operated by an NSF-funded FFRDC.

Q3c.  What is the status of NASA-NSF discussions on Arecibo?

A3c. NASA and NSF officials regularly discuss the status of Arecibo, as 
well as many other collaborative and cooperative efforts, as a routine 
and regular course of business between our agencies.

Q3d.  You testified that you spent some of your discretionary funds to 
help NASA's Near-Earth Objects program this year. How much 
discretionary funding was provided to the program? Was the funding for 
FY 2007 or FY 2008? And for what purposes is that funding being used?

A3d. An additional $1.7M was provided to the NEO observation program, 
for a total NEO budget of $5.1M in FY 2008. The additional funding was 
used to: (1) to fund one researcher using planetary radar to 
characterize NEOs; (2) to maintain operations and upgrade the Minor 
Planet Center for NEO detection and catalog efforts; (3) to begin NEO 
search operations using the Pan-STARRS-1 telescope starting this 
summer; and, (4) continue ongoing NEO search operations.

Q4.  Is the U.S. supply of plutonium adequate to support the new 
planetary missions proposed in the FY 2009 budget request?

A4. The DOE and NASA have worked closely together to assure that the 
missions identified in the FY 2009 budget request have adequate 
Plutonium (Pu-238). With the current Pu-238 inventory in the U.S. and 
planned procurements from Russia, the Agency will be able to conduct 
all missions requiring radioisotope power systems up to and including 
the currently planned Outer Planets Flagship mission.

Q4a.  Is NASA making any plans to acquire plutonium from Russia once 
the U.S. supply is depleted? If so, are you comfortable in becoming 
dependent on Russia for plutonium?

A4a. NASA is currently using the Department of Energy's contract with 
the Russians for the purchase of Pu-238. NASA is in the process of 
purchasing 10 kg of Pu-238 from Russia suppliers. Five kg will be 
purchased before the end of FY 2008 and five more in FY 2009 even 
though NASA will not use this supply for a number of years. By 
purchasing the Pu-238 as early as possible then NASA is comfortable 
with moving ahead with its plans for missions that will require Pu-238 
heat-conversion power systems.

Q4b.  Will NASA's plans for the exploration initiative require nuclear 
energy sources and if so, what is the plan for acquiring that 
plutonium?

A4b. NASA is evaluating the need for nuclear energy sources for the 
lunar surface. For example, NASA will likely need to place habitation 
modules, landers, and rovers on the lunar surface in locations where 
solar cells cannot produce continuous power. While NASA is still 
formulating its specific lunar architectural needs, NASA believes that 
Radioisotope Power Systems will provide an important power source for 
enabling mobility for human explorers on the lunar surface. The 
Administration is currently developing an approach to acquire the 
Plutonium 238 that may be needed to meet all agency needs after 2017. 
NASA's exploration technology development program also has a Fission 
Surface Power Systems project that is examining technologies that might 
enable the development of a nuclear fission reactor for potential use 
on the lunar surface. The fission surface power system project would 
utilize uranium, not pu-238, as the nuclear fuel.

Questions submitted by Chairman Mark Udall

Q1.  At the Full Committee hearing on NASA's FY 2009 budget request, 
Administrator Griffin testified that the Glory mission has exceeded 30 
percent cost growth, which requires Congress to reauthorize the mission 
under the NASA Authorization Act of 2005.

Q1a.  What went wrong with Glory and what steps is NASA taking to 
address the problems?

A1a. The Glory cost growth and schedule delay are primarily due to poor 
management and execution by the Aerosol Polarimetry Sensor (APS) 
instrument contractor, Raytheon Space and Airborne Systems, El Segundo, 
California. Approximately 20 percent of the cost growth is due to the 
spacecraft refurbishment work performed by Orbital Sciences, Dulles, 
Virginia. NASA is vigorously monitoring both contractors' performances.

Q1b.  How confident are you that the mission will be ready for launch 
in 2009, as currently planned?

A1b. The Glory mission has been approved for a June 2009 Launch 
Readiness Date (LRD), a three-month slip from the previous March 2009 
LRD. This new LRD will accommodate APS instrument delivery delays and 
includes a thorough assessment of the remaining APS development 
challenges. This new NASA-developed and NASA-approved plan does not 
rely on the APS contractor's assessments of its own performance; 
rather, it relies on NASA's own technical and programmatic assessment 
of the APS completion requirements and the contractor's capabilities, 
and is consistent with the contractor's performance over the past 12 
months.

Q1c.  Is NASA satisfied with the contractor management and performance 
on Glory's main instrument, the Aerosol Polarimetry Sensor (APS)? If 
not, what steps is NASA taking to improve contractor performance?

A1c. NASA is not satisfied with the contractor's performance, including 
poor planning and management execution, combined with the contractor's 
own burdensome institutional processes. Raytheon's decision to move its 
APS program to a new facility midway through development also 
contributed to the challenges of delivering the system within cost and 
schedule. NASA is vigorously monitoring the performance of the 
contractor, which has been inefficient, but consistent with the NASA-
developed milestone plan and schedule.

Q2.  NASA's NPOESS Preparatory Project (NPP) has been delayed due to 
contractor problems in developing the Visible Infrared Imager 
Radiometer suite (VIIRS) instrument.

Q2a.  What are the costs to NASA of this delay?

A2a. The new NPP approved launch date is June 2, 2010. The previously 
scheduled launch date was September 30, 2009. The additional cost to 
NASA associated with this eight-month delay is an average of $2.75M per 
month, or a total of $22.0M. This additional amount covers costs for 
the technical support workforce and infrastructure required to maintain 
instruments, equipment and facilities that must be available at launch, 
for the additional eight months.

Q2b.  Are you confident that the VIIRS instrument will be delivered on 
the schedule set to support the currently planned launch date of NPP?

A2b. VIIRS has been built and is undergoing testing to qualify for the 
NPP mission. In approving the present NPP launch date of June 2, 2010, 
the NASA DPMC and the EXCOM carefully evaluated the status of the 
instrument and recent test results. A number of top-level management 
actions, and enhanced monitoring, have been instituted to increase U.S. 
Government confidence in the approved VIIRS delivery and launch dates. 
The EXCOM meets approximately quarterly with high-level management from 
the VIIRS contractor. In additional, the EXCOM meets at quarterly 
intervals with the NPOESS Program Executive Officer (PEO), who has 
oversight of delivery of VIIRS on NPP. The EXCOM receives monthly 
status reports from the PEO. In January 2008, the EXCOM directed the 
PEO to meet biweekly with the leadership team of the VIIRS contractor 
to ensure that U.S. Government concerns are addressed. The PEO delivers 
a report on the outcome of those meetings to the EXCOM.

Q2c.  Given the delays for NPP, is the objective for risk reduction to 
NPOESS still viable?

A2c. NPP remains in part a risk reduction for NPOESS because the launch 
of the first NPOESS satellite has been delayed to January 2013. Lessons 
learned from NPP hardware development and ground processing activities 
will inform and refine approaches for NPOESS. NPP also has a distinct 
NASA science objective, to extend selected key climate time series 
initiated by the NASA EOS research missions.

Q2d.  What costs, if any, will NASA incur in adding the Clouds and 
Earth's Radiant Energy System instrument (CERES) to NPP?

A2d. In 2008 and 2009, NASA will refurbish the CERES Flight Model 5 
instrument, make small modifications to the NPP spacecraft to allow 
CERES to be accommodated, and integrate CERES with the NPP spacecraft 
and ground data system. These minor modifications can be undertaken 
without significantly impacting technical risk or schedule for NPP. The 
NASA cost for activities related to the CERES instrument is $17.7M, 
primarily for data production and product generation.

Q3.  During the hearing, you took the following question for the 
record: The FY09 budget request for NASA states that ``eight projects 
have exceeded Congressional thresholds on cost or schedule growth.'' 
This is an increase of five missions over the projects listed in the 
FY08 budget request. The eight projects include Herschel, Kepler, the 
NPOESS Preparatory Project (NPP), Glory, Orbiting Carbon Observatory, 
Aquarius, Gamma Ray Large-Area Space Telescope (GLAST), and the 
Stratospheric Observatory for Infrared Astronomy (SOFIA).

Q3a.  Given that the FY 2009 budget request includes several new 
initiatives estimated to cost $500M more, what specific steps is NASA 
taking to address the problems with the eight missions cited in the 
budget book and to ensure that any new initiatives do not exceed 
Congressional thresholds?

A3a. Three of the eight missions cited (Herschel, Aquarius, and NPP) 
involve challenges on the international or interagency partner's side, 
and while NASA is doing what it can, the Agency is dependent on partner 
performance. GLAST was launched on June 11, 2008. OCO is on track, with 
algorithm development in work to address instrument challenges. NASA is 
closely monitoring contractor performance on Kepler and is on track for 
a February 2009 launch readiness date. The contractor's performance on 
the main instrument for the Glory mission remains a concern, but now 
shows a steady rate of progress, which we have factored into our 
baseline cost and schedule. SOFIA now has the proper allocation of 
responsibilities and a phased development approach that allows early 
scientific research during the flight-testing phase.
    For new missions, NASA is taking a number of new steps to avoid or 
better manage cost problems if they occur, including:

        <bullet>  NASA has instituted a policy requiring new missions 
        to be budgeted at the ``70 percent confidence level,'' based on 
        independent cost analyses at the time of confirmation review 
        (approval to enter development), unless waived by the Associate 
        Administrator;

        <bullet>  NASA is requiring that all directed missions entering 
        Phase A undergo an internal Basis of Estimate review and 70 
        percent confidence level estimate to ensure realistic cost and 
        estimates at the start;

        <bullet>  NASA is providing more opportunities for scientists 
        to obtain space flight hardware development experience, via 
        enhanced suborbital payload development funding, and more 
        flight opportunities in our sounding rocket, balloon, and 
        research aircraft programs; and,

        <bullet>  when cost growth does threaten, NASA is ensuring that 
        de-scopes and the reduction of award fees be considered first 
        before turning to other sources for additional funds.

Q3b.  What, if any, margin is there in your budget request to handle 
any additional schedule and cost growth?

A3b. As mentioned above, NASA has recently established a policy of 
budgeting all missions entering Phase B (preliminary design) and Phase 
C/D (detailed design and development) at the 70 percent confidence 
level, unless waived by the Associate Administrator. That is, upon 
establishing an independent cost estimate and mapping likelihood of 
completion against the range of probable costs around that estimate, 
NASA establishes the project budget at the cost associated with a 70 
percent likelihood for success. This has proven a more successful way 
to estimate actual mission cost at completion than adding a percentage 
reserve level above a project cost estimate, which is what was done in 
the past.

Q3c.  P.L. 109-155, the NASA Authorization Act of 2005, is clear in 
stating how quickly notification of such threshold breaches is to be 
conveyed to the Congress. In particular, the person overseeing the 
program experiencing such increases or delays must notify the 
Administrator immediately and formalize such notification in writing no 
later than 30 days after the initial notification. In turn, not later 
than 15 days after receiving this written notification, the 
Administrator must transmit the notification received to NASA's 
authorization committees. Congressional committees received copies of 
the program notifications for projects such as Glory some four months 
late. Considering the explicit timelines in the legislation, what 
caused such a lengthy delay?

Q3d.  Furthermore the Act requires that not later than 30 days after 
receiving the program's written notification, the Administrator must 
determine if the program is likely to exceed development cost by 15 
percent or more or whether a milestone is likely to be delayed by six 
months or more. If the determination is affirmative, not later than 15 
days after making the determination, the Administrator must transmit to 
NASA's authorization committees a report including a description of the 
increase in cost or delay in schedule and actions taken or proposed to 
be taken. We still have not received your report. The Assistant 
Administrator for Legislative and Intergovernmental Affairs notified 
congressional committees that the mandated report would be submitted no 
later than March 2008. Even that would make it almost six months late. 
What is the reason for this significant delay?

A3c, 3d. First and foremost, NASA recognizes that the Agency's 
performance in meeting the reporting requirements outlined Section 103 
of the NASA Authorization Act of 2005 (P.L. 109-155) must improve, and 
the Agency is committed to responding to these requirements in a timely 
manner. NASA has had difficulty coordinating the process for developing 
the required reports with other budget cycle driven reporting 
requirements and requirements for similar reporting to the Office of 
Management and Budget (OMB). Consequently, NASA will be working with 
the Subcommittee staff to evaluate options for modifying Section 103 in 
order to provide a single reporting process with controlled frequency 
of updates, common data and formats to meet all requirements, and to 
serve both internal and external reporting needs. NASA has worked 
internally, and with OMB, over the past several months on the content 
and design of the reports to best meet the White House and 
Congressional requirements.
    NASA accepts that the reports outlined in Section 103 are required, 
and we are committed to providing them. At the same time, NASA would 
appreciate the opportunity to work with the Committees to streamline 
these reporting requirements, and allow for their coordination and 
synchronization with the existing requirements of the budget 
development and implementation cycle as well as OMB reporting 
requirements.
    Please note that NASA is committed to keeping the Congress informed 
of significant budget and schedule changes through multiple 
communications. While these communications do not substitute for the 
specific reporting requirements outlined in Section 103, it is a 
reflection of our commitment to keep the Congress informed. The 
specific communications are outlined below.

          2/5/07  NASA submitted to Congress the FY 2008 budget 
        justifications indicating that Hershel, Kepler and NPP had 
        exceeded costs by 15 percent and/or schedule by six months.

         3/15/07  As part of NASA's initial FY 2007 Operating Plan, the 
        Agency informed Congress of 15 percent budget increases for 
        Kepler, Glory and OCO.

        11/13/07  NASA notified the Congress that Glory, Kepler, OCO, 
        NPP, Aquarius and Herschel had exceeded costs by 15 percent 
        and/or schedule by six months.

          2/4/08  NASA submitted to Congress the FY 2009 budget 
        justification. This document includes detailed budget and 
        schedule information for each of the major programs as well as 
        a summary table indicating specific budget and schedule changes 
        for each program/project.

         2/11/08  NASA notified the Congress that the Agency planned to 
        submit the reports required by section 103(d)(1) and 103 
        (d)(2), for Glory, Hershel, Kepler, NPP, OCO, and Aquarius.

         3/20/08  NASA notified the Congress that GLAST and SOFIA are 
        reporting scheduled changes in excess of six months.

          5/1/08  NASA notified the Congress that development cost for 
        the Mars Science Laboratory had exceeded costs by more than 15 
        percent.

         5/30/08  As part of a FY 2008 Operating Plan update, the 
        Agency outlined plans to address cost growth for the Mars 
        Science Laboratory and Glory missions.

         7/17/08  NASA submitted to Congress the reports required by 
        section 103(d)(1) and 103 (d)(2), for Glory, Hershel, Kepler, 
        NPP, OCO, and Aquarius.

Q4.  During the hearing, you noted that NASA would take for the record 
the following question: What, if any, research are you doing in the 
Earth science and applications program to better understand the impact 
of aviation on climate and how it might be mitigated? Do you think NASA 
should be doing research in this area if it is not already, given the 
potential for regulatory actions to penalize aviation emissions down 
the road?

A4. NASA has a long history of studying the atmospheric effects of 
aviation. The former Office of Aeronautics conducted targeted programs 
in this area to deal with the impacts of both current and projected 
subsonic aircraft, as well as those of projected supersonic aircraft. 
These programs were implemented jointly with the former Office of 
Mission to Planet Earth. Following the end of those programs within the 
Office of Aeronautics in FY 2000, NASA's Earth Science Programs (now 
implemented through the Earth Science Division of the Science Mission 
Directorate) has continued to develop the large-scale models that can 
be used to assess global impacts of aviation when informed by estimates 
of aircraft emissions, and continued process studies of cloud formation 
that will increase our understanding of the relation between aircraft 
emissions and cloud distribution and properties. Such research involves 
both analysis of satellite and airborne data.
    NASA interacts with the Department of Transportation through the 
U.S. Climate Change Science Program to further coordinate these 
efforts. NASA's current budget supports the advancement of the science 
in these areas as part of an overall balanced portfolio of relevant 
environmental research as described in the NASA Science Plan and the 
U.S. Climate Change Science Program Strategic Plan. These studies are 
providing a broad scientific base for assessing the impacts of aviation 
as well as other important industrial sectors.

Q5.  What are the planned flight rates for Explorer, Discovery, New 
Frontiers and Mars Scout mission lines that are included in the FY 2009 
budget request?

A5. Nearly one Explorer launch per year is planned, as follows:

        <bullet>  April 2007: AIM

        <bullet>  July 2008: IBEX

        <bullet>  November 2009: WISE

        <bullet>  2011: NuSTAR

        <bullet>  2012 (planning date): Small Explorer (selection 
        pending)

        <bullet>  2013 (planning date): Small Explorer (selection 
        pending)

        <bullet>  2015 (planning date): Small Explorer (selection 
        pending)

    Approximately one Discovery launch every two years is planned, as 
follows:

        <bullet>  September 2007: Dawn

        <bullet>  February 2009: Kepler

        <bullet>  2011: GRAIL

        <bullet>  2014: Discovery 13 (selection TBD)

    Approximately one New Frontiers launch every five years is planned, 
as follows:

        <bullet>  January 2006: New Horizons

        <bullet>  August 2011: Juno

        <bullet>  2016: New Frontiers #3 (selection TBD)

    Mars Scout launches planned are:

        <bullet>  August 2007: Phoenix

        <bullet>  2013: Mars Scout 2

    The flight rates above are for complete missions, and exclude 
Missions of Opportunity, such as instruments selected to fly on non-
NASA spacecraft. Flight rates after the middle of the next decade will 
depend on budget levels beyond the FY 2009 budget horizon. Explorer 
missions are either Medium-class Explorers (MIDEX) or Small Explorers 
(SMEX). MIDEX missions are flight opportunities for focused science 
missions. SMEX missions are more highly focused and relatively 
inexpensive missions. The mix of MIDEX and SMEX opportunities within 
the Explorer program is determined based on science needs and funding 
availability.

Q6.  The European Space Agency and the Japanese Aerospace Exploration 
Agency are collaborating on an Earth observation satellite called 
EarthCARE, which will investigate clouds and aerosol interactions. One 
of the Earth science decadal survey missions, the aerosol-cloud-
ecosystem mission, ACE, would also look at these phenomena. In light of 
the constrained budgetary environment, is NASA exploring potential 
collaboration on EarthCARE and could such a mission satisfy the 
objectives of the ACE mission as recommended in the decadal survey?

A6. NASA will assess the roles that can be played by international 
partners, as part of the process of developing plans to move forward 
with Decadal Survey missions. These studies and assessments will also 
examine how we can best coordinate science if NASA and its 
international partners fly missions with related scientific goals and 
approaches. NASA senior management meets regularly with its 
counterparts from other space agencies, including ESA and JAXA, through 
the Committee on Earth Observation Satellites (CEOS) as well as in 
bilateral meetings, during which both overall cooperative approaches 
and specific opportunities for collaboration are discussed. The 
scientific and engineering teams that are currently being assembled to 
look at possible approaches for implementing the missions will examine 
the attributes of EarthCARE and ACE.

Q7.  What is the approach for technology development for the two Earth 
science missions that are planned for implementation in the FY 2009 
budget request? How do you plan to take technologies to the state of 
maturity required for flight, especially given programmatic cuts to 
Earth science technology? What fraction of the total project cost of 
each of the two missions do you plan to spend on technology 
development?

A7. The SMAP and ICESat-II missions were selected based in part on 
their technological readiness, in addition to their scientific priority 
and design maturity. For both SMAP and ICESat-II, fundamental 
technological risks have already been retired through earlier 
investments in the Earth Science Technology Program. The SMAP mission 
is based heavily on a previous Earth Science System Pathfinder 
mission--Hydros, which was developed through risk-reduction phases but 
was not flown. The critical radiometer technology for Hydros/SMAP 
benefits directly from the development of the NASA Aquarius project and 
is nearly mission-ready. Final development required to bring the SMAP-
specific technical implementation to flight readiness will be done 
within the flight program. To further support the mission, an 
Instrument Incubator Program technology development project to mitigate 
the effects of radio frequency interference has also been funded 
starting in FY08.
    For ICESat-II, the flight laser system development approach is 
based on the extensive lessons learned from the first ICESat mission 
and from other recent NASA laser activities, including the lidar 
currently flying successfully on the CALIPSO mission. The critical 
lessons from ICESat and CALIPSO and additional technology risk 
mitigation efforts funded through the Laser Risk Reduction Program have 
provided sufficient confidence to enable initiation of ICESat-II. As 
with SMAP, final technology development required to bring the ICESat-
II-specific technical implementation to flight readiness will be done 
within the flight program.
    For these first two Decadal Survey missions, therefore, previous 
technology development investments have allowed the remaining 
development issues to be classified more as engineering development 
than technology issues. In general, once the basic technology has been 
developed and matured within the Earth Science Technology Program 
through programs such as the Instrument Incubator Program and the 
Airborne Instrument Technology Program, further mission specific 
supporting development is funded and carried out within the flight 
project, thereby ensuring a direct link between the development and the 
needs of the specific flight mission.
    Owing to the high level of technological readiness of the SMAP and 
ICESat-II missions, it is expected that less than five percent of the 
combined mission total development costs will be required for 
technology development.

Q8.  Some of your Directorate's lunar research and planned mission 
activities are being done in conjunction with the Exploration Systems 
Mission Directorate (ESMD). The Lunar Reconnaissance Orbiter (LRO), for 
instance, will be managed by ESMD for one year and then transition to a 
science phase under your Directorate. ESMD is also providing funds to 
support the Lunar Advanced Science and Exploration Research program.

Q8a.  How are science and exploration objectives handled in developing 
these programs?

A8a. The principal objectives of the Lunar Reconnaissance Orbiter 
mission were conceived from the very beginning to support the safe and 
effective human return to the Moon, while providing significant 
benefits to science. ESMD recognized the importance of utilizing the 
knowledge and capabilities of the space science community to make the 
necessary measurements. Indeed, the Objectives and Requirements 
Definition Team that identified and prioritized those measurements was, 
to a large extent, composed of senior members of the planetary science 
community. Recognizing the Science Mission Directorate's (SMD) 
experience and successful track record of engaging the space science 
community, ESMD requested that SMD lead the Announcement of Opportunity 
process for the solicitation and review of proposals to build, operate, 
and analyze the data obtained from the instruments that would make the 
necessary measurements on LRO. Selection of the instruments was jointly 
made by ESMD and SMD. Based on its established track record of 
developing robotic, remote sensing spacecraft on an aggressive 
schedule, the Goddard Space Flight Center was chosen to develop LRO.
    While the principal focus of LRO is on achieving objectives that 
will enable the safe and effective human return to the Moon, it has 
always been recognized that the measurements made by the cadre of 
instruments would be of extraordinary value to the scientific 
community. ESMD is ensuring that the data from LRO will be made 
available to the scientific community by requiring that the data sets 
are archived in SMD's Planetary Data System. PDS is an internationally 
recognized repository and source of planetary (including lunar) data 
and provides for broad and timely dissemination of the data to the 
world-wide science community.
    LRO's exploration objectives are expected to be achieved during one 
year of nominal operations. However, the spacecraft and instruments are 
designed and configured to operate for up to three additional years. 
The continued time in lunar orbit following the achievement of the 
exploration objectives will be devoted to science and managed by SMD. 
SMD has already solicited and selected Participating Scientists for LRO 
that will aid the LRO Principal Investigators during the exploration 
phase of the mission and increase the science return during the science 
phase. ESMD fully expects that the data returned during science phase 
of LRO will provide additional information of significant value to 
exploration, just as the exploration phase provides value to science.
    Similar to their cooperation on the LRO project, ESMD and SOMD have 
jointly executed the Lunar Advanced Science and Exploration Research 
(LASER) effort in order to identify and support research that leverages 
the best that the science and exploration communities have to offer. 
For the proposals submitted to the first LASER announcement, more than 
20 percent of those in the selectable range would make strong 
contributions to both science and exploration, collectively. Many other 
proposals have a main emphasis on science or exploration, but would 
still add to the knowledge base of the other discipline.

Q8b.  What is the ESMD contribution to each of the scientific lunar 
activities?

A8b. ESMD is funding the exploration phase of the LRO mission at 
$491.0M, which does not include the Lunar Crater Observation and 
Sensing Satellite (LCROSS) payload co-manifested with LRO. Of the 
$491.0M, $26.4M represents a portion of the funds NASA recovered from 
Boeing in settlement of the EELV/19 Pack matter. ESMD is also providing 
almost $1.0M per year to support highly rated proposals in LASER, as 
well as $46.0M for the initial startup of SMD's International Lunar 
Network.

Q8c.  What unique data will LRO provide the science community that 
other lunar robotic spacecraft cannot, such as those being launched by 
other nations?

A8c. LRO's cameras will provide higher resolution (meter scale imaging) 
than any of the other cameras to orbit the Moon on robotic missions. 
The laser altimeter on board LRO will provide a significantly higher 
density of laser shots (5 shots at a time, 28 times per second) 
compared to the other altimeters flying or flown (typically, one laser 
shot a time, one or 10 times per second). This will enable the most 
accurate and precise topographic maps of the Moon ever created. 
Additionally, unlike other lunar robotic missions, LRO:

        <bullet>  has an infrared radiometer optimized for measuring 
        temperature in both the lit and permanently shadowed areas of 
        the Moon;

        <bullet>  has a collimated neutron detector to search for 
        evidence of putative water ice in permanently shadowed areas;

        <bullet>  will be able to geographically identify the location;

        <bullet>  has a radiation measurement instrument that can 
        determine how space radiation deposits energy in a tissue-like 
        material (tissue equivalent plastic) to aid in protecting 
        astronauts from the harmful effects of space radiation; and,

        <bullet>  has an ultraviolet imaging spectrometer that can 
        ``see in the dark'' by starlight and ultraviolet sky glow and 
        identify surface water frosts that may exist in the permanently 
        shadowed regions.

Q8d.  How will NASA ensure that the transition from ESMD to SMD for LRO 
will be as seamless as possible?

A8d. The Science Mission Directorate (SMD) has already selected 23 
Participating Scientists for supporting LRO and they are being 
incorporated into the ongoing activities of the LRO instrument teams 
and the overall Project Science Working Group, to aid the LRO PIs 
during the exploration phase, and to begin preparing for the LRO 
science phase. In addition, SMD detailed an experienced Program 
Executive (PE) and Program Scientist (PS) to assist in the management 
of LRO development and operations to ESMD. After gaining additional 
experience during the development and exploration operational phases of 
LRO, the PE and PS personnel will return to SMD to serve in that role 
for the science phase of LRO operations greatly facilitating a seamless 
transition of the mission. NASA's GSFC will continue to operate LRO 
throughout this transition.

Q8e.  How will the results of lunar science research be infused into 
exploration activities?

A8e. The data resulting from the science phase of LRO will be archived 
in the Planetary Data System along side the data from the exploration 
phase. The Exploration Systems Mission Directorate plans to draw data 
directly from the PDS to be used for the lunar mapping, modeling, and 
simulation activities it is developing to meet the needs of the 
Constellation Program development efforts.

Questions submitted by Representative Tom Feeney

James Webb Space Telescope

Q1.  The James Webb Space Telescope, scheduled for launch in 2013, is a 
high-risk, flagship mission. Earlier this decade it ran into serious 
and expensive technological challenges that forced NASA to de-scope the 
mission and delay its launch. How stable is the program today; is it 
staying within its schedule and budget profiles? Have all technological 
risks been retired?

A1. The James Webb Space Telescope (JWST) Project is stable, with its 
technology development complete, and the mission is on track to launch 
in June 2013. The JWST Project has remained on schedule and within its 
allocated budget since its 2006 replan. The top ten technology risks 
were retired in February 2007, when an independent review team 
confirmed that these technologies had achieved Technology Readiness 
Level 6 (engineering feasibility fully demonstrated). The international 
partner contributions from the European Space Agency (Near Infrared 
Spectrometer and Mid Infrared Instrument) have remained stable. 
Projections for the Canadian Space Agency delivery of the Fine Guidance 
Sensor have slipped seven months due to funding flow issues within the 
Canadian government and software development challenges; however these 
projected delays do not affect the expected mission launch readiness 
date.
    The JWST Project successfully passed its Preliminary Design Review 
on April 4, 2008, and proceeded with the Non-Advocate Review on April 
15-16, 2008. The NASA program confirmation process will continue with 
the Science Mission Directorate Program Management Council (PMC) Review 
and the Agency PMC (APMC) this summer. Once the APMC has approved the 
project, it will formally move into the development phase (Phase C).

SOFIA

Q2.  Your budget proposal indicates that the SOFIA program will begin 
performing its first science mission during fiscal year 2009. Could you 
describe the expected capabilities of the telescope and aircraft during 
those early flights, and does NASA intend to take up guest observers?

A2. The objective of the early science program is to initiate science 
observations as soon as it has been demonstrated that the aircraft can 
safely conduct open door flights, and that the observatory has 
developed the minimum capabilities necessary for meaningful science 
observations. By definition, this means that many of the SOFIA 
observatory's full capabilities will not be available for early science 
observations.
    During early science observations, SOFIA will be capable of 
obtaining scientific data with either of two instruments; a U.S. 
provided mid-infrared camera and a high resolution, far-infrared 
spectrometer provided by Germany. SOFIA will be capable of observing 
astronomical objects within the galaxy for exposures up to 30 minutes 
each, at altitudes up to 41,000 feet (above 99 percent of the 
atmosphere's obscuring water vapor), with pointing accuracy and 
stability better than 11 arc seconds, and with elevation ranges between 
20 and 60 degrees above the horizon. Only a minimal science crew will 
fly on the observatory during early science. The minimal crew may or 
may not include the guest observer; that will depend on the guest 
observer proposal selected through an open, competitive process.

Q3.  The FY 2009 budget proposal states that NASA will seek a foreign 
partner to help carry the operating costs of SOFIA. What are NASA's 
plans for partnering? Roughly what percentage of the annual operating 
costs is NASA hoping to share? Would ITAR be an issue?

A3. NASA is looking into the possibility of incorporating a new 
domestic or foreign partner to cost share during the operations phase, 
in addition to Germany's space agency DLR. NASA is considering making 
available up to 20 percent of the SOFIA observing time for a new 
partner in exchange for a proportional share of the operations costs. 
Most of the SOFIA program is not ITAR sensitive (the aircraft, for 
example, is regulated under the Department of Commerce export 
administration regulations). While certain elements of U.S. instruments 
are regulated under ITAR, a new international partner would not be 
operating U.S. instruments or need to have access to such ITAR 
information.

Explorer Program

Q4.  The Explorer Program is one of NASA's most successful 
investigator-led programs. When does NASA plan to issue its next 
announcement of opportunity for a MIDEX Explorer mission, and what will 
be the frequency of announcements for future MIDEX Explorer missions?

A4. The next Explorer Announcement of Opportunity (AO) is for two 
missions and is planned for issue in FY 2011. These missions are 
characterized as EX-1 and EX-2 since there is no assurance that a 
MIDEX-sized launcher will be available in that timeframe. The frequency 
of future MIDEX AO's is entirely dependent on availability of future 
funding and mid-sized launch vehicles.

Space Interferometry Mission

Q5.  Could you describe NASA's plans and schedule with respect to SIM, 
especially the proposed ``SIM-lite'' mission? Will it meet the original 
science objectives laid out in the Decadal Survey? How much will it 
cost, and when will it be ready for launch?

A5. Currently, the SIM project is charged by NASA Headquarters to re-
examine its science requirements and to recast the SIM mission in light 
of the current scientific and technical status within a lower cost 
mission, what the project has been calling ``SIM-Lite.''
    The SIM mission concept is mature in its science objectives, 
mission design, and costs. The same level of maturity is desired for 
SIM-Lite. The initial review of the science case, and the only in-depth 
review that was explicitly in competition with other opportunities, was 
performed by the 1990 National Research Council (NRC) Astronomy and 
Astrophysics Decadal Survey, which is now nearly 20 years old. The most 
recent external reviews of SIM were on technical performance and status 
rather than science performance requirements. Studies of reduced-cost/
reduced-performance SIM design concepts imply potential reductions in 
the science product and so must be evaluated by NASA.
    The activities the SIM project will perform in FY 2008 and FY 2009 
will focus on maturing the SIM-Lite mission concept in the areas of 
science, mission architecture, budget and schedule. The SIM-Lite 
science requirements will be evaluated with respect to the significant 
scientific developments now available since the 1990 NRC Astrophysics 
Decadal Survey. The evaluation will take into account the impact of 
developments in observational astrometry since 1990--including ESA's 
Hipparcos mission, the NASA/ESA Hubble Space Telescope, ESA's planned 
GAIA mission, and other missions with astrometric capability--as well 
as possible future moderate class astrometric missions currently in the 
concept stage. In addition, the science performance of SIM-Lite will be 
evaluated against the original science objectives laid out in the 1990 
NRC Astronomy and Astrophysics Decadal Survey and subsequent reports, 
such as the imminent Exoplanet Task Force report of the 
Congressionally-chartered Astronomy and Astrophysics Advisory 
Committee. The science performance of SIM-Lite will be developed by the 
project, assessed by an external group, and presented to NASA 
Headquarters by September 2008.
    A SIM-Lite mission architecture will be derived from the science 
case developed above. Design trade studies will be completed that will 
lead to the detailed point design for SIM-Lite that the project would 
like to have under consideration for implementation. Trade studies 
normally done during Phase B are to be completed no later than March 
2009 and presented to NASA Headquarters.
    By no later than March 2009, the SIM project will develop an 
optimized budget profile and schedule for moving the SIM-Lite concept 
into implementation, assuming the development Phase C/D would begin by 
the end of FY 2010. In parallel, beginning in the fall of 2008, an 
external Independent Cost Estimate (ICE), initiated by the Science 
Mission Directorate, would be performed on the SIM-Lite point design. 
It is expected to be completed by the spring of 2009. It is noted that 
the Astrophysics budget presently cannot accommodate the development of 
a new flagship-class mission prior to launch of the James Webb Space 
Telescope. However, NASA Headquarters is requesting this information to 
fully understand the SIM-Lite mission and what is required. Funding is 
projected in the FY 2009 President's Budget Request to develop a 
medium-class exoplanet mission for launch in the middle of the next 
decade, for which SIM-Lite may be a candidate, pending the outcome of 
this science, technical and cost study.

Earth Science--Research to Operations

Q6.  As a research agency, many of the measurement technologies and 
capabilities developed by NASA quickly generate a strong constituency 
in the science community, especially in the Earth Sciences discipline. 
NASA and National Oceanic and Atmospheric Administration (NOAA) are 
working together to facilitate the smooth transition of new 
capabilities to enable their quick adoption by NOAA. Are you with 
satisfied with the NASA-NOAA relationship? Do you believe NOAA has the 
necessary resources?

A6. NASA and NOAA coordinate activities at many levels.
    At the executive level, the NASA and NOAA Administrators, along 
with the Under Secretary of the USAF, oversee the development of the 
Nunn-McCurdy certified NPOESS. NASA and NOAA are continuing the 
development of the GEOS-R series of satellites, and the two 
Administrators meet annually on the status of GOES-R. The NASA Earth 
Science Division Director and the NOAA Assistant Administrator for 
Satellites and Information Services are co-chairs of the NASA-NOAA 
Roundtable. The Roundtable oversees the NASA-NOAA Joint Working Group 
on Research and Operations. In January 2008, the Roundtable established 
a joint working team to develop processes to transition the NASA 
satellite nadir altimetry measurement capability to NOAA for 
operational service.
    At the scientist level, NASA and NOAA have numerous coordinated 
activities. An example occurred in March-April 2008 when NASA and NOAA 
coordinated aircraft measurements over the Arctic under the auspices of 
the International Polar Year; in the vicinity of Antarctica at the same 
time, NASA and NOAA conducted the joint GASEX field experiment in the 
Southern Ocean (from the NOAA research vessel Ron Brown) to quantify 
air-sea gas exchange rates under high wind and wave conditions.
    The successful GOES and POES programs demonstrate that NOAA, 
working with NASA, can adopt measurement capabilities demonstrated by 
NASA research satellites for operational services.

Joint Dark Energy Mission

Q7.  With respect to the upcoming competition for a JDEM mission, what 
is the relationship between NASA and the Department of Energy? Will 
NASA alone make the selection? Given DOE's investment in technologies 
related to JDEM, what role will they play?

A7. NASA and DOE have tentatively agreed on a framework for partnering 
in the formulation, implementation, and operation of a Joint Dark 
Energy Mission (JDEM). Each agency will manage its own contributions, 
but NASA will be responsible for the overall success of the space 
mission. A Memorandum of Understanding (MoU) between the two agencies 
is being drafted that will formalize the principles of cooperation 
between the two agencies.
    To facilitate the procurement process, the Announcement of 
Opportunity (AO) for JDEM will be issued by NASA, but the agencies are 
cooperatively writing the AO and will agree to its final wording. Both 
agencies will participate in the proposal evaluation and selection 
process. Specifically, NASA will not make the selection unilaterally. 
The details of these processes will be formalized in the upcoming DOE/
NASA MoU.
    The need for mission cost control dictates that each agency will 
provide to the mission components for which it has established 
expertise and management experience, and commensurate with budget 
availability. Thus, for example, NASA will provide the launch vehicle, 
spacecraft, and overall mission management for JDEM. Both agencies have 
long heritages of detector technology development, and both may 
contribute to the instrumentation of the JDEM payload. Each agency will 
manage its contributions according to its own established management 
protocols. Both will contribute to science operations and data 
processing.

    Landsat Data Continuity Mission (LDCM)

Q8.  How would you characterize the risk of future gaps in data 
continuity for the Landsat program, and what steps is NASA taking, or 
should take, to minimize the risk?

A8. Development and launch of LDCM to replace the existing Landsat-5 
and -7 satellites, which are nearing the end of their operational 
lives, is of the highest priority due to the impact a data gap would 
have on scientific investigations of land use and land cover, as well 
as on many other user applications for the 30-m resolution multi-
spectral measurements. Both Landsat-5 and -7 are experiencing technical 
problems and both satellites are predicted to run out of fuel in late 
2010. The current LDCM development schedule will not result in new data 
until late 2011 (July 2011 launch followed by a period of on-orbit 
checkout and data validation). The joint USGS/NASA Landsat Science Team 
reported in January 2008 that provision of 30-m resolution multi-
spectral data from LDCM by March 2012 (the start of the 2012 northern 
hemisphere growing season) was the highest priority schedule driver for 
LDCM.
    The 39-month development for LDCM and its OLI instrument, leading 
to a July 2011 launch date, is aggressive. The Operational Land Imager 
(OLI) contractor (Ball Aerospace) has made significant internal on-risk 
investments in long-lead parts. Technical progress on the instrument 
has been good to date.

Contractors' Failure to Perform

Q9.  It has come to the Committee's attention that one contractor has 
failed to deliver critical instruments for two key NASA science 
missions (NPOESS and Glory), resulting in very costly delays to the 
programs, and ultimately, to the agency and the taxpayers. What 
leverage does NASA have to deal with poorly-performing contractors? 
What additional authorities could Congress provide NASA to address 
contractor performance problems?

A9. NASA employs a number of tools to deal with poorly performing 
contracts. At the first sign of poor performance, we generally 
implement tighter oversight and review processes in order to identify 
and correct the origin of the performance problem. NASA can negotiate 
or direct management and/or organizational changes to remedy problems 
(i.e., the Agency can direct increased staff in specific areas, replace 
or augment staff, management, etc.). Such actions are normally done in 
parallel with lowering the contractor's award fee grades (and less 
award fee). NASA also elevates the performance concern to higher levels 
in the corporate structure and engages those contractor officials in 
periodic reviews and reporting. If the performance doesn't improve, the 
award fee will be further reduced (to zero if appropriate). If 
appropriate, the Agency may also provide additional resources in areas 
to strengthen the contractor where the organization is weak. These 
resources may take the form of expertise in areas such as planning, 
scheduling, systems engineering, design, fabrication, integration, 
test, provisioning of parts, and risk management. If appropriate, the 
contractor program and/or project manager may be replaced. Many of 
NASA's contracts have ``provisional'' award fee structures. If the 
contract's performance is extremely poor, NASA may recover previously 
awarded fee amounts.
    NASA may also choose to de-scope the work to be performed by the 
contractor by reducing contractual requirements. This effectively 
removes work and potential profit from the contractor.
    NASA considers past performance as a factor when evaluating 
contractor proposals for selection on future work. Because of this, 
NASA may ask and the contractor may agree to provide corporate 
resources to improve project performance in order to protect the 
company's competitive position for future work
    In extreme cases, the contract may be terminated. NASA is not aware 
of any additional authorities that would effectively improve the 
Agency's ability to deal with contractors in the highly technical, 
risky environment of space systems development.
                   Answers to Post-Hearing Questions
Responses by Lennard A. Fisk, Thomas M. Donahue Distinguished Professor 
        of Space Science, University of Michigan; Chair, National 
        Research Council Space Studies Board

Questions submitted by Chairman Mark Udall

Q1.  What, if any, effect will the virtual elimination of the New 
Millennium program, have on future missions?

A1. In my judgment, the virtual elimination of the New Millennium 
program will not have a major impact on future missions. Although the 
New Millennium did result in new and important technologies, it is 
unclear whether this approach is the most cost-effective, e.g., it is 
not clear that it is necessary to fly the new technology in order to 
demonstrate its suitability for use in other missions, nor is it clear 
that the hand-off from the New Millennium program to other flight 
programs has been optimum.

Q2.  What should be the flight rates for Explorer, Discovery, New 
Frontiers and Mars Scout mission lines in terms of the program balance 
needs described in various National Academies reports? Do you believe 
the proposed budgets included in the FY09 budget request would support 
the necessary flight rates for those programs?

A2. I call your attention in particular to the NRC Report: An 
Assessment of Balance in NASA's Science Programs, the so-called Balance 
Report, issued in 2006. Finding 2 of this report stated:

         ``The program proposed for space and Earth sciences is not 
        robust; it is not properly balanced to support a healthy mix of 
        small, moderate-sized, and large missions and an underlying 
        foundation of scientific research and advanced technology 
        projects; and it is neither sustainable not capable of making 
        adequate progress toward the goals that were recommended in the 
        National Research Council's decadal surveys.''

    In support of this finding, the Report noted:

         ``Explorers and other small missions have been delayed or 
        canceled. Explorer, ESSP and Mars Scout missions are among the 
        smallest missions in NASA's science portfolio, and because of 
        their centrality to science research, all of the NRC decadal 
        survey reports have considered them vital and inviolable. These 
        small missions fill critical science gaps in areas that are not 
        addressed by strategic missions, serve as precursors to larger 
        missions, support the rapid implementation of attacks on very 
        focused topics, provide implementation and the use of new 
        approaches to incorporate into the long planning cycles needed 
        to get a mission into the strategic planning queues, and 
        provide particularly substantial means to engage and train 
        science and engineering students in the full life cycle of 
        space research projects. The steady successes and productivity 
        of the small missions are strong arguments for their role in a 
        balanced overall mix of mission sizes.''

    The Balance Report was issued in 2006, and in particular discussed 
the FY 2007 budget for NASA science, which the Report judged not to 
provide an adequate balance of small, moderate-sized versus larger 
missions. The balance for science has been permitted to grow only at 
about one percent per year, and thus balance was still inadequate in FY 
2008. The proposed budget for SMD in FY 2009 makes an attempt to 
introduce more smaller missions back into the NASA portfolio. It is 
unclear, however, what the fate will be of these new smaller missions, 
particularly since some of the larger science missions appear to be 
making demands on the available funding.
    The imbalance between smaller and larger missions thus persists, 
and is a weakness in the program that interferes with the progress of 
science, and the training of the next generation of space scientists 
and engineers, and it needs to be corrected.

Q3.  Your testimony noted that ``a true capability to predict space 
weather will only come when we have developed adequate understanding of 
the governing physical processes, and that in turn requires a 
comprehensive heliospheric research program.'' Do you believe NASA's 
heliospheric program is comprehensive in a way that is enabling an 
understanding of the physical processes required to predict space 
weather? If no, what is missing from the program?

A3. We should never underestimate the challenge of understanding the 
physical processes that govern space weather. These processes, which 
involve complex interactions between plasmas and magnetic fields, are 
more challenging than the processes that govern terrestrial weather. We 
should also never settle for anything less than a predictive capability 
that is based on a thorough understanding of the governing physics. In 
particular, we should not rely on a predictive capability that is based 
on correlations with similar past events. Rather, we need to understand 
the underlying physics, incorporate the physics into powerful numerical 
models, and drive the predictions of the models by comprehensive 
observations. It would be unwise to entrust the safety of our space 
assets and in particular our astronauts to anything less.
    The Heliophysics program is a comprehensive program, which, within 
the resource limitations that plague all of the NASA, is attempting to 
make the required observations, understand the underlying physics, and 
model it. If there is any criticism that can be levied, it would be 
that the program could use a greater degree of organization so that the 
research results of the various aspects of this complex set of problems 
converge towards a true predictive capability. I would also encourage 
the Heliophysics program to be ever alert for and to encourage new 
ideas and new approaches. In a field where so much remains to be known, 
it is necessary not to rush to judgment, but rather to systematically 
incorporate new concepts so that the best and most reliable predictive 
models result.

Questions submitted by Representative Tom Feeney

Technology Development

Q1.  NASA's science directorate has reconfigured its technology 
development activities by eliminating a generic directorate-wide 
program, and instead assigning technology development responsibility to 
individual missions. The rationale appears to be that mission-specific 
technology requirements is less wasteful. Do you agree with this 
rationale and what, if any, shortcomings might arise from this 
approach?

A1. This is an area in which a balance is required. There is a need to 
develop mission-specific technology, to ensure that challenging new 
missions can be undertaken successfully. There is also a need to 
develop new technology unrelated to specific missions, since such 
initiatives have frequently resulted in measurements and missions that 
we did not assume were possible. The pendulum on this issue has swung 
back and forth. There have been periods when NASA's primary emphasis 
was on technology unrelated to missions, whereas the reverse is true 
today.
    In my opinion, this is yet another example of where a balance needs 
to be reestablished in the NASA program. This is also an example of 
where reductions in the Research & Analysis program have created 
difficulties, since R&A funding has been a traditional source for the 
development of new technologies unrelated to missions.
                   Answers to Post-Hearing Questions
Responses by Berrien Moore III, Executive Director, Climate Central, 
        Inc.; Chair, Committee on Earth Studies, Space Studies Board, 
        National Research Council, The National Academies

Questions submitted by Chairman Mark Udall

Q1.  What, if any, effect will the virtual elimination of the New 
Millennium program have on future missions?

A1. The primary impact is to retard significantly needed technology 
advances. It is well established that technology challenges area 
primary cause for cost increases. Second, the recommended Earth science 
missions require advanced technologies--this requirement is 
unavoidable; it is not an added luxury. Therefore, the virtual 
elimination of the New Millennium program creates, in effect, a perfect 
storm for cost increases and program failures.

Q2.  The European Space Agency and the Japanese Aerospace Exploration 
Agency are collaborating on an Earth observation satellite called 
EarthCARE, which will investigate clouds and aerosol interactions. One 
of the Earth science decadal survey missions, the aerosol-cloud-
ecosystem mission, ACE, would also look at these phenomena. In light of 
the constrained budgetary environment, should NASA explore potential 
collaboration on EarthCARE and could such a mission satisfy the 
objectives of the ACE mission as recommended in the decadal survey?

A2. In my view, this path should, at least, be aggressively explored, 
and if this pathway of international collaboration is not taken, then 
it must be clearly stated as to why it is not taken. In this regard, 
the ``perfect'' must not become the enemy of the ``good''--we cannot 
afford that mistake. The Decadal Survey was very clear about the value 
on international collaboration (such as accomplishing the requirements 
of ACE via collaboration on EarthCARE and on the problem of the 
``perfect'' mission.

Q3.  Do you agree with NASA's approach for technology development for 
the two Earth science missions that are planned for implementation in 
the FY09 budget request? How should NASA take technologies to the state 
of maturity required for flight, especially given programmatic cuts to 
Earth science technology? What fraction of the total project cost of 
each of the two missions should NASA spend on technology development?

A3. My problem with NASA's approach is that a) it is too narrow-namely 
it should focus on the technology needs of more missions and b) it 
appears that on two of the missions (ICESat-II and CLARREO) that there 
is an unacceptable cost growth, which further retards development of 
other missions. In my view, much of this cost-growth is from 
unnecessary added costs at the Centers.
    To take technologies to the state of maturity requires first a 
focused well-funded, industry active program on technology development 
and second it requires that missions begin with extended Phase A study 
and that if problems or cost growth appears, then the mission should be 
placed in the ``break-down'' lane so that other missions are not 
trapped in the queue and before huge marching armies are engaged.
    What Fraction--I am not sure; in fact, I am not sure that there is 
a magic fraction that suits all missions.

Q4.  Dr. Moore, if the Glory satellite, which will carry a solar 
irradiance measurement instrument, is further delayed, what are the 
potential implications for maintaining data continuity of this 
measurement?

A4. The threat is real; I am very disappointed in the very poor 
development of the primary instrument (APS). This failure on top of the 
failed development path for VIIRS is simply unacceptable.

Q5.  Recently OSTP, NASA, and NOAA agreed to continue three high 
priority climate measurements and restore climate sensors that were 
removed during the restructuring of the NPOESS program. One of those 
sensors, TSIS, has not yet been assigned to a satellite. Dr. Moore, 
what is your understanding of the status and issues related to 
assigning TSIS to a satellite?

A5. Since I am so late in responding, for which I apologize, this issue 
is now resolved and TSIS will fly on the first NPOESS mission (C-1).

Q5a.  When does TSIS need to fly to ensure data continuity of solar 
irradiance?

A5a. Ideally now, but certainly no later than 2010. If there are 
indications of continuing slippage of Glory, then we may need to 
consider flying TSIS on NPP.

Questions submitted by Representative Tom Feeney

Technology Development

Q1.  NASA's science directorate has reconfigured its technology 
development activities by eliminating a generic directorate-wide 
program, and instead assigning technology development responsibility to 
individual missions. The rationale appears to be that mission-specific 
technology requirements is less wasteful. Do you agree with this 
rationale and what, if any, shortcomings might arise from this 
approach?

A1. Having mission-focused technology development is not a bad idea. 
What are bad ideas are: a) Having only mission-specific technology 
development pathways, and b) Having too limited a set of missions for 
which there is technology development money. I think that there is a 
need for a general and robust technology development program that is 
advancing technologies for the missions set forth in the Decadal 
Survey, and I think that the current investment on individual missions 
should be widened.

Earth Science--Research to Operations

Q2.  As a research agency, many of the measurement technologies and 
capabilities developed by NASA quickly generate a strong constituency 
in the science community, especially in the Earth Sciences discipline. 
NASA and NOAA (National Oceanic and Atmospheric Administration) are 
working together to facilitate the smooth transition of new 
capabilities to enable their quick adoption by NOAA. Are you with 
satisfied with the NASA-NOAA relationship? Do you believe NOAA has the 
necessary resources?

A2. It appears to me that the NASA-NOAA relationship has improved in 
the last six months--this is good, but it continues to need 
encouragement. NOAA does not have sufficient resources, and I seriously 
question its location and structure. The challenges of global 
environment change and particularly global climate change are of such 
scope that I believe that we need a fresh look at not only NOAA but 
other federal agencies as well, including the Earth sciences program at 
NASA. Change is needed, but we must recognize that structural change 
can also be a step backward: the Homeland Security Agency is, in my 
view, a case in point.
                   Answers to Post-Hearing Questions
Responses by Steven W. Squyres, Goldwin Smith Professor of Astronomy, 
        Cornell University; Principal Investigator, Mars Exploration 
        Rover Project

Questions submitted by Chairman Mark Udall

Q1.  What, if any, effect will the virtual elimination of the New 
Millennium program have on future missions?

A1. The New Millennium program has played the important role of 
allowing new technologies to be tested in flight before they are put to 
use on science missions. This program has been important because of the 
historical reluctance of major science missions to use technologies 
that have not previously been shown to work in space. Elimination of 
the program would mean either that other opportunities would have to be 
found for flight-testing critical technologies, or that science 
missions that wanted to fly such technologies would have to take on 
greater risks.

Q2.  Dr. Squyres, what technical requirements must be met to 
successfully execute a Mars Sample Return mission and how far along are 
we in addressing those requirements.

A2. There are many technical requirements for a successful Mars Sample 
Return mission. They include (but are not limited to) the following:

         (1)  A landing system capable of delivering a substantial mass 
        to the Martian surface.

         (2)  A roving vehicle capable of identifying and selecting an 
        adequate set of samples.

         (3)  A sample collection system capable of collecting soil, 
        pebbles, and intact rock cores.

         (4)  A sample handling system capable of delivering samples to 
        a Mars Ascent Vehicle.

         (5)  A Mars Ascent Vehicle capable of being stored on the 
        Martian surface for an extended period of time and then 
        launching a sample container into orbit around Mars.

         (6)  An on-orbit rendezvous system capable of locating and 
        retrieving the sample container while it orbits Mars.

         (7)  A system for effectively containing the samples during 
        their return to Earth, preserving their scientific integrity 
        and assuring no release into the terrestrial environment after 
        landing.

         (8)  A landing system capable of delivering the samples to the 
        Earth's surface.

         (9)  A sample receiving facility capable of providing 
        appropriate quarantine of the samples and where they can 
        undergo a thorough preliminary evaluation.

        (10)  Laboratory facilities at NASA centers, universities, and 
        other institutions where detailed scientific study of the 
        samples can take place.

    The landing system under development for the Mars Science 
Laboratory (MSL) mission may take care of item (1), and the rovers 
developed for the Mars Exploration Rover mission and MSL should take 
care of item (2). The landing system in item (8) might be derived from 
the ones developed for the Stardust and Genesis missions. The other 
items, however, require considerable work, and in my estimation will 
cost several hundred million dollars between now and initiation of the 
project.

Q3.  What science objectives must a Mars Sample Return mission meet in 
order to make the multi-billion dollar investment worthwhile? What type 
of Mars Sample Return mission would not be worth the investment?

A3. In order to be worth a multi-billion dollar investment, I feel that 
returned samples from Mars must meet several criteria. A few of the 
most important are listed below.
    First, they must be well selected. A ``grab sample'' of whatever 
material is closest to the lander is unlikely to provide the desired 
answers to key scientific questions involving ancient climate, 
habitability, and life. Instead, the samples should be collected by a 
roving vehicle over an extended period of time. This can be done as 
part of the Mars Sample Return mission itself, or can be done ahead of 
time in a sample ``cache'' that the MSR mission then retrieves.
    Second, the context of the samples must be established and known. 
This means that the samples must be collected, documented, and stored 
en route to Earth in a fashion that makes it possible to know after the 
fact where each one was collected.
    Third, their physical integrity must be preserved. The transit to 
Earth and landing on Earth must not be so violent that the samples are 
severely damaged in the process.
    Fourth, the total sample mass must be adequate. I am reluctant to 
recommend a specific mass value, because the mass requirements for 
state-of-the-art laboratory analytical techniques are constantly 
evolving. But the total sample mass should be thoroughly reviewed by a 
group of experts before mission requirements are finalized.

Q4.  What priority was ascribed to lunar science within the broader 
context of the National Academies decadal survey for solar system 
exploration? What science benefit would the proposed lunar orbiter and 
landers provide for both research on the Moon and elsewhere in the 
solar system?

A4. Lunar science figured prominently in the last solar system decadal 
survey. Specifically, a South Pole-Aitken Basin Sample Return mission 
was one of the highest priority missions identified. This mission would 
return a sample from the largest impact basin on the Moon, potentially 
sampling the lunar mantle.
    The proposed new lunar orbiter and landers do not address science 
called for in the decadal survey. Instead, they are aimed at issues 
that may be relevant to future human exploration of the Moon.

Q5.  Last year the Science Mission Directorate instituted requirements 
and pre-screening measures for scientists who planned to propose for 
competitive missions that are led by a scientist rather than a NASA 
official. The larger of these scientist-led mission classes, New 
Frontiers, ``have more stringent requirements than medium or small 
class missions'' according to information on NASA's New Frontiers 
website. What is your perspective on these requirements?

A5. These requirements are very stringent, and may be overly 
constraining. Certainly I expect that a principal investigator (PI) who 
meets the requirements will probably be qualified. But the negative 
impact of having such stringent requirements is that they would 
dramatically reduce the pool of prospective PIs from whom NASA could 
draw. A very dedicated but somewhat inexperienced PI might do an 
excellent job if paired with an experienced Project Manager with whom 
he/she could work closely. So rather than a ``one size fits all'' set 
of requirements on PIs imposed before they can propose, I would rather 
see NASA thoughtfully assess the qualifications of mission leadership 
teams as part of the proposal evaluation process. This should take 
place, in my opinion, via evaluation of the combined experience of the 
PI and the Project Manager.
    It certainly would be reasonable for NASA to provide guidelines 
within the Announcement of Opportunity regarding the kind of experience 
the agency expects a project management team to have.

Q6.  How important is the availability of plutonium to the future 
planetary science program? What are the impacts of not having access to 
this resource?

A6. Plutonium-238, which is used in radioisotope thermoelectric 
generators (RTGs), provides an enabling source of electrical power for 
certain classes of solar system missions. These include missions to 
deep space, such as high-capability missions to the Jupiter system and 
any missions to targets more distant than Jupiter. They also include 
long-lived, high-capability missions to the Martian surface, where the 
availability of solar power can be compromised by environmental dust. 
At the present, there is no substitute for RTGs as power sources for 
such missions. Therefore, without reliable access to <SUP>238</SUP>Pu 
certain high-priority missions would not be possible. The planned Outer 
Planets Flagship is an example.

Questions submitted by Representative Tom Feeney

Q1.  NASA's science directorate has reconfigured its technology 
development activities by eliminating a generic directorate-wide 
program, and instead assigning technology development responsibility to 
individual missions. The rationale appears to be that mission-specific 
technology requirements is less wasteful. Do you agree with this 
rationale and what, if any, shortcomings might arise from this 
approach?

A1. My personal view is that it is wise to have a ``mixed portfolio'' 
of technology development activities. What I mean by this is that both 
directorate-wide and mission-specific technology development approaches 
have merit. Some technologies have wide applicability to a broad range 
of missions. Such technologies, for example, include advanced 
propulsion concepts and advanced avionics. Others tend to be much more 
mission-specific. In my opinion it is prudent to have a directorate-
wide program of technology development that focuses on technologies of 
broad applicability, and then separate mission-specific technology 
development activities that focus on targeted technologies that are not 
covered by the directorate-wide program.

                   Answers to Post-Hearing Questions

Responses by Jack O. Burns, Professor of Astrophysics and Space 
        Astronomy; Vice President Emeritus for Academic Affairs and 
        Research, University of Colorado at Boulder

Questions submitted by Chairman Mark Udall

Q1.  What, if any, effect will the virtual elimination of the New 
Millennium program have on future missions?

A1. The New Millennium program was conceived in 1995 by NASA's Office 
of Space Science and the Office of Earth Science to ``speed up Space 
Exploration through the development and testing of leading-edge 
technologies'' that would fly on future space science missions. This 
program was created to provide a talented pool of younger instrument 
builders needed for future missions in astrophysics and Earth sciences. 
This program was a valuable proving ground for them.
    The impact of the New Millennium program on astrophysics has 
certainly diminished as funding has declined. On the positive side, 
much of this development is now supported via the Astronomy and Physics 
Research and Analysis (APRA) program within the Astrophysics Division 
at NASA. This program provides funding for research on state-of-the-art 
technology development for instruments that may be proposed to fly on 
future missions, instrument testbeds to be flown on balloons or 
sounding rockets, and for laboratory research.
    Thus, in astrophysics, I do not see a major loss in the elimination 
of the New Millennium program. Instead, robust investment in technology 
development and testing should occur through an expansion of the APRA 
program. Instrument development for future astrophysics missions is 
extremely important and more investment is required.

Q2.  The FY09 budget request for NASA's astrophysics program proposes 
funding of about $315 million for future missions to be recommended in 
the next National Academies astronomy and astrophysics decadal survey. 
Most of those funds, however, are to be held for the James Webb Space 
Telescope, which requires additional reserves to support management of 
the 70 percent confidence level, according to NASA officials. What are 
the implications of the lack of a budget wedge to support ``Decadal'' 
priorities for astronomy and astrophysics?

A2. Simply stated, without a budget wedge for Decadal priorities, the 
astrophysics community will be unable to begin any new large missions 
in the next decade. As a result, we will abandon our leadership in much 
of the space astrophysical sciences. Meanwhile, ESA is stepping up its 
efforts with new missions proposed between 2010 and 2020 (ESA's 
``Cosmic Vision''). Japan, Germany, Russia, India, and China have 
ambitious plans for new missions in space astronomy and high energy 
astrophysics. With no astrophysics budget wedge for NASA, other nations 
will gain 10 years of steady advancement over the U.S. while we finish 
one large, but important observatory (JWST) and no new starts.
    It is important to note that JWST will be a powerful observatory 
that will potentially observe the first galaxies and stars, and will 
support the aspirations of many astronomers. JWST successfully 
completed its Preliminary Design Review and Non Advocate Review (NAR) 
in April 2008. After studying the reports from these reviews, NASA will 
establish the agency cost baseline for the mission that will be 
reported to Congress. If the PDR/NAR recommends additional funds above 
those already accounted for in the 70 percent confidence level for 
JWST, some or all of the $315 million identified in the FY 2009 
projected budget out-years will disappear, thus diminishing or 
eliminating the prospects of any new starts recommended by the Decadal 
Survey. The AAAC has recently expressed similar concerns.

Q3.  The National Academies study that recommended JDEM be developed 
and launched used an independent cost estimator to assess the potential 
cost of a JDEM mission. That independent cost estimator estimated that 
a JDEM would cost NASA $1-1.3 billion in total life cycle costs, even 
when taking into account a potential contribution from DOE. NASA, on 
the other hand, estimates that the cost of JDEM would be about $600 
million for development (for the NASA portion), and it plans to launch 
the mission in 2015.

        a.  In your view, will the JDEM that NASA is initiating be able 
        to achieve the high priority science for this path finding area 
        of science on the budget and timeframe that NASA has laid out?

        b.  What are your views on the variance in cost between NASA's 
        estimate and the estimates of the Academies study?

A3. Costing on government projects is an inexact science, at best. The 
NRC BEPAC made a good effort to estimate the costs for JDEM but had 
limited time to do so. NASA has independently estimated its costs for 
JDEM at $600 million. Who is really correct here? This is difficult to 
know because both the NRC and NASA costed a generic JDEM without 
knowing which of several technology avenues will be pursued (see for 
example, the Dark Energy Task Force Report, http://www.science.doe.gov/
hep/DETF-FinalRptJune30,2006.pdf). Furthermore, this is complicated 
because two federal agencies are involved and the costs of working 
across NASA and DOE in an equal partnership are unknown. The real costs 
can only be determined after specific JDEM proposals are submitted, 
evaluated, and a final telescope is chosen.
    With this qualifier, I do believe that a mid-sized JDEM with a NASA 
cost ceiling of $600 million coupled with planned ground-based 
telescopes could make significant advancements on Dark Energy. I 
recommend that NASA solicit proposals with this cost cap and carefully 
consider the feasibility and accuracy of the budgets proposed by the 
principal investigators. If none of the proposed JDEM missions are 
deemed viable unless the costs exceed $1 billion, I recommend that NASA 
request the Decadal Survey to examine JDEM relative to the full 
spectrum of astrophysics priorities. The BEPAC considered only a 
limited set of Beyond Einstein missions in ranking JDEM as its top 
selection. Given the likely limited resources of astrophysics beyond 
2010, the Decadal Survey should weigh in on a >$1 billion JDEM relative 
to other proposed observatories to determine if it is the top priority 
for a next large astrophysics mission.

Q4.  How well will the FY09 budget request help advance other major 
projects in the Physics of the Cosmos program (formerly Beyond Einstein 
Program) such as the Laser Interferometer Space Antenna (LISA) and the 
Constellation-X observatory (Con-X)? What are your perspectives on the 
future of these projects?

A4. At $5.7 million for LISA and $8.3 million for Con-X in FY 2009, 
this funding is barely enough to keep these highly rated projects 
alive. The projected outyear funding in FY 2013 grows to $35 million 
and $45 million, respectively, for LISA and Con-X. However, this 
projected funding is totally inadequate to advance either mission to 
flight if the Decadal Survey recommends one or both as a top priority.
    As noted in my testimony, I strongly recommend that NASA 
aggressively pursue and fund international partnership agreements on 
both of these missions to reduce costs and risks. Both missions offer 
exciting science but have technology hurtles. Both will be reviewed 
again by the Decadal Survey to determine their readiness for launch in 
the timeframe of the next decade.

Q5.  Are NASA's plans for an ExoPlanet mission consistent with the 
findings of the Congressionally-chartered Astronomy and Astrophysics 
Advisory Committee (AAAC) ExoPlanet Task Force Report? Do you believe 
that a medium-class ExoPlanet mission, as proposed by NASA in the FY09 
budget request, should be ranking by the National Academies decadal 
survey and therefore delayed until the completion of the survey 
process? If so, what if any steps should NASA take to prepare for an 
ExoPlanet mission in the interim?

A5. Among the recommendations of the 2008 Annual Report of the AAAC is 
the following regarding ExoPlanet missions: ``given the pressure on the 
astrophysics budget and the limited opportunities post-2009, the AAAC 
recommends that any new medium class or larger ExoPlanet mission only 
proceed if it is prioritized to do so by the Decadal Survey.'' I concur 
and urge NASA to delay competition of a mid-sized ExoPlanet mission 
until the Decadal Survey has had an opportunity to evaluate the now 
wide range of exciting technologies for extrasolar planet detection--
both astrometric and occulter techniques. NASA has funded multiple 
strategic concept studies for ExoPlanets in this current fiscal year 
and the results will need to be evaluated by the Decadal Survey.
    NASA already has an exciting medium-size mission to search for 
ExoPlanets that will be launched in 2009 called Kepler. Similarly, the 
French along with other international partners have launched the COROT 
mission that will search for ExoPlanets via periodic micro-eclipses 
when the planets transit in front of their parent stars. We should 
evaluate the results of these missions in considering next steps for 
larger potential ExoPlanet searches.
    The AAAC also stated that the ``astrometric mission recommended in 
the ExoPTF report is not the Space Interferometry Mission (SIM).'' 
Furthermore the AAAC goes on to say that the ``ExoPTF explicitly 
recommended a detailed review of technology before embarking on its 
recommended narrow angle astrometry mission.'' I strongly agree with 
the AAAC in objecting to the efforts of individuals or groups who are 
seeking Congressional direction to force a new start for SIM in FY 2010 
that would ``distort the astronomy community's strategic, consensus-
driven priorities.''

Q6.  You testified that NASA's astrophysics budget, ``is forecast to 
fall by $423 million or 31 percent in real buying power over that for 
2008. This decrease is proposed to occur right during an era of 
significant new astrophysics discoveries that will commence 
particularly with the James Webb Space Telescope at the end of this 
five-year period.'' Are there specific projects or programs that you 
are particularly worried about in terms of the decreases and their 
affect on the health of astrophysics? If so, what are they?

A6. The entire portfolio of astrophysics research for the next decade 
is endangered by an anemic, inflation-adjusted projected budget. This 
decline will affect all areas of the program--new missions, continued 
missions, Explorers, and R&A. It is difficult to imagine how NASA can 
begin any new missions, large or medium, as will be recommended by the 
Decadal Survey with the budget forecast for the out-years beyond 2010. 
Certainly, Con-X and LISA will be impossible.
    In many ways, the current decade is a golden age for NASA 
astrophysics with three observatory class missions (HST, Chandra, 
Spitzer) and a robust fleet of mid-sized telescopes (Kepler, WISE, 
Herschel, Planck, and GLAST). On the other hand, by the middle of the 
next decade we will have only one space observatory (JWST), and 
possibly JDEM, but not much else. The current budget forecast does not 
have room for a significant ExoPlanet mission. As noted above, we are 
seriously jeopardizing America's leadership in space astrophysics while 
the Europeans, Japanese, and Chinese gain a decade worth of competitive 
advantage and experience over the U.S.

Q7.  Dr. Burns, you testified on the problem of attracting ``new 
instrumentalists who build the next generation of spacecraft sensors or 
imagers'' and noted that ``we almost drove the balloon and the rocket 
program out of existence, and so this is very helpful in that regard 
but we really need to do much more.'' What more should be done?

A7. Funding for technology development within NASA needs to be 
substantially increased. It is an investment in not only NASA's future 
missions but an investment in America's national innovation expertise. 
NASA must maintain the health of its Explorer, sounding rocket, and 
balloon programs, all of which are training grounds for the next 
generation of space scientists and technologists. We must maintain the 
launch capability for small, university-class payloads.
    Other possibilities might include a national Astrophysics 
Instrumentalist postdoctoral fellowship similar to the Hubble 
fellowships, and a program of fellowships bridging graduate school 
through postdoctoral training for space scientists working on detector 
and telescope development. Such fellowships for graduate students and 
post-docs might be explicitly attached to the sounding rocket and 
balloon programs.

Questions submitted by Representative Tom Feeney

James Webb Space Telescope

Q1.  The James Webb Space Telescope, scheduled for launch in 2013, is a 
high-risk, flagship mission. Earlier this decade it ran into serious 
and expensive technological challenges that forces NASA to de-scope the 
mission and delay its launch. How stable is the program today; is it 
staying within its schedule and budget profiles? Have all technological 
risks been retired?

A1. As I understand it from NASA Astrophysics, JWST recently 
successfully completed a major milestone in passing its Preliminary 
Design Review (PDR) and the Non Advocate Review (NAR). This PDR/NAR 
indicates that JWST has retired most, but not all, of its technical 
risks. From our community's experience, we have learned that risks 
cannot be completely retired until the mission is launched and the 
telescope is operating successfully. Nonetheless, the successful PDR/
NAR reviews were an important step forward suggesting that the James 
Webb Space Telescope's major technology issues are in-hand and that the 
program is now stable. Currently, JWST appears to be close to its cost 
and schedule targets. Astrophysics Division Director Morse, with 
guidance from NASA Administrator Griffin, is maintaining a substantial 
reserve for JWST which is prudent for such a technologically 
challenging project.

Technology Development

Q2.  NASA's science directorate has reconfigured its technology 
development activities by eliminating a generic directorate-wide 
program, and instead assigning technology development responsibility to 
individual missions. The rationale appears to be that mission-specific 
technology requirements is less wasteful. Do you agree with this 
rationale and what, if any, shortcomings might arise from this 
approach?

A2. Mission-specific technology development for a mission-oriented 
agency such as NASA makes sense. However, it would be unwise to devote 
all technology development funding to just specific missions since this 
would miss an opportunity for cross-mission synergies and for ``blue 
sky'' technology innovations.
    NASA needs a mixture of investment strategies for technology 
development. SMD's concentration of resources for technology 
development on individual missions is sensible to enhance the 
probability of successful telescope operations. But, as I noted in my 
response to Chairman Udall's first question, the Astronomy and Physics 
Research and Analysis (APRA) program should also be increased to 
provide cross-mission technology development funding, to involve 
students and postdoctoral researchers in future instrumentation, and to 
provide some cross-fertilization and an outlet for development of 
creative new technologies. The APRA program provides an opportunity to 
design innovative new optics and detectors that can be tested on 
rockets and balloons before they would fly in space. Programs such as 
APRA should be willing to take risks on the development of technologies 
that might not be flown on future missions but could still contribute 
potential applications beyond astrophysics into the private sector.

                                   

</pre></body></html>
